<html>
<title> - A REVIEW OF THE AIRSPACE REDESIGN PROJECT AND FLIGHT SCHEDULING PRACTICES AT THE PHILADELPHIA AIRPORT</title>
<body><pre>[Senate Hearing 110-698]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-698
 
    A REVIEW OF THE AIRSPACE REDESIGN PROJECT AND FLIGHT SCHEDULING 
                 PRACTICES AT THE PHILADELPHIA AIRPORT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    APRIL 25, 2008--PHILADELPHIA, PA

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
44-742 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Transportation and Housing and Urban Development, and 
                            Related Agencies

                   PATTY MURRAY, Washington, Chairman
ROBERT C. BYRD, West Virginia        CHRISTOPHER S. BOND, Missouri
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            SAM BROWNBACK, Kansas
TOM HARKIN, Iowa                     TED STEVENS, Alaska
DIANNE FEINSTEIN, California         PETE V. DOMENICI, New Mexico
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
                                     THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                              Peter Rogoff
                            William Simpson
                          Meaghan L. McCarthy
                             Rachel Milberg
                         Jon Kamarck (Minority)
                      Matthew McCardle (Minority)
                        Ellen Beares (Minority)

                         Administrative Support

                              Teri Curtin
                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Arlen Specter.......................     1
Statement of Robert A. Sturgell, Acting Administrator, Federal 
  Aviation Administration, Department of Transportation..........     3
Steve Kelley, Program Manager, Airport Redesign Project..........     3
Mary McCarthy, Office of the Chief Counsel, Federal Aviation 
  Administra- Gtion..............................................     3
Prepared Statement of Robert A. Sturgell.........................     4
Congestion and Delays--Understanding the Problem.................     4
Airspace Redesign Overview.......................................     5
Airspace Redesign Project Implementation.........................     5
Complementary Solutions--Enhancing Capacity......................     6
Complementary Solutions--NextGen.................................     7
Complementary Solutions--New York ARC............................     7
Environmental Stewardship........................................     8
Statement of David James Gribbin, General Counsel, Department of 
  Transportation.................................................     9
    Prepared Statement...........................................    11
The Problem......................................................    11
DOT Actions......................................................    12
Addressing the Problem and Not the Symptom.......................    15
Prepared Statement of Senator Frank R. Lautenberg................    20
Operations During Peak Hours.....................................    21
Statement of Hon. Michael Nutter, Mayor, City of Philadelphia, 
  Philadelphia, PA...............................................    27
    Prepared Statement...........................................    30
Introductory Remarks.............................................    30
Airport Update...................................................    30
New York/New Jersey/Philadelphia FAA Airspace Redesign...........    30
Flight Scheduling Practices......................................    31
Aviation Delays..................................................    35
Prepared Statement of Bryan R. Lentz, Pennsylvania State 
  Representative.................................................    44
Statement of Representative Joe Sestak, U.S. House of 
  Representatives, Pennsylvania, Seventh District................    45
Statement of John J. Whelan, Vice Chairman, Delaware County 
  Council........................................................    48
    Prepared Statement...........................................    50
Statement of Patrick Forrey, President, National Air Traffic 
  Controllers Association........................................    52
Don Chapman, National Air Traffic Controller Association's 
  Facility Representative........................................    52
Prepared Statement of Patrick Forrey.............................    55
Air Traffic Issues of Concern to the Philadelphia Metropolitan 
  Area...........................................................    55
De-Combination of Philadelphia Tower and TRACON..................    56
Dispersal Headings...............................................    57
Airline Over-scheduling..........................................    58
Air Traffic Controller Staffing and the Effect of the Imposed 
  Work Rules.....................................................    59
Statement of Stephen S. Aichele, Chairman, Saul Ewing, 
  Representing the Philadelphia CEO Council for Growth...........    61
Prepared Statement of Mark Schweiker, President and CEO, Greater 
  Philadelphia Chamber of Commerce; Chairman of the CEO Council 
  for Growth.....................................................    63
Statement of John Meenan, Executive Vice President and Chief 
  Operations Officer, Air Transport Association of America.......    65
    Prepared Statement...........................................    68


    A REVIEW OF THE AIRSPACE REDESIGN PROJECT AND FLIGHT SCHEDULING 
                 PRACTICES AT THE PHILADELPHIA AIRPORT

                              ----------                              


                         FRIDAY, APRIL 25, 2008

                           U.S. Senate,    
 Subcommittee on Transportation and Housing
       and Urban Development, and Related Agencies,
                               Committee on Appropriations,
                                                  Philadelphia, PA.
    The subcommittee met at 3:50 p.m., at the National 
Constitution Center, 525 Arch Street, Independence Mall, Kirby 
Auditorium, Philadelphia, Pennsylvania, Hon. Arlen Specter 
presiding.
    Present: Senator Specter.


               OPENING STATEMENT OF SENATOR ARLEN SPECTER


    Senator Specter. Good afternoon, ladies and gentlemen. It's 
3:50, the scheduled time for this hearing on the Philadelphia 
International Airport. At the outset, I thank the chairperson 
and the ranking member of the Transportation Subcommittee of 
Appropriations, Senator Murray and Senator Bond, for 
authorizing the hearing.
    I am a member of the subcommittee, and of course, of the 
full Appropriations Committee. I regret the necessity of having 
to delay the hearing, but I appreciate your accommodating my 
schedule, it was a matter of necessity.
    The Philadelphia Airport is a very vital part of this 
region, southeastern Pennsylvania, really, to the middle part 
of the State, much of New Jersey, the State of Delaware--very, 
very important to the commerce of the city, the private 
activities of so many passengers.
    It serves some 29 airlines, providing 700 daily departures 
to more than 100 domestic and international cities, and has a 
$14 billion impact on the region.
    Philadelphia ranks 9th in the Nation and 10th in the world 
in the number of flights that it handles. Regrettably, 2007, 
Philadelphia ranked 29 out of the 32 major domestic airports in 
terms of on-time departures, with slightly less than a 70 
percent on-time flight rating, and 28 out of 32, in terms of 
on-time arrivals, with only 66.5 percent of flights arriving on 
time.
    The subject matter of today's hearings will take up the 
overflights over Delaware County, which have understandably 
created grave concern by the residents of that area, who have 
been impacted by the noise. The commitment has been made by the 
FAA, that on the overflights from 9 a.m. to 11 a.m. and 2 p.m. 
to 7 p.m., that there would be no overflights unless there were 
more than 10 planes backed up.
    According to air traffic controllers, planes are sent over 
Delaware County as a first option, even when no other planes 
are waiting to take off, meaning that the overflights are being 
used as primary routes, not reliever routes, as the FAA earlier 
had indicated.
    We have had extensive correspondence with Acting 
Administrator Sturgell, who has been very cooperative in 
responding to the questions which we have had. We have had 
meetings with both Mr. Sturgell, and Mr. Kelley--(Air 
Controller Chief), on these issues--and have emphasized the 
need to have more done on this issue. And we're going to 
explore that on the public record here today. And we have 
Acting Administrator Robert Sturgell, and Mr. Gribbin, the 
General Counsel of the Department of Transportation.
    With respect to the overcrowding, the situation appears to 
me to be enormously serious--it's like a restaurant with 100 
seats and has 175 bookings, so what would you expect? People 
come for a 7:45 reservation.
    The testimony of the President of the National Air Traffic 
Controllers Association, Patrick Forrey, on September 7, 2007, 
commented that Philadelphia is able to handle 12 or 13 
departing aircraft per quarter hour, under optimal conditions, 
yet 15 flights are scheduled to depart from 9:45 a.m. to 10 
a.m., another 15 from 10:00 to 10:15, and 17 from 10:15 to 
10:30. So that, in the course of a 45-minute timeframe, you 
have 47 flights scheduled to depart. I think I've been on those 
most of the time.
    According to Mr. Forrey's testimony, 19 aircraft were 
scheduled to depart from 5:45 p.m. to 6 p.m., 18 from 6:00 to 
6:15, 17 from 6:15 to 6:30.
    Now, we want to really say what the overall picture looks 
like, and in our discussions--which, I appreciate, again, with 
Administrator Sturgell, and others, and we had a hearing before 
the full subcommittee in Washington last week, where some of 
these matters were aired--it may be that the Department of 
Transportation needs additional authority from Congress.
    Additional authority from Congress to give them the power 
to limit the number of flights which can come in and which can 
take off. And my sense of the Congress is that we would be 
willing to do that, because it is a very serious national 
problem--Philadelphia is only one part of it, but a very 
serious part of it, because of the size of our city.
    We appreciate the witnesses coming in today, and we will 
begin with the Honorable Robert A. Sturgell, Acting 
Administrator of the Federal Aviation Administration.
    Mr. Sturgell, we're going to limit your time to 5 minutes, 
we have quite an array of witnesses, and will enable us to have 
more time for dialogue, questions and answers. Thank you for 
joining us and the floor is yours.


STATEMENT OF ROBERT A. STURGELL, ACTING ADMINISTRATOR, 
            FEDERAL AVIATION ADMINISTRATION, DEPARTMENT 
            OF TRANSPORTATION
ACCOMPANIED BY:
        STEVE KELLEY, PROGRAM MANAGER, AIRPORT REDESIGN PROJECT
        MARY McCARTHY, OFFICE OF THE CHIEF COUNSEL, FEDERAL AVIATION 
            ADMINISTRATION
    Mr. Sturgell. Senator Specter, thank you for inviting me 
and my colleague, D.J. Gribbin, the Department's General 
Counsel, to discuss these issues today.
    The New York-New Jersey-Philadelphia Airspace Redesign 
Project is vital to the safety and efficiency of our national 
airspace system. As you indicated, in 2007 we did see record 
flight delays across the country--the system is stretched to 
the limit.
    Against this backdrop, the Redesign Project is a crucial 
piece of the solution--both near-term and long-term. We 
estimate that by 2011, when Airspace Redesign is fully 
implemented and complete, we'll see a 20 percent reduction in 
delay. It's expected to reduce annual operating costs by $248 
million, and severe weather delay costs by another $37 million. 
In the New York-New Jersey-Philadelphia region alone, this 
could yield economic benefits to air carriers, passengers, and 
local businesses, of $7 to $9 billion.
    We're not just doing this on our own. For the past 10 
years, and at a cost of $53 million in appropriated funds, 
we've been studying and evaluating the airspace--for the 
pilots, for the airlines, for our controllers, and ultimately 
for the traveling public.
    And we have done our best to involve the public--the public 
that lives by this airport, and the public that uses this 
airport. With the input from the surrounding community, the 
airport operators, the carriers, the local businesses, the 
traveling public, I think we've been able to structure the 
airspace redesigns, so that we can balance the savings in time, 
money and delay reduction, with the environmental impact.
    I recognize and appreciate that this is a sensitive issue, 
which is why we've made extensive efforts over the past years 
to involve all of the affected communities. We've held over 120 
public meetings throughout the region, published newsletters, 
considered the comments, and maintained a dedicated website 
with all of the relevant information.
    I want to emphasize that, not only did we conduct this 
public outreach, but we listened to what people had to say. 
Before we made any final decisions, we considered all of the 
feedback from the community, and we took it seriously. We went 
back to the drawing board, to design environmental mitigation 
measures into airspace redesign.
    So, I'd like to put this into context for you. The chart 
that's being displayed, in grey, you will see the seven 
departure headings that we originally considered for 
Philadelphia going out to the west. They were part of what I 
call a ``operationally ideal'' plan. If we had our way, and 
were it only about air traffic, those are the seven headings we 
proposed, and would use--to give us the maximum flexibility to 
handle the traffic.
    This second map shows the noise impact that would have 
occurred if--and I stress, if--we had implemented those seven 
headings without community----
    Senator Specter. Would you please bring the chart and set 
it right between the, in front of the flags?
    Mr. Sturgell. You bet.
    So, the yellow, orange, and red-colored areas show the 
noise increases, while the purple-colored areas show noise 
decreases. Again, this is the noise level we would have seen if 
we hadn't been acting on the comments and concerns of the 
community. I want to make it very clear that this map does not 
show what the FAA ultimately decided to implement.
    The second heading chart that you'll see, after community 
input, this is, in fact, what we are actually implementing. 
We're only going to implement three of those departure 
headings, as a direct result of the community input we've 
received. And then the noise map from those three headings. 
Once again, the yellow areas show an increase in noise, the 
purple areas, a decrease. As you can see, the areas affected by 
increased noise are substantially smaller, and we even have 
areas that currently hear airport noise showing an ultimate 
decrease in noise.


                           PREPARED STATEMENT


    I want to reiterate that we recognize the sensitivity of 
these issues, and the delicate balance that must be struck. How 
do you relieve congestion delays without causing too great of 
an environmental impact? The FAA believes that we achieve the 
balance of interests with this redesign project, and we've done 
it by listening to, and hearing the input from the interested 
stakeholders.
    Senator, this concludes my prepared remarks, I'd be happy 
to answer any questions you have.
    Senator Specter. Thank you very much, Mr. Sturgell.
    [The statement follows:]

                Prepared Statement of Robert A. Sturgell

    Senator Specter and Senator Casey: Thank you for inviting me to 
appear here today to discuss the Federal Aviation Administration's 
(FAA) New York/New Jersey/Philadelphia Metropolitan Area Airspace 
Redesign (Airspace Redesign Project), a project that is vital to the 
safety and efficiency of our national airspace system (NAS). My 
colleague, D.J. Gribbin, the General Counsel of the U.S. Department of 
Transportation, is also here to discuss airline flight scheduling 
practices at Philadelphia International Airport (PHL).

            CONGESTION AND DELAYS--UNDERSTANDING THE PROBLEM

    Growing congestion and delays in our aviation system are a serious 
threat to the U.S. economy and our quality of life. Successfully 
addressing this threat will require us to embrace new solutions and 
acknowledge that pursuit of status quo policies will do little, if 
anything, to reverse the substantial decline in system performance that 
we have experienced in recent years. While we are enjoying a record 
level of safety, we are at a critical point with congestion and delays.
    To give you some perspective, let me draw a national and regional 
framework. According to FAA Air Traffic Operations Network (OPSNET) 
data, in 2007, there were 46,495,785 total air traffic control center 
operations in the United States. Approximately one-third of the 
Nation's flights and one-sixth of the world's flights either start or 
traverse the airspace that supports the New York/New Jersey/
Philadelphia (NY/NJ/PHL) region.
    During this same time period, we saw record delays in flights 
across the country. For calendar year 2007, delays were up 
approximately 10 percent nationwide, compared with calendar year 2006. 
Eighteen of our Nation's largest airports, including PHL, have returned 
to their highest pre-9/11 commercial passenger levels. Throughout all 
of this, the FAA's primary goal is one of safety, separating aircraft 
in the airspace so that they can navigate safely. In an airspace that 
is already operating at, or even beyond, capacity, any disruption, be 
it weather or equipment difficulties, requires the FAA to institute 
measures that can often translate into delays. From May 1-August 31, 
2007 alone, we saw a total of 210,443 delays totaling 9,808,347 minutes 
throughout the system. Of those, 77.6 percent occurred in the NY/NJ/PHL 
region. OPSNET data indicates that 72 percent of delays were caused by 
weather, while 14 percent were caused by volume, with the remaining 
delays were due to other causes (e.g., equipment outages, runway 
construction, etc.). Our aviation system is stretched to the limit.
    As we seek solutions to the problem of congestion and delays, we 
must recognize that aviation is one of the most complex industries in 
the world, consisting of an extremely intricate web of infrastructure, 
technology, and people. The FAA is addressing the congestion and delays 
problem in a variety of ways, with new technologies and procedures 
immediately, and in the long-term with the Next Generation Air 
Transportation System (NextGen), which will transform the aviation 
system and how we control air traffic. We must be able to handle the 
demands of the future for aviation travel, projected to be one billion 
passengers by 2015. The Airspace Redesign Project is a crucial piece of 
the solution to the congestion and delays problem.

                       AIRSPACE REDESIGN OVERVIEW

    The Airspace Redesign Project is the culmination of over 9 years of 
study and evaluation by the FAA to address congestion and delays at 
some of our Nation's busiest airports. The complexity of the airspace 
in the NY/NJ/PHL area and its importance to the Nation cannot be 
overstated. There are 5 major airports (John F. Kennedy International 
Airport, LaGuardia Airport, Newark Liberty International Airport, 
Teterboro Airport, and Philadelphia International Airport) and 16 other 
airports in the region that were studied as part of the Airspace 
Redesign Project. There are approximately 15 other commercial service, 
general aviation, reliever, or military airports that are located in 
the region, but were not individually studied as part of the Airspace 
Redesign Project. From an air traffic control (ATC) perspective, the 
sky can look like an anthill over each major airport, with hundreds of 
planes in transit, arriving, or departing at any given moment. For 
example, only a few miles separates the streams of arrivals at Newark 
and La Guardia, southbound La Guardia departures are ``climbed over'' 
Newark arrivals, and the approach path to La Guardia can depend in part 
on runway use at Kennedy; this represents only a fraction of the 
activity. This interdependency means that Philadelphia International 
Airport (PHL) departures are frequently delayed because of volume in 
New York. As noted above, one-third of the Nation's flights and one-
sixth of the world's flights either starts or traverses the airspace, 
making an already intricately choreographed system even more complex.
    The goal of the Airspace Redesign Project, then, is to enhance the 
efficiency and reliability of the airspace structure and the ATC system 
for pilots, airlines, and the traveling public. The project modernizes 
the structure of the NY/NJ/PHL air traffic environment in an 
environmentally responsible manner, while laying a foundation for 
NextGen. Moreover, it will accommodate growth while enhancing safety 
and reducing delays by 20 percent in the NY/NJ/PHL Metropolitan Area. 
From an environmental standpoint, by 2011, this project is expected to 
reduce noise levels for 619,023 people who currently experience noise 
at or above 45 dB DNL, and reduce fuel burn and, in turn, emissions by 
the airlines.
    The FAA's experience with the 2005 Florida Airspace Redesign 
emphasizes how these efforts save time and money, by successfully 
addressing delays. FAA calculates that in its first year, the redesign 
has reduced delays, reduced reroutes, and reduced foreign fees 
attributable to reroutes in the amount of $22.5 million in direct 
operating costs (e.g., fuel, crew, and hourly maintenance costs) for 
traffic inbound to South Florida and $11.7 million for traffic outbound 
from South Florida. In the Caribbean, a savings of $400,000 has been 
realized due to reduced reroutes and international user fees. The 
benefits of the Florida Airspace Redesign total almost $35 million 
annually.

                AIRSPACE REDESIGN PROJECT IMPLEMENTATION

    Implementation of the Airspace Redesign Project is estimated to 
take 5 years, and will progress along four qualitatively different 
stages. Overall, the project represents an innovative approach to 
airspace design in the NY/NJ/PHL area. Air traffic rules differ between 
the ``terminal,'' or ``en route,'' or ``center'' environments. For 
example, ``terminal'' airspace has 3 nautical mile separation of 
aircraft criteria, while ``en route'' airspace uses 5 mile criteria. 
The project expands the terminal airspace over a larger geographical 
area than is currently designated, and expands it vertically up to 
23,000 feet above mean sea level in some areas. Some airspace sectors 
that are currently worked in the en route or center environment, upon 
full implementation of the project, will be worked using terminal rules 
and terminal equipment. Expanding the terminal airspace permits ATC to 
use terminal separation rules as well as the more flexible terminal 
holding rules over this larger area, providing ATC with more 
flexibility. This ``terminalization'' of the airspace also permits ATC 
to incorporate expanded departure gates and to separate arrival and 
departure flows in the NY/NJ/PHL metropolitan areas, increasing the 
efficiency of the airspace. Practically speaking, this means that ATC 
can sequence aircraft further out from the airports, where there is 
more space to do so. This makes the flow of air traffic more efficient, 
even when there's bad weather.
    Reconfiguring the airspace will enable the FAA to take several 
direct actions to take advantage of improved aircraft performance and 
emerging ATC technologies. Leveraging these technologies, the FAA can 
implement new and modified ATC procedures, including dispersal 
headings, multiple departure gates and simplified arrival procedures by 
2011. The FAA will also use these technologies to employ noise 
mitigation measures, such as use of continuous descent approaches 
(CDA), and raising arrival altitudes.
    Implementation of the Airspace Redesign Project will be able to 
make use of procedures like Area Navigation (RNAV) and Required 
Navigation Performance (RNP), which collectively result in improved 
safety, access, predictability, and operational efficiency, as well as 
reduced environmental impacts. RNAV operations remove the requirement 
for a direct link between aircraft navigation and a ground-based 
navigational aid (i.e. flying only from radar beacon to radar beacon), 
thereby allowing aircraft greater access to better routes and 
permitting flexibility of point-to-point operations. By using more 
precise routes for take-offs and landings, RNAV enables reductions in 
fuel burn and emissions and increases in efficiency.
    RNP is RNAV with the addition of an onboard monitoring and alerting 
function. This onboard capability enhances the pilot's situational 
awareness providing greater access to airports in challenging terrain. 
RNP takes advantage of an airplane's onboard navigation capability to 
fly a more precise flight path into an airport. It increases access 
during marginal weather, thereby reducing diversions to alternate 
airports. While not all of these benefits may apply to every community 
affected by the Airspace Redesign Project, RNAV and RNP may prove 
useful in helping to reduce overall noise and aggregate emissions.
    The FAA has explored and will include several mitigation strategies 
to reduce the impact of the new routings on the underlying communities. 
We are instituting several measures in response to the concerns raised 
at the numerous public meeting that we have had for this project in the 
Philadelphia area. These measures include a reduction in the number of 
dispersal headings (33 percent in the east configuration and 50 percent 
in the west configuration), as well as time of day restrictions to help 
minimize the impacts on the surrounding residents. To illustrate, one 
of the mitigation measures is that during nighttime hours, we return to 
a one heading departure procedure to minimize the impacts while 
continuing aviation service to the community.
    The Airspace Redesign Project is very large and complex and the 
implementation will take several years. There will be four stages of 
the implementation, distinguished by the degree of airspace realignment 
and facility changes required to support each of the overlying 
operational enhancements. As noted above, implementation is estimated 
to take at least 5 years, with each stage taking approximately 12-18 
months to complete.

              COMPLEMENTARY SOLUTIONS--ENHANCING CAPACITY

    Rest assured, however, that we are not simply relying upon 
redesigning the airspace to address the congestion in this region. Our 
preference is to expand capacity in order to meet demand. Philadelphia 
currently has two projects underway that would address this issue.
    On April 29, 2005, the Record of Decision (ROD) for the Runway 17-
35 Extension Project was signed. The ROD provided environmental 
clearance to extend Runway 17-35 by 640 feet to the north and 400 feet 
to the south to a new length of 6,500 feet. This project will include 
standard runway safety areas and will maintain the existing ship 
notification procedure with regard to ships in the Delaware River. The 
project also includes extension of the parallel taxiways to the east 
and west of Runway 17-35, a new high-speed exit taxiway, a new holding 
apron, and relocation of 1,000 parking spaces.
    The Capacity Enhancement Program (CEP) is a major airfield 
redevelopment project aimed at enhancing airport capacity in order to 
accommodate current and future aviation demand in the Philadelphia 
Metropolitan Area during all weather conditions. It is a more 
comprehensive, long-term solution. Two on-airport construction 
alternatives have been determined to be reasonable and feasible and 
will meet the project purpose and need. Both alternatives are in a 
parallel configuration with an additional southern runway. Each will 
provide for the capability of simultaneous aircraft arrivals or 
departures in bad weather conditions. Both alternatives are being 
examined as part of the ongoing EIS being prepared by the FAA. A Draft 
EIS is tentatively scheduled to be released in late Summer 2008.

                    COMPLEMENTARY SOLUTIONS--NEXTGEN

    Additionally, our NextGen efforts will help with congestion relief 
in the long-term. To maximize the benefits as soon as possible, we have 
expedited implementation of some of the latest air traffic control 
technology at airports in the Philadelphia and New York region. With 
Philadelphia and New York airspace so interdependent, technologies 
deployed in one airport in the region will have a beneficial 
``cascade'' effect on the others. Thus, deployment of technology and 
other solutions at JFK that reduce congestion means fewer delays at 
PHL.
    Automatic Dependent Surveillance--Broadcast (ADS-B), the backbone 
of NextGen, is a satellite-based technology that broadcasts aircraft 
identification, position, and speed with once-per-second updates (as 
compared to the current 5 to 12 second refresh from today's radar). 
While a time savings of 4 to 11 seconds may seem brief to some, this 
savings actually allows for far greater accuracy in determining 
aircraft position. Philadelphia has been selected as an initial key 
site for the installation of ADS-B. Philadelphia is scheduled to have 
coverage both in terminal airspace and on the airport surface by 
February 2010.
    Improvements at PHL can come from NextGen technologies at 
neighboring airports. At JFK, we have accelerated the installation of 
the Airport Surface Detection Equipment--Model X (ASDE-X) system, which 
provides the surface surveillance necessary to reduce runway incursions 
and can allow airport users and operators collaborative surveillance of 
aircraft so that everyone has the same picture of the airport and 
aircraft. The schedule for ASDE-X has been accelerated by 1 year, and 
the additional surface surveillance planned for collaborative decision 
making is being developed and installed at the same time. It is 
anticipated that the ASDE-X installation and additional surveillance 
tools will be operational by August 2008, with PHL scheduled for 
installation in 2009.
    The Traffic Management Advisor (TMA) aids controllers sequencing 
aircraft through en route airspace into major terminals. This system 
calculates a specific time for each aircraft to cross a fixed point in 
the airport landing route and also considers minimum safe distances 
between aircraft. Appropriate direction to pilots are then provided 
using that data, allowing arrival streams to take better advantage of 
available landing slots. The FAA plans to expand deployment of this 
tool and integrate arrivals and departures in the New York area in July 
2008, and plan to include a demonstration of the incorporation of 
enhanced weather detection and prediction into TMA in 2008.

                 COMPLEMENTARY SOLUTIONS--NEW YORK ARC

    Further, in response to the growing delays in the NY/NJ/PHL area, 
the President, Secretary Peters, and I met to discuss the unacceptable 
impact these delays were having on the Nation's airspace. We formed a 
New York Aviation Rulemaking Committee (ARC) to work with industry and 
community stakeholders to come up with a list of potential solutions. 
My colleague, D.J. Gribbin, will provide more detail on this, but I 
would like to touch briefly here on some of those results.
    On December 19, the Secretary announced a number of steps being 
taken in New York as a result. These steps include a cap on scheduled 
operations at JFK, planned caps on scheduled operations at Newark, a 
list of 77 operational improvements to reduce congestion in the region, 
and establishment of a New York airspace czar. Many of these solutions 
can be implemented in the short-term, but longer-term efforts such as 
airspace redesign and NextGen will also be required in order to address 
the problems in this congested airspace. To date, we have completed 8 
of the 77 identified operational improvements, and we expect to 
complete an additional 9 by this summer. We are working closely with 
the Port Authority of New York and New Jersey and the stakeholders to 
prioritize the remaining 60 items, which are either long-term projects 
or items that are under review for feasibility, and expect to finalize 
the priority list this summer. Because the NY/NJ airports share common 
routes with Philadelphia, and are in many ways interdependent, there 
will be direct benefits to Philadelphia as operational improvements are 
put into place in NY and NJ.
    Beginning March 30, as a short-term solution, airlines agreed to 
cap operations at JFK at either 82 or 83 operations per hour, depending 
on the time of day. These caps will be in place through October 2009 
and follow the conclusion of a schedule reduction meeting we held with 
the air carriers and airport authority. Hourly limits are also planned 
for Newark. On March 18, FAA published a proposed order limiting total 
operations at that airport at an average of 83 per hour. We propose to 
implement those caps on June 1. Additionally, on April 16, the 
Secretary announced a Supplemental Notice of Proposed Rulemaking 
(SNPRM) for LaGuardia Airport. This proposed rule follows the FAA's 
original congestion management proposal, dated August 29, 2006. Like 
the NPRM, the SNPRM would maintain an hourly cap at the airport and 
``grandfather'' a majority of the existing Operating Authorizations to 
the carriers serving the airport today. However, we have decided to 
withdraw that part of the proposal that would require aircraft 
upgauging, which was not favorably received by most commenters.
    The SNPRM incorporates the use of auctions at the airport. Under 
the proposal, up to 36 slots would be auctioned each year, for the 
first 5 years of the rule. We believe that auctioning off a portion of 
the existing capacity will create a monetary value for this scarce 
resource, which will encourage carriers to use the limited number of 
slots in the most productive manner. The FAA is inviting the public to 
comment on the proposal. The comment period will be open for 60-days.
    In addition to the regulatory initiatives proposed and in place for 
the New York metro area, implementation of the latest air traffic 
control technology at airports in the Philadelphia and New York region 
is being expedited, and a permanent aviation ``czar'' has been 
appointed to serve as director of the newly-created New York 
Integration Office.
    Nevertheless, expanding capacity is not always possible; neither is 
it an immediate solution, nor can physical expansion be limitless. As I 
have noted, the aviation industry is a major economic engine, providing 
support and jobs both for the country as a whole and for local 
communities. We need to continue to find ways to address congestion and 
allocate limited space efficiently and fairly. We believe that a 
market-based approach provides the best outcome because it sets the 
right incentives for efficient use of the system. That is why we are 
also looking at market-based measures for solutions to congestion.
    On January 14, Secretary Peters announced one of these solutions--a 
proposal for comprehensive market-based changes to the FAA's Policy on 
Airport Rates and Charges. The amendments, if adopted, will provide 
airports with more tools to finance projects that reduce congestion and 
to encourage more efficient use of existing facilities. The amendments 
will allow a congested airport to raise the price of using its runways. 
This in turn could provide a financial incentive to aircraft operators 
to consider alternatives, such as scheduling flights outside of peak 
demand times, increasing aircraft size to use the congested runways 
more efficiently, or meeting regional air service needs through 
alternative, less congested facilities.

                       ENVIRONMENTAL STEWARDSHIP

    The FAA is ever-mindful of our environmental responsibilities. 
NextGen must be more efficient than the current system, but it must 
also be quieter and cleaner. Our goal for NextGen is to meet growing 
demand by developing a system capable of handling two to three times 
the operations in the Nation's airspace while reducing significant 
environmental impacts. We want to ensure that the number of people in 
the United States who are exposed to aircraft noise continues to 
decline, and that we are reducing air and water quality impacts, 
addressing the impact of aviation's greenhouse gas emissions on the 
global climate, and supporting the development of alternative aviation 
fuels. Additionally, it is our goal to provide expertise and funding to 
assist in abating the impacts of aircraft noise in neighborhoods 
surrounding airports by purchasing land, relocating persons and 
businesses, soundproofing residential homes or buildings used for 
educational and medical purposes, purchasing noise barriers and 
monitors, and researching new noise projection and abatement models and 
new technologies.
    For example, the city of Philadelphia has an approved noise 
compatibility program for PHL that includes residential sound 
insulation. The city is just beginning to update that program, which is 
based upon a study completed in 2002. In the meantime, the city can 
continue to mitigate in areas that are known to be still impacted by 
significant noise levels and for which mitigation was approved. The FAA 
intends to support this program to the extent possible.

                               CONCLUSION

    Congestion and delays throughout our aviation system are at a 
critical point. The FAA has spent years considering the alternatives 
and determining the most effective solutions to relieving the problems 
in the NY/NJ/PHL airspace, without compromising our environmental 
stewardship. The Airspace Redesign Project is one which will enhance 
efficiency and reliability of the airspace, while also accommodating 
the projected growth. The project plays a crucial role in our overall 
solutions in the region, which include upgrades in technology and other 
short-term scheduling solutions.
    Senator Specter, Senator Casey, this concludes my prepared remarks. 
Thank you again for this opportunity to testify. I will be pleased to 
answer any questions you may have.

    Senator Specter. We now turn to the distinguished General 
Counsel for the Department of Transportation, David James 
Gribbin.

STATEMENT OF DAVID JAMES GRIBBIN, GENERAL COUNSEL, 
            DEPARTMENT OF TRANSPORTATION
    Mr. Gribbin. Thank you, Senator.
    Senator, thank you for this opportunity to update you on 
the initiatives that have been taken by the Department to 
address flight scheduling practices, as they relate to airline 
delays and consumer protection.
    We are all too familiar with the litany of statistics that 
demonstrate that action is needed on behalf of air travelers. 
One of the most compelling statistics is that last year, almost 
2 million flights operated by large carriers, did not land on 
time, because they were delayed, cancelled, or diverted.
    So, over a year ago, the administration identified the need 
to respond to the growing consumer impacts of aviation delays. 
We have launched a two-prong attack on this problem, and we are 
working to improve consumer protections, and we're working to 
resolve systemic failures that resulted in delayed flights, 
missed connections and lost luggage.
    As a response to that, we've developed a suite of options, 
to reduce congestion and improve the consumer experience. The 
Department started by undertaking a number of consumer-specific 
measures. In fact, just last week, we announced final changes 
to the rule that will double the limit on compensation airlines 
must pay to passengers who are involuntarily bumped from their 
flights. The rule will also cover more flights.
    We have two other ongoing rulemakings that will help 
passengers know what to expect when they book a flight; that 
will allow us to step up oversight of chronically delayed 
flights, and enhance protections for consumers who are bumped, 
experience delays, or have complaints against airlines.
    Secretary Peters also formed a Tarmac Delay Task Force, to 
develop model contingency plans for airlines and airports. In 
addition to improving consumer protections, we are also working 
to address the underlying cause of much of the occasional 
misery attributed to air travel, that is, congestion and 
delays.
    Flight delay problems, including cancellations and missed 
connections, are the number one air traveler complaint. Along 
these lines, the Department has overseen the construction of 13 
new runways, allowing for 1.6 million additional operations, 
worked on accelerating the deployment of NextGen technology, 
and proposed amendments to our rates and charges policy, to 
give airports more tools to manage congestion at the local 
level.
    We have taken a number of actions to address aviation 
congestion in the New York area, including caps and operational 
improvements. We focused on New York initially, because delays 
in New York cascade throughout the system, affecting flights 
across the continent and even across the ocean.
    Philadelphia, in particular, stands to gain from 
improvements made in the New York area. The changes we have 
made will help, but more work needs to be done. To really 
address congestion, we have a choice between two fundamentally 
different approaches, that are currently being debated--
administrative remedies or market-based solutions. And we 
believe that moving towards a market-based system will reduce 
delays and contribute to an improved flying experience for air 
travelers.
    Instituting administrative remedies alone, such as caps, is 
an effective--but not an efficient way--to reduce delays. Slots 
limit capacity, stifle innovation, and block competition. As a 
result, passengers get poorer service and pay higher fares.
    In addition, imposition of slots in the manner proposed by 
the airlines, would result in a massive wealth transfer from 
the public to the airlines. That is why last week, Secretary 
Peters announced a proposal for LaGuardia, with two market-
based options that would require a limited number of flights 
operated by the airlines in a given day, known as slots, to be 
made available through an auction process. Both options will 
increase choices for passengers, and add competition, which is 
proven to lower fares. They also will cut delays and fund new 
aviation capacity projects for the region.
    The cause of congestion at our busiest airports is not a 
mystery. It is a classic case of tragedy of the commons. Free 
access and a significant demand for a finite resource, 
ultimately dooms the resource to over-exploitation. Our current 
structure dooms airports. In fact, last summer, some airlines 
recognized this, and asked us to intervene and cap the New York 
City airports. And as you mentioned, airlines currently are 
incentivized to schedule more flights in a given time period, 
than airports can accommodate.
    Pricing, by contrast, balances demand with available 
capacity, resulting in less congestion and more reliable 
schedules. Pricing sends better signals as to where the system 
needs extra capacity, and it can supply the revenues to add 
such needed capacity.
    Pricing can also increase the number of passengers served 
in an airport, even if the number of planes does not increase. 
That is why we proposed changes to our rates and charges 
policy, allowing airports to use pricing to manage congestion 
at the local level. In fact, we are working on a meeting with 
the Philadelphia Airport to discuss how some of these new 
policies may benefit this area.
    Market forces, however, do not address every policy problem 
with aviation congestion. Market forces do an excellent job of 
allocating resources to those who can realize the most economic 
value from that resource, but they do not allow for the 
societal value placed on certain activities--such as access to 
airports by general aviation, or small community service. The 
Department recognizes this, and will respond accordingly.

                           PREPARED STATEMENT

    Let me conclude by saying I think we all agree that the 
American public deserves the safest and most efficient, 
reliable airline system possible.
    Thank you for allowing me to testify, Senator, I look 
forward to your questions.
    [The statement follows:]

               Prepared Statement of David James Gribbin

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today. Allow me to use this time to update you 
on the initiatives taken by the Office of the Secretary and the Federal 
Aviation Administration (FAA) to address the issue of flight scheduling 
practices as it relates to the broader issues of airline delays and 
consumer protection.
    The administration identified the need to respond to the growing 
consumer impacts of aviation system delays over a year ago. Since then, 
we have taken a series of important steps, including the President's 
announcements related to holiday travel. At the direction of Secretary 
Peters, our Department has developed a comprehensive list of 
initiatives designed to improve air travel and reduce the impacts of 
lengthy delays on consumers. While we have maintained a strong focus on 
short term actions, it is imperative that we not lose sight of the 
ultimate objective: establishing a sustainable and economically 
efficient aviation policy that actually reduces delays, not simply 
treats the symptoms. In order to accomplish this objective, it is 
important that we reform our economic model for air traffic control 
services and airport pricing similar to what the administration 
proposed last year. Without changes of this magnitude and regardless of 
regulatory actions pursued, it is inevitable that millions of Americans 
will experience unreliable air travel options and growing 
dissatisfaction with the performance of the U.S. aviation system.

                              THE PROBLEM

    We are all too familiar with the litany of statistics that 
demonstrate without question that action is needed on behalf of air 
travelers and the aviation sector of the national economy. One of the 
most compelling statistics is that last year almost 2 million flights 
operated by large air carriers did not land on time because they were 
delayed, cancelled, or diverted. That is almost 27 percent of the 
operations reported by these carriers. Imagine any other business 
telling its customers that 27 percent of the time the service they paid 
for is not available as advertised. The administration has made 
commitments at the highest levels to address this problem. When 
Secretary Peters met with President Bush last September, he said, 
``We've got a problem, we understand there's a problem, and we're going 
to address the problem.''
    Unfortunately, Philadelphia is not immune from the problems 
experienced by many air travelers. The departure and arrival statistics 
for Philadelphia International Airport (PHL) provide the proof as 
recorded by the Department's Bureau of Transportation Statistics (BTS). 
In 2007, Philadelphia International Airport ranked 5th worst of the 32 
major airports in the percentage ranking for on time arrivals--only 
about 67 percent of flights arrived on time. Similarly, PHL ranked 4th 
worst of the 32 major airports in on-time departures for 2007 with 
approximately 70 percent of flights departing on time.
    I think we all agree that the air traveler deserves a better 
approach. Last year, according to the American Customer Satisfaction 
Index, the satisfaction level with the airline industry overall fell to 
its lowest level in 7 years. The statistics we gather monthly at DOT 
confirm deteriorating service levels. In 2007, there was a sharp rise 
in the number of complaints received by the Department--13,168 
complaints, which is over 58 percent more than the 8,325 complaints 
received in 2006. Complaints are continuing at a high rate in 2008--the 
Department received 3,152 complaints during the first quarter of this 
year. For us, the objective is not to parcel out the blame, but to get 
to the root of the problem--congestion. Consumer satisfaction would be 
vastly improved if flights simply arrived on schedule. The growing lack 
of reliability in air travel these days is one of the most significant 
impacts of congestion.

                              DOT ACTIONS

    The Department began to address flight delays and related consumer 
issues over a year ago. In February 2007, the administration sent 
Congress a comprehensive plan for transforming our aviation system to 
meet our present and future needs. A central reform of the 
administration's proposal was the overhaul of the FAA's financing 
structure to replace the decades old system of collecting ticket taxes 
with a stable, cost-based funding stream and to facilitate equipping 
our aviation system with modern Next Generation Air Transportation 
System (NextGen) technology. The proposal creates a stronger 
correlation between what users pay and what it costs the FAA to provide 
them with air traffic control services; thus, providing price 
incentives for systems users to reduce delays.
    Flight delay problems--including cancellations and missed 
connections--are the number one air traveler complaint. That is why 
addressing aviation congestion is a critical component to improving 
consumer satisfaction with the aviation industry. The year 2007 was the 
second worst year for delays since 1995, and the first 2 months of 
2008, while slightly better, are the third worst for flight delays 
during that time of year. Since one-third of the air traffic moves 
through New York airspace, the three airports in the New York City 
metropolitan area had the highest percentage of delayed flights last 
summer, and delays in New York cascade throughout the system, the 
Department chose to focus its initial efforts in the New York area.
    Given the record delays last summer, in July 2007, Secretary Peters 
formed an internal New York Air Congestion Working Group and tasked 
them with developing an action plan to reduce congestion and delays at 
airports in the New York City region and improve customer satisfaction. 
The working group developed a plan, which included establishing a New 
York Aviation Rulemaking Committee (ARC), holding scheduling reduction 
meetings, implementing operational improvements, and enhancing customer 
satisfaction. Since forming the New York Air Congestion Working Group, 
the Department has taken a number of actions to implement the working 
group's recommendations.

Aviation Congestion Mitigation Efforts
    Last September, Secretary Peters formed a New York Aviation 
Rulemaking Committee (ARC), which was composed of representatives from 
passenger and cargo airlines operating out LaGuardia, John F. Kennedy 
International (JFK), Newark Liberty International (Newark), and 
Teterboro Airports, airline and airport trade associations, the Port 
Authority of New York and New Jersey (Port Authority), passenger rights 
advocates, and representatives from FAA and DOT. The ARC had the 
monumental task of researching and vetting the options for reducing 
congestion in New York's major airports over the course of merely 3 
months. The administration wanted to have a robust discussion and input 
from all interested parties before moving forward with a policy action.
    Incorporating the information received from the ARC, the Department 
is undertaking several actions to address aviation congestion in New 
York.\1\ These actions include:
---------------------------------------------------------------------------
    \1\ The New York Aviation Rulemaking Committee Report can be 
accessed at: http://www.faa.gov/library/reports/media/
NY%20ARC%20Final%20Report.pdf.
---------------------------------------------------------------------------
  --Caps on hourly operations at JFK;
  --Proposed caps on hourly operations at Newark;
  --Completion of 8 of the 17 airport and airspace recommended 
        operational improvements identified by the Air Transport 
        Association (ATA) and the Port Authority of New York and New 
        Jersey. We expect to complete the remaining nine recommended 
        improvements by summer 2008;
  --Establishing an executive-level Director position at the FAA to 
        head the New York Area Program Integration Office;
  --Further implementation of New York/New Jersey/Philadelphia airspace 
        redesign; and
  --Proposed amendments to the Airport Rates and Charges Policy.
    During the holiday season, the Department also instituted other 
measures to mitigate flight delays, such as negotiating an agreement 
with the Department of Defense to open military airspace for commercial 
use. We are also continuing our outreach efforts with various 
stakeholders, including consumer groups, airports, and airline CEOs.
    We are making better use of our skies to limit the impact weather 
has on travelers. Last week, the Secretary announced new air traffic 
measures designed to help cut delays this summer. The first involves 
new and greater flexibility for aircraft to use alternative routes in 
the sky to avoid severe weather. This includes a new routing 
alternative that provides an ``escape route'' into Canadian airspace 
from the New York metropolitan area so airlines can fly around summer 
thunderstorms and high winds. In addition, the FAA will open a second 
westbound route for aircraft, akin to adding another interstate highway 
lane in the sky. This would in effect provide a parallel route along a 
heavily-traveled aviation corridor, helping cut westbound delays from 
the New York area.
    Straight caps (hourly limitations on flight operations during 
certain peak hours) without some mechanism to ensure an efficient 
allocation of scarce slot resources is not economically efficient and, 
therefore, not our preferred option. Given the urgent need for action, 
however, it was necessary at the New York City area airports. The Port 
Authority elected not to pursue various delay reduction approaches, and 
the President and Secretary Peters would not tolerate delays like those 
that occurred last summer. The caps at JFK took effect on March 30, and 
we expect to issue a final order for Newark soon (the comment period on 
the notice proposing caps at Newark closed on April 1). The caps at JFK 
(and Newark, if adopted,) are scheduled to expire on October 24, 2009. 
It is also worth noting that because it is so heavily influenced by 
events in New York airspace, Philadelphia stands to gain from 
improvements that can be made in the New York area.
    We still believe that there is a need for market-based measures to 
allocate capacity, and the Department continues to explore such 
measures. For example, there are options available to airports in lieu 
of caps. Our preference is to see airports address their challenges 
locally; however, the Federal Government will be involved once a 
congested airport impacts the rest of the national airspace. New York 
air congestion causes delays throughout the United States.
    In January, we issued a notice that proposed providing airports 
with a new and useful tool to price access to their facilities better. 
The FAA proposal would make three changes to the airports rates and 
charges policy. The first change would clarify that airports may use a 
two-part fee structure with an operation-based and weight-based 
element. The second change would permit an operator of a congested 
airport to charge for work under construction. Finally, the third 
change would expand the authority of an operator of an airport system 
to charge users of the congested airport in the system for the airfield 
costs of other airports in its system. If adopted, the amendments would 
allow a congested airport to charge prices commensurate with the true 
costs of using its runways. In return, this will provide users better 
incentives to consider alternatives, such as scheduling flights outside 
of peak demand times, increasing aircraft size to use the congested 
runways more efficiently or meeting regional air service needs through 
alternative, less congested facilities. The comment period ended on 
April 3, and we hope to act on the proposal soon.
    Per landing charges are a much better proxy for costs than weight-
based charges. Since 2002, the amount of small aircraft (planes with 
fewer than 100 seats) flying into New York area airport increased 
substantially. Small aircraft flights at JFK increased 393 percent; 
Newark increased 53 percent; and LaGuardia increased 48 percent. The 
way we charge for airport use is an important contributor to this 
trend. Economists on both sides of the political aisle have 
acknowledged this relationship.
    We share the view that expanded capacity is a critical component of 
the long-term solution to relieve congestion and get travelers to their 
destinations on time and in a humane fashion. We are intensely focused 
on such solutions, both at the FAA with NextGen and at the Department 
level. The FAA is hard at work bringing new technology and techniques 
on-line to unsnarl air traffic delays, and we appreciate the funding 
Congress has appropriated for these purposes. In recognition of these 
critical enhancements, the President's fiscal year 2009 Budget Request 
would more than double the investment in NextGen technology--providing 
$688 million for key research and technology to help meet the Nation's 
rapidly growing demand for air travel, including the transformation 
from radar-based to satellite-based air traffic systems.
    The FAA will begin rolling out several elements of the NextGen 
system this summer. This rollout will include the national debut of 
Automatic Dependent Surveillance--Broadcast (ADS-B) technology in 
Florida. The ADS-B program will change the Nation's air traffic control 
system from one that relies on radar technology to a system that uses 
precise location data from a global satellite network. The FAA has 
chosen Miami as the key site for installation and testing of two 
broadcast services of the ADS-B program--Traffic Information Services--
Broadcast (TIS-B) and Flight Information Services--Broadcast (FIS-B). 
These broadcast services transmit weather and traffic information to 
the cockpit of properly equipped aircraft. The FAA plans to commission 
these broadcast services in November 2008 and can then begin nationwide 
deployment.
    Over the next few years, the FAA will also install and test ADS-B 
for use in Air Traffic Control Separation Services. Philadelphia is one 
of the key sites for this initiative. The FAA plans to commission the 
ADS-B services in September 2010 and a nationwide rollout by 2013.

Consumer Protection Initiatives
    While relieving congestion will go a long way in addressing 
consumer issues, the Department also is undertaking a number of 
consumer-specific measures. Our consumer protection initiatives have 
advanced a great deal in the last 6 months. This is due in part to the 
appropriation by Congress of $2.5 million targeted to improving 
consumer protections, and I can assure you we are putting it to good 
use. The funding is being used for additional staff to pursue 
investigations and enforcement actions, improvements to our aviation 
consumer protection website and consumer complaint system, brochures 
for air travelers to help them understand their rights and 
responsibilities, and a series of public forums to listen to air 
travelers and the problems they have experienced.
    The Department has initiated three rulemakings to enhance passenger 
rights and protections. In November 2007, the Department issued a 
proposal to double the limits on the compensation required to be paid 
to ``bumped'' passengers and extend the compensation requirement to 
smaller aircraft. Just last week Secretary Peters announced final 
changes to the so called ``bumping rule,'' which takes effect next 
month. Under the revised rule, fliers who are involuntarily bumped will 
receive up to $400 if they are rescheduled to reach their destination 
within 2 hours of their original arrival time or 4 hours for 
international flights, and up to $800 if they are not rerouted within 
that time frame. The new rule also covers more flights, including those 
operated with aircraft seating 30 people or more; the current rule 
covers flights with 60 seats or more. The amount of these payments are 
determined by the price of the ticket and the length of the delay, and 
are in addition to the value of the passenger's ticket, which the flyer 
can use for alternate transportation or have refunded if not used. As 
the Secretary has noted, it is difficult to compensate for a missed 
family occasion or business opportunity, but this rule will ensure 
flyers are more fairly reimbursed for their inconvenience.
    The Department also published a proposal to enhance the on-time 
performance data that carriers currently report to the Department so 
that the Department, the industry, and the public have access to more 
complete information on flights that are cancelled, diverted, or 
experience gate returns. We hope to take final action soon.
    The third rulemaking, an Advance Notice of Proposed Rulemaking, 
requested comments on various proposals designed to provide consumers 
information or enhance consumer protections, including proposed 
requirements that airlines: create legally binding contingency plans 
for extended tarmac delays, respond to all consumer complaints within 
30 days, publish complaint data online, and provide on-time performance 
information for international flights. The Department is currently 
considering the comments received. The next step would be issuance of a 
Notice of Proposed Rulemaking seeking comments on any proposals the 
Department decides to advance after reviewing the public comments.
    In addition to these rulemakings, the Secretary formed a ``Tarmac 
Delay Task Force'' in December. The purpose of the task force is to 
study past delays, review existing and other promising practices, and 
develop model contingency plans that airlines and airports can tailor 
to their unique operating environments to mitigate the impact of 
lengthy ground delays on consumers. The task force also will consider 
possible unintended consequences that solutions to tarmac delays may 
pose for travelers. The task force is composed of 35 individuals 
representing a broad cross-section of airlines, airports, consumer 
groups, and other stakeholders. The first meeting of the task force was 
held February 26, and the next meeting is scheduled for April 29. The 
Department expects that the task force will meet at least three more 
times in 2008 and will complete its work by the end of the year. In my 
opinion, the Task Force is working well and will be the source of best 
practices that will improve the travel experience when things do go 
wrong.
    Three other important initiatives of our Aviation Enforcement 
Office deserve mention. The office has plans to conduct on-site 
enforcement investigations of five large airlines this fiscal year to 
evaluate their compliance with consumer protection requirements. In 
addition, the office will be holding three Aviation Consumer Protection 
Forums across the country to educate consumers regarding their rights 
as air travelers and to hear first-hand their concerns about air 
travel. The office is also continuing its investigation of unrealistic 
scheduling by large airlines, targeting chronically delayed flights. 
During the fourth quarter of 2007, the number of such flights decreased 
dramatically, and in 2008, the Aviation Enforcement Office will be 
applying a somewhat more rigorous set of criteria during its review.
    Some have argued that airlines have individually or collectively 
scheduled flights during periods of the day in which the system is 
simply unable to handle the volume without resulting delays. I would 
like to assure the committee that the Department of Transportation has 
sufficient authority to investigate unrealistic scheduling and, if 
necessary, penalize actions that we deem to be unfair or deceptive 
trade practices. Although a congested system is not necessarily 
evidence of unfair or deceptive practices, we will continue to 
diligently investigate potential evidence of such practices and take 
any appropriate action.
    We are well aware that tarmac and flight delays are making air 
travel an unpleasant experience for passengers. The Department will 
continue to take action to ease uncertainty and reduce inconvenience 
for passengers.

               ADDRESSING THE PROBLEM AND NOT THE SYMPTOM

    While we are working to improve consumer protections, we do not 
want to lose sight of the fact that the underlying cause of much of the 
occasional misery attributed to air travel is congestion and delays. 
For this reason, the Department has been engaged in a discussion over 
the last several months with a wide variety of stakeholders on the 
efficacy of using a better economic model to balance supply and demand 
in a sustainable way.
    Some have incorrectly suggested that expanding capacity should be 
the only Government response to congestion in New York City and around 
the country. This view largely ignores the tremendous short-term 
opportunities to utilize existing capacity efficiently. It also ignores 
the physical, economic, and political constraints on capacity expansion 
in many parts of the U.S. aviation system.
    The Department looks to increase capacity whenever and wherever 
possible. Our support for expansion of Philadelphia International 
Airport and O'Hare International Airport are concrete examples. 
Philadelphia in particular is proposing major capacity enhancements to 
accommodate current and future aviation demand in the Philadelphia 
metropolitan area during all weather conditions. Key features of the 
proposal consist of major airfield improvements, including construction 
of one or more new runways and related facilities. Capacity increases 
must be part of the solution, particularly considering that we expect 
more than 1 billion air passengers by 2016. However, capacity 
increases, both physical and operational, often take a long time to 
implement and may be limited in scope. Sometimes physical capacity 
cannot be expanded; such as is the case with LaGuardia Airport. 
Operational improvements can help to address congestion, but sometimes 
they cannot provide enough capacity to meet demand. For example, in New 
York, even with the implementation of all the operational improvements 
initially suggested by the Air Transport Association (ATA) and the Port 
Authority, congestion was expected to double this year, assuming the 
FAA took no further action and the airlines moved forward with planned 
increases in their schedules.
    There are additional solutions. Basically, we have a choice between 
two fundamentally different approaches--administrative remedies and 
market-based solutions. We believe that outdated Government policies 
relying on administrative remedies have led to an inefficient 
allocation of the airspace, and that moving towards a market-based 
system will reduce these inefficiencies and contribute to an improved 
flying experience for air travelers.

Administrative Remedies
    Instituting administrative remedies, such as caps, is an effective, 
but not efficient way to reduce delays. Limiting the number of flights 
into an airport will reduce congestion at that airport. The Department 
decided to institute a short-term cap at JFK and Newark airports 
because something needed to be done to avoid a repeat of the flight 
delays that we experienced last summer. However, caps are not the best 
solution for improving travel options for passengers.
    Airlines are often enthusiastic in their support of caps at an 
airport they already serve. When a cap is established, incumbents are 
protected because they typically maintain their market share and the 
potential for new competition is diminished. The legacy airlines' 
support for such a policy makes sense, because limited competition 
makes them more profitable and protects them from new entrants that 
might want to compete by offering lower fares.
    Although caps protect existing airline business, they also prevent 
airlines from adding capacity at an airport unless they are able to 
obtain a slot from a competitor. As a result, one of the best-known 
problems with slots is that they encourage airlines to ``baby sit'' 
slots; i.e., underutilize the slot by flying multiple small aircraft 
into an airport to maximize the number of slots an airline can occupy 
at the lowest possible cost.\2\ As a result, slots do not always go to 
those who value them the most and who will use the capacity in the most 
efficient manner.
---------------------------------------------------------------------------
    \2\ GAO report GAO/RCED-99-234 notes on p. 16 that ``For example, 
because the regulations allow a slot to go unused for up to 20 percent 
of the time, a carrier with five slots in 1 hour must operate only four 
flights in that hour on any day to obtain 80-percent use for each of 
its five slots. The carrier is allowed to `rotate' its four flights 
across the five slots over the 2-month period to prevent FAA from 
withdrawing the slot. The practice of a carrier's rotating actual 
flights among its allocated slots is commonly referred to as 
`babysitting.' FAA officials emphasized that babysitting is not 
prohibited by existing regulation, provided that a slot meets the 
minimum-use requirements.'' See http://www.gao.gov/archive/1999/
rc99234.pdf.
---------------------------------------------------------------------------
    This limitation on capacity and competition naturally leads to fare 
increases at an airport, because it creates a scarce commodity, and 
passengers pay a premium for that commodity.
    A less apparent problem is the perverse incentive that appears when 
caps are being contemplated at an airport for the first time. In such a 
situation, incumbents are encouraged to build up flight operations in 
advance of a capping action, simply to generate a better base for the 
future allocation of slots. Thus, the talk of a heavy handed and 
artificial solution to a problem actually exacerbates the congestion 
problems at the airport. For example, when the FAA began to intervene 
at Newark Liberty and JFK airports by designating both airports Level 
2, Schedule Facilitated, airports under International Air Transport 
Association guidelines, the schedules that the air carriers proposed 
for the summer of 2008 reflected growth that appeared to be enhanced by 
the signals that the FAA intended to address the congestion problem 
with a cap.
    If caps are not the answer, then the question arises--what is the 
solution?

Market-Based Remedies
    Alfred Kahn, an airline economist and former Chairman of the Civil 
Aeronautics Board said, ``Whenever competition is feasible, it is, for 
all its imperfections, superior to regulation as a means of serving the 
public interest.'' Secretary Peters echoed that sentiment when she 
said, ``Our preference is to find a way to let market incentives do the 
job, and not to return to the days of Government-regulated flights and 
limited competition.'' Although the Department instituted caps as a 
short-term measure, we continue to explore market-based remedies as a 
longer-term solution to congestion.
    Last week, Secretary Peters announced the Department's proposal for 
a new way to manage congestion at New York's LaGuardia Airport in a 
Supplemental Notice of Proposed Rulemaking (LaGuardia SNPRM).\3\ Even 
though this facility has been capped since 1968, it is still 
consistently one of the top three most delayed airports in the Nation. 
Under a supplemental rulemaking, the Department is proposing two 
market-based options that would require a limited number of flights 
operated by the airlines in a given day, known as slots, to be made 
available through an auction process.
---------------------------------------------------------------------------
    \3\ 73 Fed. Reg. 20846 (April 17, 2008).
---------------------------------------------------------------------------
    Under the first option, all air carriers would be given up to 20 
slots a day for the 10 year life of the rule. Meanwhile, over the next 
5 years, 8 percent of the additional slots currently used by an airline 
would be made available to any carrier via an auction. An additional 2 
percent of the slots would be retired to help cut the record delays at 
the airport. Proceeds from the auction would be invested in new 
congestion reduction and capacity improvement initiatives in the New 
York region.
    The second option also gives airlines permanent access to up to 20 
slots a day for a 10 year period. Beyond those flights, 20 percent of 
the slots currently used by the airlines would be made available over 
the next 5 years to all other airlines through an auction. Under this 
option, the carriers would retain the net proceeds of their auctioned 
slots.
    Both options provide financial stability to the airlines operating 
at LaGuardia by providing them with a defined right to operate at the 
airport for a decade, something they do not have today. These rights 
are given in recognition of the significant financial investment the 
airlines have made in the airport's infrastructure.
    This plan strikes a sound balance between protecting investments by 
incumbent carriers and ensuring that all airlines have the ability to 
fly to New York's LaGuardia. While the status quo at LaGuardia has led 
to stagnant service, delays, and unnecessarily high fares, open access 
and competition will help give flyers more choices, fewer delays, and 
lower fares.
    It is clear that the current system does not allocate airspace 
capacity efficiently. Solving that problem, however, should not entail 
Government picking ``winners and losers,'' particularly when, as 
currently structured, everyone involved in air travel feels like they 
are the loser--both those getting terrible service and those getting 
blamed for providing terrible service.
    Market-based pricing has been demonstrated time and again as the 
most effective way to allocate a scarce resource that is in high 
demand. Space in a movie theater, use of cell phone infrastructure, or 
flights during certain times to certain destinations are all examples 
that illustrate that such pricing works. Pricing can balance demand 
with available capacity, resulting in less congestion and more reliable 
schedules. Also, pricing sends better signals as to where the system 
needs extra capacity, and it can supply the revenues to add such needed 
capacity. Increases in fares under a pricing regime would be an 
indicator that more capacity is needed. In terms of efficiency, the 
current system focuses on airplane throughput. Instead, the objective 
of airspace and airport management policies should be passenger 
throughput. Proper pricing can increase the number of passengers served 
at an airport, even if the number of planes does not increase. And a 
framework to establish proper price signals need not be disruptive to 
the operations of airports.
    Changing from the traditional, increasingly inefficient 
administrative controls to a market-based system has generated a fair 
amount of concern, primarily from the airlines. The following 
discussion outlines the issues related to pricing that were considered 
by the ARC. It details concerns expressed about pricing and how those 
concerns can be addressed.
    Track Record in Aviation.--Some opponents to market-based pricing 
believe it does not have a proven track record in aviation, and that 
implementation of such pricing for airspace will devastate the 
industry. Further, they do not believe that experience with such 
pricing in other industries provides a meaningful parallel for 
application in the airline industry.
    We live in a market economy which allocates scarce resources 
through pricing. This model has been adopted because history has 
demonstrated repeatedly that markets are the most efficient means of 
allocating a scarce commodity. While the aviation industry is unique in 
a number of respects, there is no reason to believe that market-based 
methods will fail if applied to this industry.
    In fact, market-based pricing has been used effectively in the 
United States for aviation. Boston's Logan International Airport 
applied a pricing plan in 1988 that dramatically reduced congestion at 
that airport. While the plan was later found to be out of proportion to 
the need to reduce congestion, because it operated during non-congested 
as well as congested periods market-based pricing at Logan Airport did 
reduce congestion. In addition, the Port Authority of New York and New 
Jersey applied pricing in 1968 to control congestion. The pricing 
worked initially; however, the fee was not increased with time and 
eventually became ineffective.
    Those questioning the efficacy of market-based pricing in aviation 
need look no further than airline pricing policies. Airlines already 
apply a market-based pricing model to airline travel. When searching 
for low fare flights to your destination, inevitably the cheapest 
flights to be found are those departing or arriving at the least 
desirable times. By pricing flights at less attractive times at a lower 
level than flights at popular travel times, airlines are incentivizing 
consumers to move to a less congested flight. However, this congestion 
fee does not reduce overall congestion in the system, because it does 
not impact the way the airlines themselves are charged for air traffic 
control and airport services.
    Cost to Consumers.--Arguments have been made that market-based 
pricing could increase the monetary cost to travelers, if airlines pass 
congestion fees on to consumers. This argument, however, ignores two 
facts: (1) limiting competition by capping an airport creates 
significant upward pressure on fares: and (2) congestion fees will be 
offset by congestion savings.
    The increased cost of a congestion charge is likely to be more than 
offset by the downward pressure on fares brought about by additional 
competition. Statistics show that when a low cost carrier enters a new 
market, the additional competition results in a fare decrease. When 
Southwest entered the market in Philadelphia in May 2004, the result 
was an immediate fare decrease of 24 percent. Three years later, in the 
4th quarter of 2007, the average air fare in Philadelphia was still 
down 12 percent from the 4th quarter of 2003, before Southwest entered 
the market. While it is still unclear how much airlines will pay in an 
auction for slots at LaGuardia, it is likely that competition from new 
entrants will result in greater fare savings, which will offset any 
increases as a result of the purchasing slots.
    Similarly, we need to explore the costs of instituting market 
mechanisms compared to the costs of various alternatives (including 
capping access to an airport or allowing substantial increases in 
delays).
    In fact, congestion is expensive. According to the ATA, congestion 
costs the economy over $12.5 billion a year. The New York City 
Comptroller has estimated that congestion costs travelers to New York 
City an additional $187 million. Reducing congestion will produce 
increased system reliability and dramatic savings for consumers. 
Market-based pricing would decrease congestion and thereby decrease the 
costs that flow from congestion.
    Market-based pricing makes the costs consumers already pay for 
flying into a congested market transparent and gives them the ability 
to avoid the higher costs by traveling during less congested periods. 
When scarcity exists, consumers pay higher costs. In the case of 
aviation, those costs are paid in terms of wait times or higher fares 
due to slot controls or pricing. Only with market-based pricing do 
consumers have the choice of avoiding higher prices. Some airlines now 
charge more for additional leg room. If passengers will pay for 
additional leg room, they almost certainly will pay to arrive on time.
    Government Tax.--One of the principal points argued by those 
opposed to market-based mechanisms is that the organizations that 
control airport and airspace access are both monopolies and, therefore, 
are themselves not market-based. For this reason, pricing of airport or 
airspace access would operate as a Government tax, rather than a market 
price between two private entities.
    The details of how the proceeds of a pricing mechanism might be 
spent are important and if the proceeds are dedicated to expanding 
capacity and funding specific projects at the airports, then the 
revenue would be directly used to alleviate the congestion that 
generated the proceeds and would not be a tax. In recognition of this 
concern, under first option proposed in the LaGuardia SNPRM, the FAA 
would spend any proceeds from an auction on congestion and delay 
management initiatives in the New York City area, after recouping the 
costs of the auction. Under the second proposed option, the airlines 
would retain the proceeds of the auction.
    Relationship Between Physical Assets and Investments.--Many 
airlines have invested hundreds of millions, and even billions, of 
dollars in terminals, gates, hangars, and other facilities at airports. 
Those airlines using special revenue facility bond financing gain tax 
preferences due to the public nature of the facilities whose financing 
they underwrite. They give up the facility to the airport proprietor at 
a predetermined date. The airlines also realize that the airport 
proprietor ultimately controls the use of the facilities for the 
benefit of the public. Nonetheless, those airlines are concerned that 
they would lose the ability to realize a return on those investments, 
if a pricing program resulted in the airlines not being able to fly 
their traditional schedule. Conversely, if reallocation of slots is 
achieved through imposition of a market-based pricing mechanism that 
does not recognize historic rights, some are concerned that the new 
owners of slots would not be able to gain access to the gates and 
ticket counters controlled by the former owners of the slots.
    Any pricing mechanism pursued by the Department will recognize 
these concerns. Since the advent of the competition plan requirement in 
AIR-21, the Department has been educating airport proprietors about 
their responsibilities to accommodate all requesting carriers on a 
reasonable basis. Airlines are aware that their unused gate leaseholds 
may be accessed by other carriers, due to the unavailability of common-
use gates and if the need arises. In addition, the Department would 
manage any market-based system in such a way as to recognize the 
legitimate interests of those airlines, which have made significant 
investments in existing infrastructure, to realize an adequate return 
on those investments. The Department does not want to create a 
disincentive for future airline investment in aviation infrastructure.
    We recognize the concern about disruptions to the industry in the 
LGA SNPRM. The proposals would grant 10-year leases to airlines 
currently serving LaGuardia for at least 20 of their current slots. 
Such an approach recognizes the historical investment by airlines at 
the airport and the community, and will avoid disruption to the 
national air transportation system.
    Additionally, the Airport Council International, North America, 
expressed concerns that the Department's LaGuardia SNPRM might 
interfere with the airport's ability to manage its own facilities. The 
Department has consistently worked with airports to give them 
additional tools to manage their airports and reduce delays--such as 
through our rates and charges policies--and we will continue to work to 
develop better delay and congestion management tools that do not 
overstep our regulatory authority to manage the airspace and respect 
the airports need to manage its own facilities. The Port Authority has 
failed to use this tool and not managed congestion at LaGuardia for 40 
years.
    Reduced Demand for Air Travel.--Some civic leaders were 
particularly concerned about the impact market-based pricing might have 
on the affordability of traveling to the New York City. As noted above, 
however, consumers are paying a heavy price in terms of congestion. It 
is unlikely that slightly higher prices during peak periods would serve 
as a greater deterrent than the chronic delays New York City currently 
experiences. In fact, a USA Today article published last year noted 
that savvy travelers avoid New York City whenever possible. That can 
change if market-pricing can play an appropriate role.
    Additionally, by establishing a market mechanism whereby slots will 
be allocated to the most efficient user, the incentive will be for the 
slots to go to the airline with the most efficient use of the slot--
which will likely be the airline that is able to bring the most 
passengers in on a plane. This should result in increased passenger 
throughput at an airport--even as the physical number of planes coming 
through the airport remains steady--and result in greater availability 
of seats and downward pressure on ticket prices.
    Economic Disruption.--Given the sharp increase in fuel prices, 
airlines are understandably concerned about any additional financial 
burden generated by pricing. In addition, the airports have billions of 
dollars of debt and other financing tied to the financial health of the 
airlines. The Department understands the financial environment in which 
airlines and airports are operating. Any market-based solution will 
need to be implemented in a manner that does not unduly disrupt the 
current system.
    The recent LaGuardia SNPRM will result in a very small number of 
flights being auctioned off annually--under options 1 and 2, 14 or 36 
slots out of 1,168 slots, respectively, will be auctioned annually for 
the first 5 years of the rule, with no required auctions for the last 5 
years of the rule. This is a very small number of slots that will be 
auctioned--and while some will claim that any disruption is 
problematic, we expect that numerous experts and economists will chide 
the Department for having auctioned what they view as too small of an 
amount. This SNPRM is attempting to strike a balance between competing 
views and to spur a secondary, voluntary market whereby airlines can 
freely trade slots and excess capacity to the highest bidder able to 
realize the best economic use of the slot.
    Impact on Small Communities and General Aviation.--There are 
concerns that market-based pricing would limit general aviation access 
to airports and would make it difficult for carriers to continue 
adequately serving small communities. While market-based pricing does 
an excellent job of allocating resources to those who can realize the 
most economic value from that resource, such pricing does not allow for 
the societal value placed on certain activities. The Department will 
monitor whether modifications to market-based mechanisms are necessary 
to provide for continued service to small communities and continued 
access for general aviation. If the Department were to publish a final 
rule that would auction slots at LaGuardia, the Department will 
carefully analyze and consider the impacts an auction will have on 
service to small communities.

                               CONCLUSION

    Our objective is to address the fundamentals of the problem of 
aviation congestion and achieve solutions that are long-term and that 
provide maximum benefits to the traveling public and the vital industry 
that serves them. The basic question for us is whether to continue to 
apply temporary band-aids to the problem, or whether to seek solutions 
that will do a better job of allocating our scarce airspace. We believe 
that we must take positive, immediate steps to deal with a dynamic air 
transportation system that has far outpaced earlier efforts at 
improvement. Air travelers deserve to fly the safest and most reliable 
air system possible. The time has come to bring aviation into the 21st 
century and more fully allow market forces to work.
    Change is difficult, and the airlines' concerns are understandable. 
In fact, very similar arguments were made by the airlines in opposition 
to deregulation. Concerns were raised about disruption to the industry, 
lack of a track record, and disruption to business models. However, the 
ATA Airline Handbook includes a long list of benefits that resulted 
from deregulation. The Handbook notes that deregulation stimulated 
competition, led to rapid growth in air travel, and reduced fares by 
more than 50 percent in real terms. We believe that market-based 
remedies directed at congestion will improve airline service like 
deregulation did.
    Thank you again for this opportunity to testify. I will be pleased 
to answer any questions you may have.

    Senator Specter. Mr. Sturgell and Mr. Gribbin bring 
excellent qualification to their job. Mr. Sturgell had been a 
Senior Policy Advisor to the National Transportation Safety 
Board, before becoming Acting FAA Administrator. He was, prior 
to that, a pilot for United Airlines, graduated the U.S. Naval 
Academy and Virginia Law School.
    Mr. Gribbin, before becoming General Counsel to the 
Department of Transportation, was Chief Counsel to the Federal 
Highway Administration, got a degree from Georgetown University 
undergrad, and Georgetown University Law School.
    Without objection, a statement made by Senator Lautenberg 
will be made part of the record. He expressed his regrets that 
he could not be here, because of a longstanding prior 
commitment. Senator Casey wanted to be here as well, but again, 
time was not something he could accommodate to, and I can tell 
you, they're both following these proceedings very, very 
closely.
    [The statement follows:]

           Prepared Statement of Senator Frank R. Lautenberg

    One month ago I stood on the bank of the Delaware River in West 
Deptford, New Jersey, across from the Philadelphia Airport and spoke 
out about the dangers of the Federal Aviation Administration's (FAA's) 
Airspace Redesign project.
    Since that time, leaders at the FAA have continued to march the 
agency toward worsening problems in our skies, on our runways, in the 
maintenance hangars and over our homes.
    The FAA has failed to take the necessary steps to ensure the safety 
of the flying public, treat its professional safety employees with the 
respect they deserve, and preserve the quality of life of New Jersey 
residents.
    Although the project has taken nearly a decade to complete, FAA 
spent less than a year sharing its final plans with the public and then 
rushed to implement them. This process has been unfair for New Jersey 
residents and has put the traveling public at risk.
    In its rush to get the newly designed flight patterns in place last 
December, the FAA began using the new ``dispersal'' headings before it 
even published new official documents showing pilots and controllers 
the new roadmaps to our region's skyways.
    The resulting confusion has caused some planes to take off in the 
wrong direction and put travelers and residents at risk of a major 
catastrophe. This is a senseless risk to take with air safety, but the 
FAA has used these procedures at both Philadelphia International 
Airport and Newark Liberty International Airport.
    Even FAA's own employees at the Philadelphia Airport--the air 
traffic controllers--tried to point out the problems with rushing the 
project, but the Bush administration's FAA told them that if they had 
safety concerns they should essentially ``go find another job.'' That's 
unacceptable and an outrageous response from this administration.
    When I heard New Jerseyans were turned away at FAA public meetings 
held in Philadelphia about this plan, I insisted that the agency come 
back and hold additional meetings--in New Jersey.
    While FAA seemed intent on quietly and quickly pushing the project 
ahead, I wanted each affected New Jersey resident to be able to learn 
about how their lives and homes would be impacted by the FAA's plan--
and to express their concerns to the FAA.
    For these reasons, I have continued to block, along with my 
colleague Senator Menendez, President Bush's appointment of Robert 
Sturgell to be Administrator of the FAA.
    Mr. Sturgell, the FAA's Deputy Administrator for 5 years before 
taking over as Acting Administrator last year, helped create many of 
the failed policies which led to our country's current air travel 
problems.
    Worse, he has shown no indication that he can or will change the 
direction of the agency to address these key problems. His appointment 
represents a continuation of failed aviation policies by the Bush 
administration, and I will continue to block Mr. Sturgell's Senate 
confirmation until we see evidence of real change from the 
administration on these important issues.
    We have seen a sad pattern of failure from FAA leaders over the 
past several years. The agency has failed to hire sufficient numbers of 
air traffic controllers we need to ensure our safety. A report I 
requested from the Government Accountability Office last year found 
that nationwide, at least 20 percent of the controllers at 25 air 
traffic control facilities, including towers at major airports, were 
working 6-day weeks. This overworking can lead to fatigue and tired 
eyes on our skies and our runways.
    The FAA has also failed to hire enough safety inspectors to keep up 
with the airline companies' level of outsourcing to foreign maintenance 
facilities. Only recently we learned the extent to which FAA has been 
relying on the airlines to self-regulate much of its inspection work, 
as the problem of the lack of safety inspectors came to light.
    Since runway safety continues to be a major concern, I will 
introduce legislation shortly to ensure the agency focuses on this 
major problem. Near-collisions on our runways continue to increase, and 
FAA has not taken a leadership role in coordinating its efforts to 
address these problems.
    This is not a new problem. The improvement of runway safety has 
been on the National Transportation Safety Board's list of ``most 
wanted'' safety improvements since 1991.
    I will continue to fight to ensure the FAA does not neglect the 
Nation's air safety needs--and New Jersey's quality of life.

    Senator Specter. Mr. Sturgell, would you identify the other 
two individuals who are sitting at the witness table with you?
    Mr. Sturgell. Sure.
    To my far right is Steve Kelley, the Program Manager for 
this project, and then to my immediate right is Mary McCarthy, 
from the Counsel's Office at the FAA, who's also involved in 
this project.

                      OPERATIONS DURING PEAK HOURS

    Senator Specter. Mr. Sturgell, I'll begin with you.
    Set the time clock at 10 minutes, please?
    I begin with you on the basic question about the 
understanding that on the so-called peak hours from 9 o'clock 
to 11 o'clock, and 2 o'clock to 7 o'clock, there would not be 
more than--there would be no overflights over the Delaware 
County route, unless there were 10 or more aircraft waiting to 
depart. That is the understanding, is it not?
    Mr. Sturgell. That is not quite accurate, Senator Specter, 
and if you permit me to expound on this for a little bit.
    We have both dispersal headings being used at Philadelphia 
and at Newark. At Newark, we are using a demand trigger for 
those three headings, which goes to the number of aircraft----
    Senator Specter. Mr. Sturgell, before you have at it, let 
me quote your letter from March 20. I had written to you about 
that commitment, and you responded, on March 20, ``Your 
assertion that my representative advised your staff that 
Philadelphia dispersal headings over Delaware County would 
initially only be used during peak demand hours, which we 
define as periods where 10 or more aircraft would be waiting to 
depart in the absence of the dispersal heading, that is 
correct.''
    Now, you're not backing off from your statement in that 
letter, are you?
    Mr. Sturgell. No, I'm not. We do define peak demand hours 
as generally the hours where 10 or more aircraft are waiting 
for departure.
    Senator Specter. Well, aren't the peak hours defined as--
you have defined them, I don't know if they're necessarily 
correct, but you have defined them as 9 o'clock to 11 o'clock 
and 2 o'clock to 7 o'clock.
    Mr. Sturgell. Those are the hours where we are currently 
using the two available dispersal headings.
    Senator Specter. Those are the hours where you're doing 
what?
    Mr. Sturgell. That we are using dispersal headings to the 
west at Philadelphia.
    Senator Specter. Okay, and that means subject to the rule 
that there would not be overflights over Delaware County, 
unless there were 10 or more aircraft waiting.
    Mr. Sturgell. So, the chart shows those hours, and it shows 
the number of departures----
    Senator Specter. Before what the chart shows, I want to 
ascertain, with precision, your commitment. I'm trying to 
establish the commitment that--on the peak hours, which you 
define as 9 o'clock to 11 o'clock and 2 o'clock to 7 o'clock, 
as your letter of March 20 said, there wouldn't be dispersal 
unless there were 10 or more aircraft waiting to depart.
    Mr. Sturgell. So, the peak demand hours generally equate to 
the aircraft waiting to depart. And at Newark, that is what we 
are using, because we did not reduce the number of dispersal 
headings.
    At Philadelphia----
    Senator Specter. Mr. Sturgell, why go to Newark when I'm 
pressing you hard to find out about your commitment to 
Philadelphia.
    Mr. Sturgell. I'm trying to distinguish between the two, 
because----
    Senator Specter. But I'm not asking you for a distinction, 
I'm asking you for what your commitment has been.
    Mr. Sturgell. Right.
    The issues have arisen together in various forms, Senator 
Specter, that's all----
    Senator Specter. I don't care about that. What I care about 
is our exchange of correspondence where it is pretty plain that 
your commitment is what I have said. No routings over Delaware 
County, unless there are 10 or more aircraft waiting, during 
those designated periods.
    Mr. Sturgell. I think that correspondence says that we are 
using them during those hours, because those are peak demand 
hours. And that generally, peak demand hours are hours where 
you have those kinds of aircraft waiting for departure.
    Senator Specter. But you said, well, the difficulty with 
what you're saying is that you have the commitment, we have on 
the record, departures over Delaware County where you don't 
have 10 aircraft waiting, don't we?
    Mr. Sturgell. So, if we didn't use these dispersal headings 
during those hours, we would have those kinds of delays in 
terms of aircraft waiting for departure.
    Senator Specter. Well, if you--if you have fewer than 10 
aircraft waiting, you made that commitment, because that was a 
standard where you could avoid using the departure route over 
Delaware County, right?
    Mr. Sturgell. Senator, I believe the commitment we made to 
you, and in that correspondence was that we would limit the use 
to peak demand hours, and then we tried to explain that 
generally, a peak demand hour is an hour where you would have 
10 or more aircraft waiting for departure.
    Senator Specter. And if you have less than 10? You would 
not use the overflights over Delaware County?
    Mr. Sturgell. We are trying to limit the use to the peak 
demand hours. And in fact, we could be starting earlier, we 
could be ending later, we were trying to very narrowly limit 
the impact to people by reducing these hours until we get 
further into the project, and we get the third dispersal 
heading, and we get other things accomplished.
    Senator Specter. Well, alright. Take it on your re-
interpretation of what your commitment is, as I read it, aside 
from the so-called ``peak hours'' where you have 10 or more 
waiting, if you're at a time period, or if you're in a 
situation where there are fewer than 10 waiting, would you 
concede, at least in that situation, you'd be obligated not to 
send flights over Delaware County.
    Mr. Sturgell. We are not using the headings in non-peak 
demand hours. From 10 p.m. to 7 a.m., we're not using the 
dispersal headings.
    Senator Specter. You're not using--in situations--never 
mind non-peak--let's talk turkey, let's talk specifics, if we 
can, for just one question. If you have nine or fewer waiting, 
you won't go over Delaware County?
    Mr. Sturgell. Senator, the mitigation strategies we had in 
place for this project at Philadelphia do not equate to the 
number of aircraft, they equate to peak demand hours. Which, as 
I tried to explain, generally does mean 10 aircraft. But, if 
you're using the headings, you won't see those kinds of delays.
    Senator Specter. Mr. Sturgell, I wrote to you on February 
15. ``I'm advised that Federal Aviation Administration 
representatives claim that in November 16, 2007, congressional 
staff briefing, that the heading over Delaware County would 
initially only be used during periods of moderate and heavy 
traffic at Philadelphia, or when approximately 10 to 15 
aircraft were waiting to depart.''
    We rely on these representatives, and I would fairly call 
commitments, and you responded, on March 20, ``Your assertion 
that my representatives advised your staff that Philadelphia 
dispersal headings over Delaware County would initially only be 
used during peak man hours which we define as periods when 10 
or more aircraft would be waiting to depart, in the absence of 
the dispersal heading, is correct.''
    Now, Mr. Sturgell, isn't a fair--really, the only realistic 
reading of our exchange of correspondence, a commitment not to 
fly over Delaware County? If there weren't 10 to 15 aircraft 
waiting to depart?
    Mr. Sturgell. Senator Specter, what I'm trying to convey is 
that the peak demand hours, yes, generally equate to those 
types of numbers of aircraft being lined up, but if you're 
using the headings during those hours, the point is not to have 
those kinds of departure delays for the traveling public, so 
you would not end up with 10 aircraft in line.
    And if we're using these over a period of 2 hours where we 
have peak demands, you're going to reduce those number of 
aircraft in line. So then, do we stop using them until we've 
got 10 more lined up, and start using them again? We were 
trying to do this on a rational basis that has a limited impact 
to the community, by restricting the hours during those peak 
demand hours.
    Senator Specter. I don't understand your last answer, about 
are you saying that there are times when you have fewer than 10 
airplanes you consider indispensable to fly over Delaware 
County?
    Mr. Sturgell. First of all, I'm not saying that every 
airplane out there is flying over Delaware County.
    Senator Specter. You're not saying what?
    Mr. Sturgell. That every airplane is flying over Delaware 
County.
    Senator Specter. I don't care about the others, on this 
question. I do care about the others on other questions, which 
I'll come to.
    But let me repeat the question, this is only about the 
seventh time. Are you saying that there are circumstances where 
you have nine or fewer aircraft waiting to depart, do you find 
it indispensable to fly over Delaware County?
    Mr. Sturgell. I would say that when we are using these 
dispersal headings, that they are probably reducing delays, 
such that we don't have those types of numbers of aircraft 
waiting in line during the hours we're using them.
    Senator Specter. Mr. Gribbin, you're a lawyer, do you 
understand that question--answer?
    Mr. Gribbin. Yes, yes, sir.
    Senator Specter. I don't think you have to be a lawyer to 
understand, but you're a lawyer, Mr. Gribbin. And I know you 
have a certain bias and relationship here, but you also are 
sworn to uphold the Constitution, which requires telling the 
truth. I'm not suggesting that anybody's not telling the truth.
    Mr. Sturgell. I appreciate that.
    Senator Specter. I'm not swearing the witnesses. I'm trying 
to find out what's happened in as a relaxed atmosphere as we 
can. This is not the Judiciary Committee.
    Mr. Gribbin. Right. Actually, what Administrator Sturgell 
is saying is that----
    Senator Specter. Speak into the microphone, Senator 
Thurmond used to say, ``Pull the machine closer.''
    Mr. Gribbin. Talking into the machine.
    What Acting Administrator Sturgell is saying is that we 
define peak periods as, if there were no use of dispersal 
headings, then----
    Senator Specter. I don't want to know what you define, I 
want to know if you understood his answer.
    Mr. Gribbin. Yes, his answer was----
    Senator Specter. All right. You understood his answer.
    Mr. Gribbin. Yes, sir.
    Senator Specter. Now, tell me what his answer was?
    Mr. Gribbin. His answer was that we will use the additional 
dispersal headings. If we did not use them, there would be more 
than 10 aircraft in line. As a result of using them, it reduces 
the line, which is the point of having the dispersal headings.
    Senator Specter. So, there are some times when there are 9 
or fewer aircraft waiting, that you fly over Delaware County.
    Mr. Sturgell. If they depart on the 268 heading----
    Senator Specter. May the record show that Mr. Gribbin 
looked at Mr. Sturgell, nodded in the affirmative, and now 
we're listening to Mr. Sturgell's answer.
    Do you agree with him?
    Mr. Sturgell. Yes, yes. If they use the northern dispersal 
heading on the departure.
    Senator Specter. So, it's a qualified ``yes.''
    Mr. Sturgell. Because there is a dispersal heading that 
goes to the south, away from Delaware County.
    Senator Specter. But, sometimes the headings going away 
from Delaware County are not used, so that you have Mr. 
Gribbin's answer, but you are flying over Delaware County with 
fewer than 10 aircraft waiting.
    May the record show, Mr. Sturgell is nodding, in the 
affirmative. You're saying that's right.
    Mr. Sturgell. That's correct.
    Senator Specter. Good. We're only 14 minutes and 32 seconds 
into this question.
    Now we have enough questions that will take us past 
midnight at that rate.
    Mr. Sturgell, put the chart up, with the various flight 
patterns around, and I think it would be useful to everyone if 
you would come up and show what you're doing here, by way of 
generalization, to give you an opportunity to state what you 
are trying to do to avoid the Delaware County problem. I don't 
think you're there by the last answer, and by my full 
understanding of it, but I think it would be helpful if you 
would--why had that chart been withheld from us, Mr. Sturgell?
    Mr. Sturgell. I'm sorry?
    Senator Specter. Why had that chart been withheld from us?
    May the record show that we had a group of charts first, 
and now this one comes from the closet. I just want to put that 
for the record.
    Mr. Sturgell. So, the original project proposed seven 
headings in grey. When we were looking at this from completely 
an operational efficiency and delay-reduction perspective, we 
came up with seven different departure headings, in grey, which 
permitted us to get more airplanes off the runway faster, and 
reduce delays.
    Then we heard from the citizens. And what we did was we 
went back, and tried to find ways to reduce noise impact on the 
citizens, and, in particular, for the four headings right 
here--270, 29, 310, 330--all flowing off into Delaware County.
    So, we heard from the community, and what we did was, we 
came up with three headings. So, we took an operational hit, 
and helped mitigate the impact to the communities. And we ended 
up with three headings, in purple. We moved 270 to 268, to try 
and reduce the noise impact in this area, and we got rid of the 
headings flying up to the north.
    We kept 245, we have not yet put in 230--I think that's 
going to take us about 2 years to do, because we have some 
internal airspace changes we have to do----
    Senator Specter. Why should it take 2 years to put in two-
thirds of the dispersal and dotted lines?
    Mr. Sturgell. Because it involves airspace changes within 
our facilities, which impacts the workforce and our operating 
environment, and they take longer to do. These two did not 
require those changes.
    And we're also using the red heading, 255 down the river, 
during the off-peak hours, at night, from 10 p.m. to 7 a.m., 
and then there's a slot during the middle of the day, from 11 
o'clock to 2 o'clock or so, where the demand drops off, we're 
using those headings during that time.
    Senator Specter. Now, now, now, now, now--wait, wait. 
You're saying--as you had explained to me in our meeting 
earlier this week--that from 10 p.m. to 9 a.m., you are using 
only--use the chart, which has 255 on it. That chart. And you 
told me that from 10 p.m. to 9 a.m., you were using only 255, 
correct?
    Mr. Sturgell. That's correct.
    Senator Specter. Well, how can you do that, Mr. Sturgell, 
in view of a very heavy traffic at the airport, in the 7 
o'clock time zone?
    Mr. Sturgell. So, you can see, from 5 o'clock to 7 o'clock, 
the traffic picks up, 7 o'clock to 9 o'clock----
    Senator Specter. Pull that chart up.
    Mr. Sturgell. Five to seven starts ramping up, 7 o'clock to 
9 o'clock, it's fairly high, it's above the average, which is 
the green. But it's not at some of the peak hours. So we are 
taking hits by not using the headings during that time. But it 
is part of our mitigation strategy to try and reduce the noise 
impact to the community at early times of the day, were we to 
be using those dispersal headings.
    Until we get the third heading in, we're going to monitor 
these hours very closely, and try to limit them to our peak 
demand hours.
    Senator Specter. And you're talking about the third heading 
coming in, as 230.
    Mr. Sturgell. Yes, sir.
    Senator Specter. And you say that'll be in 2 years?
    Mr. Sturgell. Approximately.
    Senator Specter. And when 230 is in, will that eliminate 
the flights over Delaware County?
    Mr. Sturgell. It will not eliminate the flights over 
Delaware County. It will more evenly distribute the flights 
among three headings, vice two headings.
    Senator Specter. Will it reduce the flights over Delaware 
County?
    Mr. Sturgell. I think it will reduce the noise impact once 
it will be implemented.
    Senator Specter. Reduce the noise impact?
    Mr. Gribbin, would you explain that answer to me?
    Mr. Sturgell, if it reduces the noise impact, wouldn't that 
necessarily mean that's because the number of flights were 
reduced?
    Mr. Sturgell. Yes, I think they directly relate to each 
other. I'm----
    Senator Specter. They directly relate to each other.
    Mr. Sturgell. I don't specifically know whether the actual 
flights are reduced, I don't have that knowledge. I do know the 
noise impact will be less, because we will have a third heading 
to use.
    Senator Specter. Well, I'm just trying to understand your 
testimony. The question is, will the number of flights be 
reduced over Delaware County? The answer to that, unresponsive, 
the noise impact will be reduced. Well, if noise impact is 
reduced, doesn't that mean the number of flights will be 
reduced? Answer: Well, there is a direct correlation, there.
    Do you want to--
    Mr. Sturgell. Senator, I think that's a safe assumption, I 
just don't----
    Senator Specter. I'm not interested in assumptions.
    Mr. Sturgell. Right.
    Senator Specter. I want to know conclusions. Will the 
number of flights be reduced?
    Mr. Sturgell. I don't know the actual numbers that are 
involved.
    Senator Specter. But you know the noise impact will be 
reduced.
    Mr. Sturgell. But I know the noise impact.
    Senator Specter. Okay. It's like pulling teeth, Mr. 
Sturgell. And I'm trying to work through to get your best 
presentation, give you a chance.
    I think your best presentation has lots of problems, but I 
want to give you a chance for your best presentation.
    I'm advised that Mayor Nutter has to leave very, very 
shortly. And of course we'll accommodate the Mayor.
    Mayor Nutter, would you step forward and would you four 
take seats on the front row and I'll recall you in just a few 
minutes?
    While the Mayor is coming downstairs, let me introduce him 
to you. Not that he needs an introduction. The Mayor comes with 
a very distinguished record. Elected on November 6, former 
Councilman from the 4th District, Democratic Ward Leader, 
University of Pennsylvania, Wharton School, 1979, and he has 
hit the ground sprinting as Mayor, and I have had the pleasure 
of talking to him informally, worked with him when he was on 
the City Council, we were on panels together, we've had a long 
friendship and I'm pleased to see what he's doing in so many, 
many areas, and especially in this area, because he convened a 
meeting of the airlines in the past couple of weeks to tackle 
this problem.
    And no longer introduction, Mr. Mayor. I'll give you the 
maximum time you can spend with us.

STATEMENT OF HON. MICHAEL NUTTER, MAYOR, CITY OF 
            PHILADELPHIA, PHILADELPHIA, PA
    Mr. Nutter. Senator Specter, thank you very, very much for 
this opportunity and the honor of testifying before this Senate 
Subcommittee on Transportation and Housing and Urban 
Development and Related Agencies. And I might, to ease my way 
into it, given the last panel--as happy as I am to be here, I 
think Mr. Sturgell might be happier that I'm here to provide a 
bit of a break.
    These are my opening comments, Senator, I will not take a 
significant amount of time, but this is a very important issue. 
And you are correct, we did have an opportunity to talk with 
the airlines about these issues and many others.
    And for the record, my name is Michael A. Nutter, I'm Mayor 
of the city of Philadelphia. The city of Philadelphia owns and 
operates Philadelphia International Airport, which I will 
subsequently refer to as PHL.
    The gateway to America's fourth most populous metropolitan 
area, the airport sustains over 34,000 jobs, and contributes 
more than $14 billion annually to the regional economy. It is a 
key component of my strategic plan for economic development, 
job creation, and customer service in Philadelphia and our 
region.
    Twenty-nine airlines fly over 650 daily departures from 
Philadelphia to 122 non-stop domestic and international 
destinations.
    I'd like to also add for the record that I am pleased and 
proud to--in our continuing efforts with our Deputy Mayor Rina 
Cutler, and our airport director Charlie Isdell, to continue to 
develop working partnerships with our good friends in Tenniken 
Township, and Delaware County--critical and important 
stakeholders and partners in our efforts from a regional 
standpoint, to make Philadelphia International Airport work for 
all of us.
    Senator Specter, I'd just like to give you a bit of an 
update on the airport. Our airport has achieved yet another 
record year in 2007 by accommodating over 32.2 million total 
passengers. This continues the steady rate of passenger growth, 
which we have been experiencing since 2004. PHL landed 499,653 
aircraft take-offs and landings in 2007, making it the 10th-
busiest airport in the United States.
    Unfortunately, along with its record-setting passenger 
growth and robust contribution to the regional economy, PHL was 
ranked among the most-delayed airports in the United States for 
some--has ranked among the most-delayed airports in the United 
States for some time.
    In terms of total delays in 2007, PHL ranked 6th worse 
among the 30th largest U.S. airports, behind only Chicago, 
Newark, LaGuardia, JFK and Atlanta.
    However, over the past 3 years, the number of annual 
takeoffs and landings at PHL has declined by nearly 7 percent. 
This decline in activity has primarily resulted from a change 
in airline behavior. The current state of the economy--
especially the price of jet fuel--has forced the airlines to 
find new ways to accommodate continued passenger growth.
    Rather than simply increase flights, they have been 
reducing overall seat capacity by eliminating underperforming 
routes, consolidating activity at fewer hub airports, and 
strategically introducing newer, larger, more fuel efficient 
regional jets. In addition, at Philadelphia, US Airways has 
been working to reduce delays, by improving their facilities 
and operational efficiency.
    Total delays at PHL over the past 3 years have declined by 
11 percent. The total delays at JFK in 2007 were 30 percent 
greater than those experienced at PHL. Total delays at 
LaGuardia, Newark, and Chicago were 2 to 2.5 times greater than 
those at PHL. The delay situation at Philadelphia is certainly 
worth of this subcommittee's attention, but it is not yet 
comparable to those airports which have been forced to consider 
and, in some cases, implement strict demand-management 
measures.
    We do not intend to allow our airport to ever reach that 
level of intervention. The city has completed an Airport Master 
Plan process, which recommended short-term and long-term 
airfield improvements, aimed at needed delay reduction.
    The short-term recommendation was a 1,000-foot extension of 
runway 17-35, to make it usable for a broader range of aircraft 
types. The Federal Aviation Administration approved this 
project in 2005, and it is scheduled for completion later this 
year. It is expected to reduce overall delays in Philadelphia 
by 8 percent.
    The long-term plan involved continued development of the 
airfield, including a new runway, extension of two other 
runways, and several important improvements to the taxiway 
system. This program is currently the subject of an 
environmental impact statement being prepared by the FAA. The 
EIS process was set back by a full year, when the recent 
Airspace Redesign Process was implemented, because of a great 
deal of airfield design work had to be recalculated in light of 
the airspace changes.
    The FAA is not scheduled to complete the PHL airfield EIS 
until the end of 2009. Following FAA approval, the city expects 
to embark on the initial phase of the program expeditiously.
    This multi-year process will result in airfield 
infrastructure improvements that will increase the capacity of 
our airport, reduce delays, and allow PHL to accommodate 
projected growth while offering a higher level of service to 
our passengers.
    A couple of last points, Senator Specter. We are also fully 
aware of a variety of other topics, and I'll just touch on the 
sub-headings, here. Of course, the New York-New Jersey-
Philadelphia airspace, FAA Airspace Redesign, we are actively 
involved in that process.
    Flight scheduling practices--there are three that we are 
primarily looking, of course, first is voluntary adjustment of 
airline flight schedules, the second, administrative 
approaches, and third, market-based approaches, as well.
    In summary, Senator Specter, I would say that our primary 
concern with all of these approaches is their potential impact 
on airfares. Much progress has been made in recent years at 
Philadelphia to increase competition. Prior to the approval of 
Southwest Airlines in 2004, PHL's passengers consistently paid 
some of the highest average airfares in the Nation.
    For the past 4 years, our passengers have consistently 
enjoyed some of the Nation's lowest average airfares. This 
accomplishment could be undone by demand management measures, 
particularly if they are not carefully planned and implemented.
    I do not mean to diminish the seriousness of our delay 
problems at PHL, at all. We are committed to considering any 
and all responsible measures to address this problem. Our 
present focus is on the implementation of a long-term airfield 
development program. We would gratefully accept any assistance 
this subcommittee can provide in prioritizing that initiative.

                           PREPARED STATEMENT

    I want to thank you, again, for the opportunity to testify 
today, I would submit the fuller testimony for the record, and 
I would certainly be glad to answer any questions that you 
might have that I might be able to answer on my own.
    Thank you, sir.
    Senator Specter. Your full statement will be made part of 
the record, without objection, and I very much appreciate your 
coming in, Mr. Mayor.
    [The statement follows:]

               Prepared Statement of Hon. Michael Nutter

                          INTRODUCTORY REMARKS

    I am Michael Nutter, Mayor of the city of Philadelphia, which owns 
and operates Philadelphia International Airport (PHL), the gateway to 
America's 4th most populous metropolitan area. The Airport sustains 
over 34,000 jobs and contributes more than $14 billion annually to the 
regional economy. It is a key component of my strategic plan for 
economic development, job creation and customer service. Twenty-nine 
airlines fly over 650 daily departures from Philadelphia to 122 non-
stop domestic and international destinations.

                             AIRPORT UPDATE

    Our Airport achieved yet another record year in 2007 by 
accommodating over 32.2 million total passengers. This continues the 
steady rate of passenger growth, which we have been experiencing since 
2004. PHL handled 499,653 aircraft take-offs and landings in 2007, 
making it the 10th busiest airport in the United States. Unfortunately, 
along with its record-setting passenger growth and robust contribution 
to the regional economy, PHL has ranked among the most delayed airports 
in the United States for some time. In terms of total delays in 2007, 
PHL ranked 6th worst among the 30 largest U.S. airports, behind only 
Chicago, Newark, LaGuardia, JFK and Atlanta.
    However, over the past 3 years, the number of annual take-offs and 
landings at PHL has declined by nearly 7 percent. This decline in 
activity has primarily resulted from a change in airline behavior. The 
current state of the economy, especially the price of jet fuel, has 
forced the airlines to find new ways to accommodate continued passenger 
growth. Rather than simply increase flights, they have been reducing 
overall seat capacity by eliminating under-performing routes, 
consolidating activity at fewer hub airports and strategically 
introducing newer, larger, more fuel-efficient regional jets. In 
addition, at Philadelphia, US Airways has been working to reduce delays 
by improving their facilities and operational efficiency.
    Total delays at PHL over the past 3 years have declined by 11 
percent. The total delays at JFK in 2007 were 30 percent greater than 
those experienced at PHL. Total delays at LaGuardia, Newark and Chicago 
were 2 to 2.5 times greater than those at PHL. The delay situation at 
Philadelphia is certainly worthy of this subcommittee's attention but 
it is not yet comparable to those airports, which have been forced to 
consider and, in some cases, implement strict demand management 
measures.
    We do not intend to allow our airport to ever reach that level of 
intervention. The city has completed an Airport Master Plan process, 
which recommended short-term and long-term airfield improvements aimed 
at much needed delay reduction. The short-term recommendation was a 
1,000-foot extension of Runway 17-35 to make it useable for a broader 
range of aircraft types. The Federal Aviation Administration (FAA) 
approved this project in 2005 and it is scheduled for completion later 
this year. It is expected to reduce overall delays in Philadelphia by 8 
percent.
    The long-term plan involves continued development of the airfield, 
including a new runway, extension of two other runways, and several 
improvements to the taxiway system. This program is currently the 
subject of an Environmental Impact Statement (EIS) being prepared by 
the FAA. The EIS process was set back by a full year when the recent 
Airspace Redesign process was implemented because a great deal of 
airfield design work had to be recalculated in light of the airspace 
changes. The FAA is not scheduled to complete the PHL airfield EIS 
until the end of 2009. Following FAA approval, the city expects to 
embark on the initial phase of the program expeditiously. This multi-
year process will result in airfield infrastructure improvements that 
will increase the capacity of our airport, reduce delays, and allow PHL 
to accommodate projected growth while offering a higher level of 
service to our passengers.

         NEW YORK/NEW JERSEY/PHILADELPHIA FAA AIRSPACE REDESIGN

    For the last 10 years the FAA has been exploring ways to improve 
the flow of air traffic in the Philadelphia/New York/New Jersey 
metropolitan airspace, which is the most congested in the Nation. The 
city of Philadelphia has a vested interest in the outcome of this 
process. We hope to benefit from any new procedures that may help 
reduce delays. The city offered comments on the draft Environmental 
Impact Statement (EIS) released by the FAA in 2006. The FAA was 
evaluating several alternatives, some of which introduced new flight 
routes for aircraft operating here. The city commented that the FAA's 
``integrated airspace'' alternative would offer the most potential 
benefit for delay reduction by creating additional flight paths for use 
by aircraft departing from Philadelphia in a westbound direction. The 
proposed headings would allow FAA controllers to release departing 
flights faster and reduce the number of aircraft that are delayed while 
waiting to take-off.
    The city simultaneously expressed concern over the potential for 
increased noise over Delaware County. We were pleased to see that when 
the final FAA report was released, it had been revised to eliminate 
some of the proposed departure headings, and also included time-of-day 
limitations on when the new headings could be used. Significantly, the 
city's own noise policy, calling for planes to stay over the Delaware 
River until they reach 3,000 feet, has been maintained. The use of the 
new headings was approved last year and implemented on December 19. The 
FAA has not yet published any data with which their effectiveness can 
be evaluated. The FAA Philadelphia Tower Manager has assured us that 
controllers are limiting use of the new headings to peak activity 
periods and adhering to the time-of-day stipulations.

                      FLIGHT SCHEDULING PRACTICES

    In addition to airspace redesign and the expansion of airport 
facilities to reduce delays, ``demand management'' strategies have been 
considered and, in some cases, implemented at a limited number of 
airports in the United States. There are three primary demand 
management techniques:
  --Voluntary adjustment of airline flight schedules during peak 
        periods to shift operations to off-peak hours. This typically 
        involves a request to the airlines that they voluntarily ``de-
        peak'' their flight schedules. The opportunities for this 
        practice to be effective at PHL are limited because we have 
        already experienced a significant de-peaking of the daily 
        flight schedule. As demand for air service has grown at PHL 
        over the last several years, the airlines have responded by 
        adding flights during the available low activity periods in the 
        daily schedule. This has effectively resulted in a de-peaking 
        of the schedule. We do not believe there is much room for 
        additional schedule adjustments that would reduce peak period 
        operations. Furthermore, the flight schedule at PHL is largely 
        made up of the domestic and international operation of our hub 
        carrier, US Airways, which accounts for 62 percent of 
        Philadelphia's market share. Their scheduling is driven by the 
        need to link their connecting flights. Transatlantic and 
        transcontinental flights in particular have limited windows of 
        time in which to operate and be available to passengers at a 
        reasonable time of day. Shorter domestic flights carrying 
        passengers who will connect to those transcontinental or 
        international flights must be scheduled accordingly. Thus the 
        hub airline has limited flexibility to further adjust flight 
        schedules. Airlines in general need to schedule flights at the 
        times preferred by travelers in order to remain competitive in 
        the marketplace. This also hinders the Airport's ability to 
        secure airline cooperation in voluntarily adjusting schedules.
  --Administrative Approaches to reduce delays have been used by the 
        FAA at a limited number of airports, including the imposition 
        of operational limitations or ``caps.'' Caps strictly limit the 
        number of flights that can be operated during a day, or a given 
        peak period of a day. In recent years this approach has been 
        implemented as a ``temporary'' measure at Chicago O'Hare, 
        LaGuardia, JFK and Newark International Airports. As previously 
        stated, these airports are experiencing delay levels that are 
        significantly greater than PHL's. As a result we believe that 
        caps are not appropriate at Philadelphia. They would limit 
        opportunities for continued growth in air service and 
        competition. The associated benefits to travelers, such as 
        direct access to markets and competitive airfares, would be 
        lost. Caps are not a reasonable long-term solution to 
        Philadelphia's delay problem. We believe that long-term delay 
        reduction is attainable through development and expansion of 
        our airfield.
  --Market-based Approaches can take several forms, including the 
        establishment of peak period pricing, whereby an airport could 
        charge higher fees during peak periods to encourage airlines to 
        move some of their flights to off-peak periods or to other 
        airports. Currently, the FAA prohibits this type of 
        differential fee structure. However, the FAA has recently 
        embarked upon a rule-making process that could enable peak-hour 
        pricing in the future. Philadelphia, along with many other 
        airports, submitted comments on the FAA's draft proposal last 
        month. Among other points, we noted that the continued FAA 
        requirement that such new pricing must be ``revenue neutral'' 
        for the airport undercuts the expressed purpose of the new 
        rule.
    Additionally, the city has recently executed a new Lease Agreement 
with the airlines at PHL. Unless the FAA preempts it, this agreement 
would not permit any type of peak period pricing structure to be 
effected during its 4-year term. As previously stated, we believe that 
peak-hour pricing would have little effect at PHL because the airlines 
have already voluntarily de-peaked to the extent feasible.

                                SUMMARY

    Our primary concern with all of these approaches is their potential 
impact on airfares. Much progress has been made in recent years at 
Philadelphia to increase competition. Prior to the arrival of Southwest 
Airlines in 2004, PHL's passengers consistently paid some of the 
highest average airfares in the Nation. For the past 4 years, our 
passengers have consistently enjoyed some of the Nation's lowest 
average airfares. This accomplishment could be undone by demand 
management measures, particularly if they are not carefully planned and 
implemented.
    We do not mean to diminish the seriousness of our delay problem at 
PHL. We are committed to considering any and all responsible measures 
to address this problem. Our present focus is on the implementation of 
a long-term airfield development program. We would gratefully accept 
any assistance this subcommittee can provide in prioritizing that 
initiative. Thank you for the opportunity to testify today. I will be 
glad to answer any questions you may have.

    Senator Specter. Let me pick up on a comment you just made 
late in your testimony, at Philadelphia that there are the 
highest airfares in Philadelphia in the country. Do you have 
any idea as to why that is so?
    Mr. Nutter. Well, I would certainly suggest--and not just 
because of Southwest, but certainly Southwest Airline's arrival 
in Philadelphia set off--as I best recall--a good healthy round 
of competition among the various airlines. And I would only 
suggest, help to drive prices down, helped us to attract more 
customers, and Philadelphia International Airport, and our 
passengers, were the true beneficiaries. And there have been 
some other entrants into the market who have stepped up their 
presence.
    Senator Specter. So, before Southwest--and I agree with 
you, they've driven down prices. Before Southwest, the prices 
were even higher. But why should Philadelphia be among the 
highest airfare-cost cities?
    Mr. Nutter. Well, I would agree with you, Senator.
    Senator Specter. And that may be a question that neither of 
us can answer.
    Mr. Nutter. Right. We shouldn't.
    Senator Specter. But, I think we ought to find out.
    Mr. Nutter. Yes, I would agree with that. We should not be.
    Senator Specter. Mr. Mayor, on the impact on commerce and 
encouraging corporations and other business to settle here, has 
to be impacted by the difficulty of getting in and out of the 
city. Without quantifying it statistically, just off the cuff, 
what would your overall impression be, having been city 
government on council for many years, and now Mayor and an 
aircraft flyer yourself, on how people look at Philadelphia and 
how they think about settling here, contrasted with a city 
which has a good record.
    Mr. Nutter. Senator, I can tell you from direct personal 
experience and conversations that this issue does arise, more 
oftentimes than not. After we get past, you know, discussions--
especially with major companies that we may be trying to 
attract or encouraging others to expand, when you get beyond 
taxes and public safety and a number of other factors, 
invariably, issues related to Philadelphia International 
Airport do arise.
    It is, unfortunately, something that we're known for. Not 
necessarily in the most positive light. And so, that was why I 
convened the meeting of the airlines, our primary airlines in 
Philadelphia, and of course you were a participant in that 
discussion.
    I look at Philadelphia International Airport, as I 
mentioned in my testimony, as a key component of the economic 
vitality, not just of Philadelphia. Everyone knows that two-
thirds of the airport is actually in Delaware County and 
Tenniken Township, this is a regional asset, it is a regional 
economic engine.
    In our uniquely--what I refer to as our unique situation--
almost perfectly situated between New York and Washington, I 
believe there's actually a strategic advantage for the city of 
Philadelphia, but we have to be able to get people on the 
ground and in the terminal, or out of the--away from the gate 
and in the air much quicker.
    It does nothing for our reputation if you can technically 
land on time but no--I guess the formal term is, deplane--for 
the rest of us, get off the aircraft, as opposed to sitting on 
the runway.
    Senator Specter. Well, I think you point up a good factor. 
If you're delayed in getting into the terminal, it oughtn't be 
landing time, it ought to be foot in the terminal time.
    Mr. Nutter. I mean I have to agree with you. I mean, you 
know, the fact that I got on the plane at 9:30 a.m. for a 10 
a.m. departure, and maybe then sit on the runway for another 
half hour--yes, I did get on on-time, and we pulled away on-
time, but we didn't leave. So, the goal is not to be on the 
tarmac of Philly International. I think you're trying to get 
to, you know, Boston or Baltimore or New York or wherever it is 
that you're trying to go.
    Senator Specter. Mr. Mayor, what consideration, if any, 
should be given to charging the airlines for these peak hours? 
To try to discourage them from using them?
    Mr. Nutter. That issue certainly came up during the course 
of our meeting, and I've had other discussions about it, you 
know, one--I don't know what the reaction by the airlines would 
be, two, I don't know what impact, ultimately, that would have 
on fares.
    Speaking now, more from a business standpoint, I would 
wonder whether that ``fee'' would be passed on to passengers, 
and if that were the case, it may put Philadelphia back in the 
uncompetitive status from a fare standpoint, which of course 
we're constantly seeking to drive our fares down, use fares as 
a competitive advantage, in addition to our strategic location.
    I need a well-functioning airport that is fairly priced, 
competitive with many other cities up and down the east coast. 
It is--it puts Philadelphia in an uncompetitive situation if 
the alternatives are to leave Philadelphia or our region--with 
no disrespect to Baltimore or other locations--but to go to 
BWI, or Newark or somewhere else, to avoid Philadelphia 
International Airport. That is an untenable situation for us, 
and I can not accept that, under any circumstances, as Mayor of 
Philadelphia.
    Senator Specter. Mr. Mayor, there has been action by the 
FAA to go into New York and to try to do some rational 
scheduling. And the testimony earlier today was New York causes 
a cascade, and it's a national problem. I know the answer to 
this question, but let's put it on the record--is there any 
reason why New York should get more consideration for the FAA 
on trying to work out a rational airline schedule for arrivals 
and departures in Philadelphia?
    Mr. Nutter. Well, as long as we're still as part of the 
United States, I would say the answer is no.
    Senator Specter. The Equal Protection Clause?
    Mr. Nutter. You're much better at arguing those--making 
those arguments, but yes, Philadelphia should at least receive 
the same consideration from our Federal Aviation 
Administration.
    Senator Specter. Mr. Mayor, I've been discussing with key 
officials in the Department of Transportation legislation--the 
FAA does not have the authority to impose restrictions, or at 
least if a--it is highly doubtful, something they are not 
inclined to do. And I believe the mood of the Congress is 
really very angry about what's going on with these arrivals and 
departures all over the country.
    It would behoove the airlines to try to take some action in 
advance of congressional inaction--whatever the market does, or 
the airlines do, as a private matter is always more sensible 
than waiting for somebody to come down and impose it. It also 
takes a long time to get the legislation through and implement 
it.
    So, it may be that as a supplement to what--and I 
appreciated the invitation to your meeting--the supplement to 
what you have done, and what we're trying to do on this 
subcommittee, that we might encourage the airlines to come up 
with a voluntary plan--they know what these delays are, ask 
them to sit down and figure it out themselves, with the obvious 
implication really flat statement that the Sword of Damocles is 
not far away. Try to get them to do it. And for all I know, 
you'd be prepared to provide leadership on that subject----
    Mr. Nutter. Yes.
    Senator Specter. And something I believe we ought to 
consider, as a follow-up on your meeting with them, and this 
session.
    Mr. Nutter. Well, Senator, I can certainly report to you 
that after that meeting, and you had a--I know you have another 
meeting to attend, but I can report to you, we haven't talked 
since. The airlines were quite inspired, based on your 
comments, with regard to the Federal legislative option, to 
start exploring ways that they may be able to--away from any, 
you know, anti-trust or occlusion issues, but they were more 
than optimistic about trying to explore ways to voluntarily 
sort out these scheduling challenges.
    Senator Specter. Volunteerism may come to the fore with 
imminent Federal action in the rear.
    Mr. Nutter. I think, Senator, when you mention the Sword of 
Damocles--that was the point where they really were looking at 
the voluntary action. Most of them try to avoid that sword.
    Senator Specter. Mr. Mayor, we'd be glad to hear anything 
you'd care to add. In the absence of that, I thank you for 
revising your schedule to accommodate what we had to do on 
scheduling at this end.
    Mr. Nutter. Thank you. Any time for you, Senator.
    Thank you very much.

                            AVIATION DELAYS

    Senator Specter. Thank you very much, Mr. Mayor.
    I'd like to recall, now, the four witnesses from the FAA.
    Welcome back. Let's move to the subject of overbooking, 
delays on takeoffs and landings.
    On those calculations, Mr. Gribbin, do they count the time 
when--or they don't count the time the plane takes off after 
waiting on the tarmac for all that time? They count the time 
from the scheduled departure?
    Mr. Gribbin. Well, they count the tarmac delays--we keep 
tarmac delay statistics, also.
    Senator Specter. Well, if the statistics are that the 
planes--so many of the planes left late, that's late from the 
time they take off on the tarmac, not from the time they pull 
away from the gate?
    Mr. Gribbin. No, we're counting delays as based on 
arrivals, so----
    Senator Specter. You count delays based on arrivals?
    Mr. Gribbin. On arrival times.
    Senator Specter. Well, you also count delays based on 
takeoffs?
    Mr. Gribbin. Well, we count tarmac delays, and then we 
count arrival time delays.
    So, I think the challenge that you mentioned earlier during 
your opening statement, is that airlines will over-schedule 
certain periods of time for departure times, because consumers 
want to leave at those times. Right now, there is no 
disincentive for them to do that, in fact, they're incentivized 
to over-schedule key departure times. But, there's nothing that 
prohibits them, currently, from padding their schedule. And 
even if they end up departing late, if they arrive on time, 
that is counted as an on-time flight.
    Currently, the Secretary has asked my office to----
    Senator Specter. Excuse me, Mr. Gribbin?
    Mr. Gribbin. Yes, sir.
    Senator Specter. If the plane is scheduled to leave at 7 
a.m., and it pulls away from the gate at 7 a.m. and it takes 
off at 10 a.m., is that a delayed flight?
    Mr. Gribbin. That is a delayed flight.
    Senator Specter. And if a plane, you're scheduled to arrive 
at 5 p.m., and pulls into the gate at 5 p.m.--pulls into the 
gate area, but can't get a gate to allow the passengers to 
depart the plane until 6 p.m., is that a delayed arrival?
    Mr. Gribbin. That is a delayed arrival.
    Senator Specter. Well, the issue of delayed takeoffs and 
delayed arrivals is of enormous import--don't have to talk too 
much about it to establish the nature of the problem, you've 
heard the Mayor's testimony, and I can testify personally to 
the problems, over a long, long period of time. And beyond the 
commercial aspects, which we talked about, that's what I wanted 
to focus with the Mayor, didn't want to keep him any longer 
than absolutely necessary because of his other commitments, but 
the experience I've had, and the experience with passengers 
I've been with, you're due to come in at 6 o'clock and it's 
foggy and rainy and you circle back to Harrisburg and back, and 
a terrible anxiety as to what's going on. Especially with the 
limitation on air controllers and all of the issues on safety 
in the sky--and let me commend you for the hearing you had last 
week, and the efforts that are being made there.
    Had a surprising story in the New York Times today about 
the biggest problem in flying is collisions on the ground.
    But getting back to the anguish, flying, foggy, rainy, just 
takes a tremendous, tremendous toll, it's like something you 
really have to come to grips with.
    Mr. Gribbin, you talk about New York having a cascade 
across the country. Well, I think Philadelphia qualifies for 
that.
    Mr. Gribbin. That's right.
    Senator Specter. I note that you are on the Study Group for 
New York, in addition to your duties of General Counsel, you're 
chairman of the New York Aviation Rulemaking Committee, which 
convened meetings in New York area airports in October to come 
up with findings for dealing with air congestion. Why not a 
similar meeting for Philadelphia?
    Mr. Gribbin. Well, when we started the Aviation Rulemaking 
Committee, the question was, how big a scope did we want to 
have? We talked about doing something that was nationwide, and 
then we decided to focus on the New York area, and then we 
decided to collapse that even further, and focus just on the 
Port Authority-owned airports, since most of the Nation's 
delays were triggered by those three airports.
    However, there's nothing that prohibits us from taking us--
--
    Senator Specter. Pull the mike a little closer.
    Mr. Gribbin. There's nothing that takes us----
    Senator Specter. You say you started with three--just three 
airports?
    Mr. Gribbin. We started with just the Port Authority 
airports--Newark, LaGuardia, JFK. And what we wanted to have 
with New York, which was represented by airlines, consumer 
groups, State of New York, State of New Jersey and the Port 
Authority----
    Senator Specter. Isn't Philadelphia really indispensable 
for that consideration because of the confluence of the 
airspace?
    Mr. Gribbin. Well, Philadelphia is considered to be part of 
the New York City airspace, and the changes being proposed in 
New York will benefit Philadelphia, as well.
    Senator Specter. My question was different, my question is, 
isn't Philadelphia travel--air travel, the airlines, so 
integral with what happens out of New York that they ought to 
be included in those studies?
    Mr. Gribbin. Well, we are including Philadelphia in future 
actions. The ARC has concluded, so that action has finished, 
and we had a set of recommendations that came forward out of 
that exercise. But that does not preclude us from taking what 
we learned from the ARC, and applying it to Philadelphia.
    Senator Specter. Well, will you schedule one of those 
meetings for Philadelphia?
    Mr. Gribbin. We would be glad to schedule a meeting for 
Philadelphia. In fact, I handed the mayor my card----
    Senator Specter. Within 90 days?
    Mr. Gribbin. Yes, sir, we will do that within 90 days.
    Senator Specter. Okay, that's a nice, direct answer. We're 
making progress.
    With respect to the question of imposing limitations on the 
airlines, Mr. Gribbin, does the Department of Transportation 
need authority from Congress to do that?
    Mr. Gribbin. The Department of Transportation currently has 
legal authority to convene schedule reduction meetings with the 
airlines, similar to what the FAA did for JFK and Newark, 
during the end of last year and the early part of this year. I 
think that our concern is that--and the mayor touched on this--
if you cap an airport, as in, you say there's only so many 
operations allowed per hour, you grant that to the incumbent 
airlines, and effectively you've locked out competition.
    The mayor talked about the importance of Southwest entering 
into the Philadelphia market and what that did for fares----
    Senator Specter. Well, I wouldn't do that--come back to the 
central question which I'd like to have answered, and then I 
can move on--could, does the Department of Transportation have 
the authority, now, to establish a limited number of flights, 
say from 7 a.m. to 8 a.m., 8 a.m. to 9 a.m., 9 a.m. to 10 a.m., 
et cetera, at Philadelphia International Airport?
    Mr. Gribbin. It does. The question is, if it does that, 
what does that do to fares and competition, and is that in the 
public interest?
    Senator Specter. So, you do not need congressional 
authority?
    Mr. Gribbin. Currently we do not need congressional 
authority to place flight limitations on an airport.
    Senator Specter. Flight limitations on the airport.
    Mr. Gribbin. That's correct.
    Senator Specter. Well, when you talk about freezing out 
competition, I agree with you--you can't do that. But that 
could be accommodated by a monthly reevaluation, or 45 days or 
some realistic period, so the schedules can be made for an 
appropriate period of time. Has that consideration been given 
by the Department of Transportation?
    Mr. Gribbin. Yes, as part of our focus on New York, which 
will soon include Philadelphia, we just talked about what term 
limit--if you impose slots on an airport, what term should that 
slot take for the airlines? The airlines argue that it should 
be for incumbents in perpetuity, new entrants suggest, that it 
should be a matter of a year or two.
    So, there's significant debate over, once you impose slots, 
what property interest you're giving to incumbent airlines.
    Senator Specter. I don't really understand your position on 
that. Is the Department of Transportation giving serious 
consideration to limiting the number of flights into New York 
City so that there are only as many flights scheduled as New 
York, LaGuardia, JFK, Newark, can handle?
    Mr. Gribbin. Currently what we have done is similar to what 
we have historically--LaGuardia has been capped since 1968. So, 
those caps have been in place----
    Senator Specter. New York caps in 1968, are they realistic? 
Or are they still having lots of delays?
    Mr. Gribbin. There is concern that the current cap that is 
in place is too high, because there are significant delays at 
LaGuardia. It remains one of the top three----
    Senator Specter. Cap is too high, or too low?
    Mr. Gribbin. Too high--too many flights per hour.
    Senator Specter. Okay, so has consideration been given to 
lowering the cap, something which is realistic with what the 
airport can handle?
    Mr. Gribbin. As part of the supplemental Notice of Proposed 
Rulemaking that the Department put out a couple of weeks ago, 
one of the options would reduce the number of operations at 
LaGuardia. As you can imagine there's----
    Senator Specter. And what are the other options?
    Mr. Gribbin. There are two options. What we are suggesting 
is, capping the airport, and then allowing for options for some 
of the existing capacity. This would allow the new entrants of 
the world, the Southwests, to compete in that market and keep 
fares low.
    So, the two options----
    Senator Specter. Is that option two?
    Mr. Gribbin. Auctions are in both options. Under the first 
option----
    Senator Specter. Option one is to lower the cap. What's 
option two?
    Mr. Gribbin. Option one is to withdraw 10 percent of the 
slots, auction 8 percent of them, and retire the 2 percent that 
are not auctioned. That's option one.
    Option two does not have a retirement. So, it doesn't 
reduce the number of slots, it would just require the airlines 
to auction a piece of the slots that they have to another 
airline, and then the airlines could keep the proceeds from 
that auction.
    Senator Specter. Well, option two is not going to help the 
congestion. Is--you're going to offer 8 percent to other 
airlines, or 2 percent?
    Mr. Gribbin. Eight percent and then 2 percent would be 
retired.
    Senator Specter. Isn't 2 percent a pittance? Not realistic, 
at all to solve the congestion problem.
    Mr. Gribbin. Well, what we're trying to do is accommodate, 
sort of, the public interest. Because the Port Authority would 
prefer that it not be lowered, at all. Airlines, similarly, 
would prefer that it not be lowered at all.
    Senator Specter. Why is it so hard to answer my question 
and then move on to whatever you would like to say? That's what 
the chairman is supposed to be able to do, or the member who 
raises the question.
    Mr. Gribbin. Yes, sir, to answer your question----
    Senator Specter. Yes, I would----
    Mr. Gribbin. I would----
    Senator Specter [continuing]. Much if you would start with 
answering my question. Then if you want to answer some of your 
questions, I'll let you take the time to do it.
    The pending question is--is a 2 percent reduction, de 
minimus? Meaningless, virtually? To deal with the congestion?
    Mr. Gribbin. I would not consider 2 percent meaningless. It 
is small. But again, what we anticipate, with the improvements 
that the FAA is going to make to New York City airspace, is 
that over time capacity will grow. And therefore delays will be 
reduced without having to lower the cap.
    Senator Specter. Well, that's fine, over time. And if I had 
3 days for your testimony, here, we could go into all of the 
hypothetical things that might happen.
    But, in terms of getting something done now, isn't 2 
percent a pittance?
    Mr. Gribbin. Remember, similar to the comment you made 
about the Philadelphia Airport, these airports are operating in 
a system, and the FAA is currently making up improvements in 
Philadelphia, as Acting Administrator Sturgell mentioned 
earlier, making improvements at Newark, and we've put in place 
caps at JFK. So, I think, overall, we expect a reduction in the 
amount of delays.
    Second, I think the goal is not to reduce the delays to 
zero. In other words, we could cut in half the number of 
flights that are coming in----
    Senator Specter. What are the caps at JFK?
    Mr. Gribbin. The caps at JFK are an average of 82 or 83 per 
hour.
    Senator Specter. And what's the reduction?
    Mr. Gribbin. The delay reduction is from an average of----
    Mr. Sturgell. I think it's about a 13 to 15 percent delay 
reduction, based on our modeling.
    Senator Specter. Thirteen to 15 percent?
    Mr. Sturgell. I believe that's correct.
    Senator Specter. I don't consider that adequate. I won't 
ask you if you do, but I don't consider that adequate to leave 
85 to 87 percent of the delays in effect. I don't think my 
colleagues in the Congress would consider that adequate, 
either.
    It would not be a desirable situation to have the Congress 
come in, and start to establish standards for the FAA. But, 
gentlemen, and lady, I don't think what you're talking about is 
realistic, in terms of that kind of minimal reduction. And 2 
percent, I think, is laughable. And 15 percent is a start, but 
only a start.
    We have the authority, as you say, Mr. Gribbin. That might 
leave Congress the only option to mandate, which we can do.
    Mr. Gribbin. That's correct.
    Senator Specter. We can mandate the standards. I think that 
would be a very bad governmental policy, for the Congress to 
try to micromanage the Department of Transportation and the 
FAA. But if you don't do it, we will.
    I can't go into all of the long-range undertakings that you 
have in mind to make this Newark 10 percent meaningful. But, 
I'd like you to submit, in writing, within 30 days the 
projections which would support your argument, that 2 percent 
is meaningful.
    Mr. Gribbin. I'd be glad to, Senator.
    Senator Specter. And LaGuardia? What is the proposal for 
delay reduction there?
    Mr. Gribbin. The 2 percent was LaGuardia.
    Senator Specter. I thought 2 percent was Newark, well, 
what's Newark?
    Mr. Gribbin. Newark, we just put in place caps to prevent 
the growth of delays. Those are the caps I mentioned that were 
averaging 82 to 83 per hour.
    Senator Specter. Doing what?
    Mr. Gribbin. The caps average 82 or 83 operations per hour. 
And the delay reduction would be----
    Mr. Sturgell. I don't recall those off-hand, Senator, but 
we'll get you that information, also.
    [The information follows:]

    Dear Senator Specter, thank you for your April 22 letter about the 
use of departure dispersal headings at the Philadelphia International 
Airport and your request to consider a method for restricting access to 
the airport to avoid chronic overscheduling. In addition, I want to 
thank you for the opportunity to share these discussion items with you 
and your constituents at the field hearing you hosted on April 25.
    While we agree that 10 aircraft waiting to depart is a problem, the 
Federal Aviation Administration's use of departure dispersal headings 
at Philadelphia is intended to avoid and prevent having too many 
aircraft waiting for departure. We are using dispersal headings during 
periods of peak demand as a tool to prevent long departure lines and 
avoid excessive delays. Once long lines form, it can take significant 
time for delays to be reduced or eliminated.
    You also requested that we consider demand-triggered headings at 
Philadelphia in the same way. we use them at Newark Liberty 
International Airport. At Newark, we use one departure heading during 
light demand (fewer than 5 departures waiting), 2 departure headings 
during moderate demand (more than 5 departures waiting), and 3 
departure headings during heavy demand (more than 10 departures 
waiting). This is the most viable way to provide noise mitigation at 
Newark because all of the original headings proposed in redesign were 
retained. Mitigation at Philadelphia was provided by reducing the total 
number of departure dispersal headings from six headings to three. 
These measures were selected at each location independently to provide 
the optimum mitigation while still meeting the purpose and need of this 
valuable project.
    I appreciate the offer to assist with legislative authority to 
address overscheduling. I agree congestion and delays at key airports 
may result in far-reaching impacts throughout the NAS. We have limited 
operations at several airports through existing authority to manage the 
NAS safely and efficiently. In Vision 100--Century of Aviation 
Reauthorization Act, Congress specifically authorized the Department of 
Transportation to convene scheduling reduction meetings when necessary. 
We believe sufficient authority exists to address congestion and delays 
caused by schedules that routinely exceed the average available 
capacity of an airport or the NAS. We prefer to improve system 
efficiency and accommodate demand rather than impose operating limits 
that may have unintended consequences.
    There were two points raised at the field hearing that I would also 
like to address. The first is the scheduling adjustments and delay 
reduction efforts by the FAA at Newark. The second is the potential 
impact of reducing the number of slots at LaGuardia Airport under one 
of the options proposed by the FAA in a supplemental notice of proposed 
rulemaking published in the Federal Register on April 17.
    The FAA requested schedule information from carriers planning 
Newark operations for the summer 2008 season. The schedule requests 
included about 100 new operations, many in the busiest hours when 
delays were already high. If implemented, some delays would have 
increased by as much as 50 percent above the summer 2007 levels. We 
worked with the airlines to re-time flights to periods when the airport 
has unused capacity. By doing this, about 50 new operations were 
scheduled outside peak hours. This was not an easy task as carriers 
made choices on which flights needed to be rescheduled and, ultimately, 
we simply did not approve the addition of new flights by some carriers 
at their preferred times. Additionally, we expect some operational 
improvements because of the implementation of the initial stages of 
Airspace Redesign and other measures to improve operations. We were 
also concerned that operating limitations at John F. Kennedy 
International Airport could indirectly encourage carriers to operate 
new flights to Newark. On May 15, the FAA issued a final order to adopt 
operating limits at Newark continuing through summer 2009. We also 
issued a proposed rule that would extend limits at JFK and Newark and 
introduce market-based approaches to assign slots. The comment period 
closes July 21, 2008.
    In the recently issued proposal for LaGuardia, one option includes 
a measure to phase out 18 slots, or about 1 slot an hour, over the 
first 5 years of the rule. We recognize this would only provide minimal 
delay mitigation. We expect to receive comments on the appropriate 
level of operations at the airport. The comment period closes June 16. 
As is the case of other airports in the area, we are also seeking 
efficiency gains and delay reduction by implementing Airspace Redesign 
and other measures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Specter. Well, within the 30 days, tell us what 
will be the specific impact on delay reduction at Newark.
    Mr. Gribbin. We'd be glad to.
    Senator Specter. Well, I think we all have--we all have a 
lot of work to do. And I know that you're overburdened in your 
administration, I know your budget requests have not been 
fulfilled. That's true, isn't it?
    Mr. Sturgell. We have received support from the Congress 
for the budgets we have submitted. So, the Congress is funding 
what the administration is requesting.
    Senator Specter. You've gotten what OMB allowed you to ask 
for?
    Mr. Sturgell. We got what the administration submitted, 
Senator.
    Senator Specter. And those----
    Mr. Sturgell. And we have received great support. I do want 
to say, we've received great support from the Congress, 
especially on our staffing levels, both in aviation safety and 
oversight, and for our----
    Senator Specter. And beyond safety?
    Mr. Sturgell. For our controller workforce, and for our 
modernization programs, and this year we are asking for 
increases in the 2009 budget in all of those areas. And it 
would be great if Congress would support those increases.
    Senator Specter. Well, let's follow up on the open-ended 
questions which we've come here today, and I would ask you, Mr. 
Sturgell, to really review those flight patterns. And the 
commitment not to fly over Delaware County when you have fewer 
than 10 waiting.
    And, Mr. Gribbin, I've left you with the lion's share of 
the work on these delay issues.
    And I know it's always a delicate subject, in fact, it's 
not a delicate subject you can't communicate with the Congress 
on your ideas for what is adequate funding, that's not 
permitted. You submit your request through channels, and they 
go through the Office of Management and Budget and that puts 
together the entire budget, but your budget comes out of the 
discretionary pot, and that is very, very tightly 
circumscribed.
    So much so that there are cuts in funding for the National 
Institutes of Health and inadequate funding for the Centers for 
Disease Control and title I on Education. But those are not--
not your overall problems, those are problems for the 
Appropriations Committee.
    But I believe that the issues we've dealt with today are 
top priority and I will do my best through the subcommittee and 
the full committee to help provide the adequate funding.
    Thanks very much for coming up and for modifying the 
schedules today. I appreciate it.
    Mr. Sturgell. All right.
    Mr. Gribbin. Thank you, Senator.
    Senator Specter. I will now call the second panel. vice 
chairman Jack Whelan of the Delaware County Council, former 
Governor and president Mark Schweiker of the Greater 
Philadelphia Chamber of Commerce, executive vice president and 
chief operating officer of the Air Transport Association, 
president of the National Air Traffic Controllers Association, 
Patrick Forrey. Congressman Joe Sestak has requested to be 
added to the panel, and we will hear from him, as well.
    We'll take a 5-minute recess while the panel is assembled.
    Thank you very much, gentlemen, for coming in. For the 
record, State Representative Brian Lentz has submitted 
testimony for the record, which will be made a part of the 
record without objection.
    [The statement follows:]
Prepared Statement of Bryan R. Lentz, Pennsylvania State Representative
    Senator Specter, members of the committee, thank you for the 
opportunity to testify about the airspace redesign at Philadelphia 
International Airport. As you know, two-thirds of Philadelphia 
International is located within Delaware County. As a State 
Representative in Delaware County, increased air traffic over our 
communities is an issue of grave concern to the citizens I represent. 
Residents of Delaware County know about air traffic congestion and the 
harm it causes because it directly affects them and their neighbors. 
Delaware County residents, however, are not the only citizens of the 
Commonwealth who should be tracking the dramatic increases in air 
traffic. All of Pennsylvania should be concerned that our State is not 
prepared to handle the historic increases in air traffic coming over 
the next 20 years. If we do not plan for and develop systems to 
properly manage the massive increase in flights, communities like the 
ones I represent will suffer, as will Pennsylvania's economy and 
security.
    The simple fact is we have no choice but to start to look elsewhere 
to accommodate our air traffic needs. At the same time Philadelphia 
International is bursting at the seams, other regional airports like 
Lehigh Valley International are dramatically underused and have ample 
capacity and desire for increased airline business. Right now, more 
than half of all Lehigh Valley residents rely on airports other than 
Lehigh Valley for air travel. Airports in Trenton, New Castle, and 
Atlantic City also have ample capacity but are underused.
    Unlike cities such as Boston, New York, Chicago and Washington, 
commercial air traffic in our area is heavily concentrated at a single 
airport--Philadelphia International--instead of being spread out among 
existing airports in the region. Philadelphia International had over 
530,000 aircraft operations in 2005 alone. That is more than any other 
airport in the northeast corridor, including LaGuardia, JFK and Newark, 
and it is at or above the airport's capacity. Demand at Philadelphia 
International is expected to increase to over 700,000 takeoffs and 
landings per year during the next 20 years.
    The FAA wants to address this problem by redirecting flights and 
aggressively expanding the airport. The airspace redesign is about 
increasing capacity. By directing flights along multiple paths, the 
airport can increase its ability to handle more takeoffs and landings. 
In 2005, the airport also began extending a commuter runway to handle 
larger planes, a $60 million project that will address only 8 percent 
of the traffic problems. Later this year, a report is expected on the 
impact of Philadelphia's proposal to spend over $2 billion to add a 
parallel runway at the airport. No matter how much Philadelphia 
International is expanded or improved, the airport will still continue 
to operate at its saturation point. The runway expansion and airspace 
redesign combined account for 20 to 30 percent of a projected 50 
percent increase in traffic. Despite the stunning cost and impact of 
these proposals, Philadelphia International and the FAA did not 
consider greater use of regional airports as a way to relieve the 
coming air traffic congestion.
    To address the problem of congestion we must address development, 
growth and traffic needs on a regional basis instead of each airport 
fending for itself. Regional authorities have worked and are working in 
other States, and an authority can work in Pennsylvania. In 
Massachusetts, the Port Authority, known as MASSPORT, monitors air 
service levels at more than half a dozen airports. It continually 
analyzes airport development, how to improve and distribute service, 
and how the region as a whole can market itself to air carriers. The 
New York Port Authority follows a similar approach, and recently 
purchased Stewart Airport in Newburgh, New York in order to expand the 
authority's regional capacity. Stewart will be the fourth major airport 
in the New York Port Authority airport system.
    As a freestanding facility, Philadelphia does not have the options 
for system expansion that are available to the New York Port Authority 
or similar authorities. Philadelphia International is also limited by 
its size, sitting on approximately 2,400 acres. By way of comparison, 
Denver International, a similarly busy airport, occupies 36,000 acres.
    To help solve the problem of airport congestion, I have introduced 
House Bill 1182 in the State legislature. House Bill 1182 would create 
a regional authority to replicate the success of these other State 
authorities. The authority would coordinate activities of regional 
airports along with rail and mass-transit agencies.
    In addition to the harm it does to neighboring communities, 
concentrating all regional air travel at a single airport has other 
negative effects. Over 50 percent of the flights to and from 
Philadelphia International are to destinations within 500 miles. This 
preponderance of commuter traffic hinders the airport's ability to 
expand international routes. International traffic has a greater 
economic benefit to our region, yet the concentration of shorter 
flights is so great that international terminals are being used for 
domestic flights. These frequent short distance flights also contribute 
to the traffic congestion on the roads and highways in and out of 
Philadelphia International. In the long-term, a high speed rail system 
like the proposed MAGLEV train would be best suited to move people to 
and from destinations within 500 miles.
    Achieving the goal of managing air traffic needs is a challenging 
task. If we do not start following the example set by other regions, we 
will be unprepared for the increase in air travel in the years ahead 
and left out of the economic benefits that air travel will create. 
Before billions are spent to expand Philadelphia International, I would 
urge this committee to scrutinize any funding for airports that is not 
linked to a regional approach to dealing with increases in air traffic 
and development of alternative means of travel.

    Senator Specter. And we will begin our panel with 
Congressman Joe Sestak, graduate of the Naval Academy, Admiral 
of the United States Navy, and now a Congressman.
    Welcome Congressman Sestak, and the floor is yours.

STATEMENT OF REPRESENTATIVE JOE SESTAK, U.S. HOUSE OF 
            REPRESENTATIVES, PENNSYLVANIA, SEVENTH 
            DISTRICT
    Mr. Sestak. Thank you, Senator, and Senator, first off, 
thank you very much. You and your staff have been a gem to work 
on this issue, not just today, but for months on end, and I 
appreciate that very much. And I also appreciate, personally, 
the best advice I got when I entered Congress, when I met you, 
right after the election, which was remember you're a public 
servant and everything should be transparent.
    Senator Specter. Pull the mike a little closer. You weren't 
in the Congress when Senator Thurmond was there, but he's 
famous for saying, ``Pull the machine a little closer.''
    Mr. Sestak. But thank you for your support sir, both in 
personal advice and for this issue.
    I want to start off by saying the Philadelphia 
International Airport is, as Mayor Nutter so well pointed out, 
it's absolutely critical--absolutely critical to the economic 
growth of our community. But delays in the departures are well 
documented. However, I've spoken up about this Air Space 
Redesign, because I honestly believe that it inadequately 
addresses the safety and health of residents here in the 
community, as well as those who are traveling, and it fails to 
take into account other options, such as unused capacity at 
regional airports.
    As you notice, Michael Nutter spoke up and said, ``I'll fly 
into Baltimore/Washington.'' Over one-third of all aircraft 
that come into Philadelphia International Airport come from 
less than 200 miles away. And so, not only other options might 
be looked at, like unused capacity or the others that you were 
questioning Michael Nutter--Mayor Nutter upon, but also, can we 
not be a model, the pilot model, for a true inter-modal type of 
transportation policy that this Nation so badly needs?
    And that's part of the major reason I've spoken up on this. 
Yes, it affects my district, but it also cries out for an 
inter-modal approach for this Nation.
    This airspace redesign began 10 years ago in a meeting down 
in Baltimore. And then in 2003, something occurred that I 
think, Senator, really made it go amiss. Congress approved the 
streamline legislation that gave FAA exclusive authority to 
determine the objectives and the options that were to be 
studied. About that time, they removed from the Philadelphia 
Airspace Redesign Project, Senator, the objective of noise 
abatement. And then they really only studied one option, 
although they listed four. And I think that's a large reason 
you'll hear from someone who's led this fight, Mr. Whelan here, 
of why there are 12 separate communities, including ours, that 
have 13 lawsuits pending.
    I was very fortunate, after the election, to have 
established an Expert Advisory Board led by Mr. and Mrs. George 
Loveless, who have worked with your staff. The resulting study, 
which we briefed the FAA Administrator on over a year ago--
about a year ago--looked at the benefits and the costs. Without 
a question, the benefits that the FAA has listed, Mr. Senator, 
are well documented, the dollars that the airlines will save.
    And also, as they stated, there'll be 4 minutes saved in 
delays for each flight, 4 minutes. Other studies have shown, 
and their own website data has shown, it's actually 29 seconds. 
Whether it's 29 seconds or 4 minutes, that's not much of a 
benefit, not when you consider the cost.
    When you look at the cost, Senator, you look at the cost of 
the environmental impact statement on sound, noise, and air 
emissions, how they were supposed to adhere to the Clean Air 
Act, for example. And when the EPA objected to how they said it 
was de minimus, they then declared, on their own, a ``presume 
to conform activity,'' inserted into the Federal Register, and 
then said, ``There is no air emissions that are going to harm 
anyone.''
    And however, they (the FAA) absolutely ignored the law as 
well as their own implementing order on NEPA, the National 
Environmental Policy Act, where it said that you are supposed 
to do a separate study if it impacts children. As we briefed 
documented studies to show that these flights under 3,000 feet 
would mean one--a child who starts in first grade, Senator, and 
ends in high school, will lose 1 year, documented, statistical 
studies, of 1 year of education. In addition, my community will 
be at risk of the deadliest disease killer in the Nation, 
cardiovascular disease.
    That's why it was galling to us when the U.S. Department of 
Transportation spokesman, Brian Turmail said, ``We hope they 
won't let a small thing like a slight change in noise level''--
a slight change in noise level--``affect us.''
    Senator, I was in charge of the Navy's $70 billion warfare 
program. We studied and the Navy input, millions of dollars 
into Woods Hole, Massachusetts to understand what's the impact 
of the noise from sonar upon mammals. Millions of dollars I 
spent for the U.S. Government, under direction of the U.S. 
Government. We know they had a health impact, we haven't spent 
a cent on children. And then, most galling, is when we briefed 
Administrator Blakely, and Representative Andrews has been a 
stellar star on this, said to her, ``What's the cost after 10 
years of this?'' She said, ``We don't know.'' We don't know the 
cost, but we sure can tell you what the benefits are to the 
airlines. And then most galling, sir, I think, and of most 
concern to me, is the safety considerations.
    The FAA Administrator--spokesman said several times, ``We 
can not institute this plan that they announced last 
September,'' or documented--they announced it 2 years ago, but 
then put into action, that they would last September, for 8 to 
12 months, Senator, because of safety concerns, that they would 
have to have the New York airspace open up better, as was 
alluded to earlier. And where we get our aircraft up and into 
their airspace, because it's their airspace that's causing our 
delay.
    And yet, when asked----
    Senator Specter. Representative Sestak, you're more than a 
minute over, how much more time will you need.
    Mr. Sestak. May I have one minute and summarize?
    Senator Specter. Okay.
    Mr. Sestak. Thank you, Senator.
    I'll summarize just by saying that this safety concern for 
ours is enormous, as they will turn at 500 feet with these 747s 
at center over our district, particularly with their safety 
record. As you saw on the front page of the newspaper today, 
once again FAA has hidden safety revelations. Now, one more 
airline, Southwest.
    In summary, I think Chairman Oberstar is right, the FAA, 
yes, needs to clean the house from top to bottom, but more so, 
we need to take care of our citizens, say, just stop. There are 
other options before we implement this and harm our children.
    This was to be a cost-benefit analysis. We know the 
benefits of the airlines, but never have they addressed the 
cost per the procedure, which is why we've asked for the 
Government Accountability Office--which will be done this 
summer--to look over of how they have failed in doing this, not 
to have implemented this unsafe and very costly procedure that 
they are having for our District.\1\
---------------------------------------------------------------------------
    \1\ GAO Report: July 2008--FAA Airspace Redesign, Report No: GAO-
08-786.
---------------------------------------------------------------------------
    Thank you for abiding me my overrun, sir.
    Senator Specter. Thank you very much.
    We turn now to the vice chairman of the Delaware County 
Council, the honorable Jack Whelan, partner in the firm of 
Whelan, Doyle, and Pressman. He was the Delaware County 
Assistant DA from 1986 to 1991, a graduate of the Temple 
University School of Law.
    Welcome for joining us Jack, and we look forward to your 
testimony.
STATEMENT OF JOHN J. WHELAN, VICE CHAIRMAN, DELAWARE 
            COUNTY COUNCIL
    Mr. Whelan. Thank you, Senator Specter, for the opportunity 
to explain how the changes in flight paths at the Philadelphia 
International Airport have impacted and distressed Delaware 
County residents. Specifically today, I want to stress how the 
new departure headings implemented in December have disrupted 
the lives of the residents in Delaware County without achieving 
many benefits, or minimal benefits, at best.
    Not only do we want to use flight--not only do we want the 
flight paths curtailed, but we want the planes in the--flying 
over, to remain at an altitude of 3,000 feet before they turn. 
Senator, I believe that the prior practice was, when an 
aircraft would take off from the International Airport, it 
would reach an altitude of 3,000 feet before it was permitted 
to turn over Delaware County, thus it would have a minimal 
impact in noise and pollution.
    There's no compelling evidence from the FAA to show that 
putting more planes over Delaware County homes and 
neighborhoods would reduce delays at the airport, except to a 
very de minimus nature.
    It is important to point out that two-thirds of 
Philadelphia International Airport is located in Delaware 
County, which of course, as the Senator knows, is a built-up 
suburb of Philadelphia, having about 550,000 residents, first 
generation communities, which are densely populated, all near 
the airport.
    On December 19, 2007, the FAA implemented a new departure 
heading right over Delaware County homes, schools, and 
businesses. Since the new departure heading went into effect, 
the complaint calls to the airport noise hotline increased by a 
remarkable 1,400 percent.
    Prior to December 19, there would be, at best, one or a 
half a call per day averaged, but however, after the 3-month 
period, specifically between December 19, and April 3, there 
have been 881 calls to the airport noise hotline, which has 
increased it to the 1,400 percent. And we believe, Senator, 
that there are only a handful of people calling. I get calls 
from my constituents at the County Council offices constantly, 
beyond what is being reported at the airport noise hotline.
    What's really disturbing is also the fact that 10 percent 
of these calls are between the hours of midnight and 5 a.m., so 
that a resident is being disturbed after midnight and between 5 
a.m. when they're trying to sleep.
    These are numbers that have been calculated during the 
winter, and we're very concerned, now that the weather's 
getting nice and we're approaching later into the spring and 
summer, that we're going to have a myriad of additional 
complaints. Delaware County is at ground-zero when it comes to 
increased air traffic in Philadelphia and the FAA consistently 
fails to take into consideration the negative impacts these 
flights have had on the health and quality of life for people 
in the county.
    I speak for those people and I want to relate some of those 
complaints directly to you, Senator. Terri Lummy, a resident of 
Middletown Township, about 7 miles from the airport, works at 
home, can't schedule any phone calls between 3 and 5 p.m. 
because of the airplane noise. One day airplanes were going 
over their house 2 minutes apart, non-stop, from 5:30 p.m. to 
7:30 p.m., and again at 9:30 p.m. to 10:30 p.m. The next 
morning airplane noise bothered her for 2\1/2\ hours.
    Mary Keefer, a resident in Chester Heights, about 10 
miles--and this is the western part of Delaware County, not the 
eastern part--complained about loud flights between 3 and 3:30 
a.m. The noise was so loud it woke her up right out of her bed.
    One really disturbing complaint came from Barbara White, 
the Principal at Lakeview Elementary School in Ridley Park. 
This school is approximately 3 miles from the end of the 
runway. Ms. White said flights over the school and playground 
on February 1, were so loud that they frightened the students 
and staff. Ms. White has been a principal at Lakeview for 14 
years and the change has been very noticeable. She said that 
the multiple over-flights cause school staff to say it felt 
like a subway train was going through the building.
    Natalie Coleman, her 8-year-old son attends Lakeview 
School. He said between 8 a.m. and 10 a.m. the planes were so 
loud they thought they were in a war. The girls got really 
scared and the teachers had to yell at the kids so that they 
could be heard. He said that, ``Lately the noise at the school 
has been really bad, we all get headaches, we're very angry. At 
recess it is so loud that I hate it.''
    People are also worried about their safety. Philadelphia 
air traffic controllers say they're concerned about safety of 
the new takeoff headings. One of the county's concerns from the 
beginning was the increased risk of airplane crashes or objects 
falling from airplanes.
    Before the flight changes occurred, two recent instances of 
airplane debris falling through the roofs of Delaware County 
homes, miraculously resulted in no injuries. And I can say, 
Senator that I personally visited the one house on Donna 
Avenue, and it was devastating to see the hole in that roof and 
how close it came to hitting that mother and child.
    The bottom line is that the Airspace Redesign Project is 
not achieving its goal, the reduction in flight delays in 
Philadelphia. In fact, the only reduction we see is the quality 
of life in our communities.
    Mike Wagner, air traffic manager, Philadelphia, says there 
has been a slight reduction in delays between December 19, 2007 
but not because of airspace redesign, it's because there has 
been fewer flights. And I would, it's been a very mild winter. 
There's been about 4 percent, as they're touting, of 
improvement, however I would again suggest to you, 
respectfully, Senator, that is because of weather and because 
of reduced flights.
    We would ask you to consider common sense strategies to 
improve airport service and reduce negative impacts on Delaware 
County residents. The FAA should encourage airlines to use 
regional airports that are grossly underutilized, such as 
Lehigh Valley International, Atlantic City International, New 
Castle County, Trenton/Mercer Airports. This would take the 
pressure off of Philadelphia and give people near those 
airports a more convenient way to fly.
    Based on the reduction in flights and the resulting 
reduction in delays, the FAA should consider putting a 
reasonable cap on the number of flights during peak hours, 
consistent with the flights that the airport can physically 
handle.
    Finally, I would point out that the airport and the 
airlines should be encouraged to adopt a congestion pricing----
    Senator Specter. Chairman Whelan, you're a minute over. How 
much more time will you need?
    Mr. Whelan. I'm done, Senator. I would just simply point 
out, and it was referred to earlier today, that if we charge--
even if it's passed on to the consumer--a higher price during 
peak hours, that would encourage consumers to go off peak 
hours. So, if we could get people--I have a family of six, if 
it was cheaper to fly at 10 o'clock in the morning or 12 noon, 
I would be encouraged to do so instead of peak hours where the 
congestion is most problematic.
    I thank you for considering my comments.
    [The statement follows:]

                  Prepared Statement of John J. Whelan

    Thank you, Senator Specter and members of the hearing panel, for 
the opportunity to explain how changes in flight paths at Philadelphia 
International Airport have impacted--and distressed--Delaware County 
residents.
    Specifically, I want to stress how the new departure heading, 
implemented in December, has disrupted the lives of residents in 
Delaware County without achieving any benefits.
    Not only do we want use of this flight path curtailed, but we want 
all planes departing the airport to remain over the Delaware River 
until they reach an altitude of 3,000 feet. We are not wavering from 
this position.
    There is no compelling evidence from the FAA to show that putting 
more planes over Delaware County homes and neighborhoods will reduce 
flight delays at the airport.
    So why subject our residents to more noise, more air pollution, and 
the threat of safety hazards, if it's not going to improve air service 
at the airport?
    In all the hearings, in all the reports, in all of the FAA's 
statistics . . . NO ONE has been able to answer that question for us.
    It's important to point out that three-fourths of Philadelphia's 
airport is located in Delaware County, a built-up suburb of 
Philadelphia, having about 550,000 residents. Our first-generation 
communities, which are densely populated, are all near the airport.
    December 19, 2007, was a defining moment in this whole, misguided 
airspace redesign plan.
    December 19 is when the FAA implemented a new departure heading, 
right over Delaware County homes, schools and businesses. Since the new 
departure heading went into effect, complaint calls to the Airport's 
noise hotline increased by a remarkable 1,400 percent.
    During the 3-month period before December 19, there were an average 
of .54 calls per day to the noise hotline and a total of 58 calls in 
those three months.
    During the 3 months after the change was made (between December 19, 
and April 3, 2008), County residents called the Airport's noise hotline 
881 times to report an airplane that was too close or too loud for 
comfort. That's an average of 8.23 calls per day, or a daily increase 
of about 1,400 percent.
    What's more disturbing is that after December 19, 10 percent of the 
complaints (88) were made between midnight and 5:00 a.m., a time when 
the FAA admits traffic is light. The FAA said it would only utilize 
this new departure heading when traffic was backed up during airport 
rush hours. But these headings are being used in the middle of the 
night, in blatant opposition to what was promised.
    And these numbers are for winter. Wait until summer, when people 
want to have their windows open, or be outside in their yards, and are 
bombarded by airplane noise.
    Delaware County is Ground Zero when it comes to increased air 
traffic in Philadelphia. And the FAA consistently fails to take into 
account the negative impact these flights have on the health and 
quality of life for people in the county. Today, I speak for those 
people and want to relate some of their complaints directly to you.
    Terri Lunny, a resident of Middletown Township, about 7 miles from 
the airport, works from home and can't schedule any phone calls between 
3 and 5 p.m. because of the airplane noise. One day, airplanes were 
going over her house 2 minutes apart non-stop from 5:30 to 7:30 p.m., 
then again from 9:30 to 10:30 p.m. The next morning, airplane noise 
bothered her for 2\1/2\ hours.
    Mary Keefer, a resident in Chester Heights, about 10 miles from the 
airport, complained about loud flights at 3 or 3:30 a.m. The noise was 
so loud, it work her up.
    One really disturbing complaint came from Barbara White, the 
principal at Lakeview Elementary School in Ridley Park. This school is 
3 miles from the end of the runway. Mrs. White said flights over the 
school and playground on February 1, 2008, were so low and loud, they 
frightened the students and staff.
    Mrs. White has been principal at Lakeview for 14 years and the 
change has been very noticeable. She said that multiple overflights 
caused school staff to say that it felt like a subway train was going 
through the building.
    Natalie Coleman's 8-year-old son attends the Lakeview school. He 
said that between 8 and 10 a.m., ``the planes were so loud they thought 
they were `in a war.' The girls got real scared and the teachers had to 
yell so the kids could hear them. He said that lately the noise at 
school `has been real bad, we all get headaches and we are angry. At 
recess it is very loud and I hate it.' ''
    Mrs. Coleman said at her house, the new departure flights mean: 
``We can't sleep, my clients can't hear me on the telephone in my home 
office, we have seen the volume on our TV go from a 24 to a 49 just to 
hear it and we still hear the planes, the windows shake . . . and my 
home value has gone down.''
    That's just a small sampling of the hundreds of complaints we've 
heard.
    People are also worried about their safety. Philadelphia air 
traffic controllers say they are concerned about the safety of the new 
takeoff headings. One of the county's concerns from the beginning was 
the increased risk of airplane crashes or objects falling from 
airplanes. Before the flight changes occurred, there were two recent 
instances of airplane debris falling through the roofs of Delaware 
County homes, miraculously resulting in no injuries.
    In Delaware County, we are working to revitalize our eastern and 
riverfront communities, the same areas where airplane noise is now 
having a negative impact. The county is providing funding to these 
older, inner-ring suburbs to revitalize their business districts, 
parks, and streetscapes. We are trying to stem the tide of migration to 
more distant areas and encourage home ownership in these communities. 
But major airplane noise impacts threaten to undo this work.
    The bottom line is the airspace redesign project is NOT achieving 
its goal of a reduction in delays at PHL. In fact, the only reduction 
we see is a reduction in property values and quality of life in our 
communities.
    Mike Wagner, the air traffic manager at PHL, said there has been a 
slight reduction in delays since December 19, 2007, but it's NOT 
because of the airspace redesign changes. It's because there have been 
fewer flights.
    Between January and November 2007, about 67 percent of PHL flights 
were on time. In January and February 2008, about 71 percent of flights 
were on time. Prior to December, approximately 1,500 flights per day 
were arriving or departing. After December, about 1,400 flights have 
been arriving or departing every day. Economic conditions, fuel costs, 
and larger airplanes are contributing to the reduction in flights. 
About 330 daily flights during the hours of 9 and 11 a.m. and 2 and 7 
p.m. are using the new flight headings.
    Our aviation expert, Williams Aviation Consultants, estimated that 
the FAA's airspace redesign would reduce delays at PHL by a mere 3 
percent, which translates to a couple of minutes.
    Historically, 84 percent of PHL delays have been caused by factors 
that cannot be addressed by airspace redesign, such as bad weather and 
equipment problems. The impacts on Delaware County residents and school 
children are not worth the tiny delay reductions.
    Truth is, experts can manipulate these numbers, this flight data, a 
million ways. Two things remain clear. The FAA overestimates any 
benefit the airspace redesign will have; and underestimates the impact 
on our residents.
    Delaware County Council stands strong in this battle and we are 
even expending tax dollars to fight these changes in court. Be we would 
prefer a legislative remedy. We don't want to spend tax dollars 
fighting the FAA, an agency that's supposed to protect people. So we 
are looking to members of the House and Senate to find an alternate way 
to accomplish these transportation goals.
    We're not here to stand in the way of progress and success at the 
airport. The County supports a viable airport to serve the region. But 
putting more planes over the county is not the answer.
    We propose three common-sense strategies to improve airport service 
and reduce negative impacts on Delaware County residents:
  --The FAA should encourage airlines to use other regional airports 
        that are grossly underutilized, such as Lehigh Valley 
        International, Atlantic City International, New Castle County, 
        and Trenton-Mercer airports. This would take some of the 
        pressure off of PHL and give people near those airports a more 
        convenient way to fly.
  --Based on the recent reduction in flights and the resulting 
        reduction in delays, the FAA should consider putting a 
        reasonable cap on the number of flights during the peak hours, 
        consistent with the number of flights the airport can 
        physically handle.
  --The airport and airlines should also be encouraged to adopt 
        congestion pricing, charging more for flying during peak times 
        and less for off-peak times. In January, Secretary of 
        Transportation Mary Peters introduced a policy to allow this. 
        This would encourage some flyers to change their flying times 
        to off-peak times.
    A combination of these strategies would reduce the need for flying 
over Delaware County homes and schools at low altitudes.
    Thank you very much. I'll be happy to answer questions.

    Senator Specter. Thank you, thank you very much, Mr. 
Whelan.
    Our next witness is executive vice president of the 
National Air Traffic Controllers Association, Mr. Paul Rinaldi, 
15 years as an air traffic controller at Washington/Dulles, 
attended the University of Dayton. He is accompanied by Mr. Don 
Chapman, the National Air Traffic Controller Association's 
facility representative for the Philadelphia International 
Airport to respond to questions if any arise, specifically of 
local questions.
    Mr. Rinaldi, thank you for coming in, and we look forward 
to your testimony.

STATEMENT OF PATRICK FORREY, PRESIDENT, NATIONAL AIR 
            TRAFFIC CONTROLLERS ASSOCIATION
ACCOMPANIED BY DON CHAPMAN, NATIONAL AIR TRAFFIC CONTROLLER 
            ASSOCIATION'S FACILITY REPRESENTATIVE

    Mr. Forrey. Senator Specter, thank you, and my name is 
Patrick Forrey, I'm the President of the National Air Traffic 
Controllers Association. Mr. Rinaldi, somehow must have got 
mixed up in this whole process, but he's not here.
    Senator Specter. Well, we need--we accept your 
qualifications and----
    Mr. Forrey. I appreciate that.
    Senator Specter [continuing]. But without an introduction--
I know that there are many, many occasions where I have vastly 
preferred no introduction.
    Mr. Forrey. I appreciate that. Thank you, Senator. I would 
like to say--start by thanking you for showing such leadership 
on this important issue of aviation. The men and women I 
represent in this State, as well as throughout the Nation, are 
grateful to you because you treat their profession with respect 
and you are a champion for their cause and the safety of the 
system.
    I also want to thank Senator Lautenberg who isn't here 
today, but who sits on this important subcommittee. Like you 
Senator, he continues to be a champion for the working men and 
women of NATCA, by making sure that our aviation system is safe 
and working conditions for air traffic controllers and other 
FAA employees are adequate.
    Air travel is an integral part of the economy and life in 
Philadelphia, where the airport is ranked ninth busiest in the 
world and among the fastest growing in the United States. Over 
the past 3 years, more than 83 million passengers flew into or 
out of Philadelphia Airport for business or leisure.
    But flying into Philadelphia has become less efficient. 
Philadelphia is ranked 30th out of 32 major airports for on-
time departures, a rate which has fallen 9 percentage points in 
5 years, to a low of 70 percent. Arrivals are even worse, with 
only 67 percent of flights arriving within 15 minutes of their 
scheduled landing time.
    Rather than working with stakeholders to identify and 
address the root of this problem, the FAA has endeavored to 
follow its own flight plan, unilaterally enacting changes to 
Philadelphia's airspace design and to aircraft control 
facilities. It is the opinion of NATCA that neither the 
dispersal headings nor the de-combination of Philadelphia's air 
traffic control operations will have any positive impact on air 
travel, in or out of Philadelphia Airport.
    Rather, both changes will introduce additional safety risks 
into the system, and increase the potential for confusion and 
inefficiency. We believe that a status quo is unacceptable, as 
well, but that changes must directly address the two key 
components of Philadelphia's airspace woes, airline over-
scheduling, and the understaffing of air traffic control 
facilities. The actions already underway by the FAA are, at 
best, ill-advised, and at worst, downright harmful.
    First, the plan to separate tower and radar approach 
functions at Philadelphia Airport will result in, with 
increased staffing pressure, at a facility already too thinly 
spread. Philadelphia is currently operating with 61 percent of 
the controllers authorized by the FAA in 1998, and traffic has 
grown since that time.
    With only 67 of the authorized 109 controllers working at 
Philadelphia, and an additional 15 eligible for retirement, we 
are becoming increasingly concerned with the inexperience, 
over-work and fatigue controllers are now subjected to.
    While the FAA has stated that splitting this facility will 
require an increase in the overall staffing of controllers, 
they have not addressed how the need will be filled, or how 
long it will take. One major importance to note--splitting this 
facility will narrow the field of knowledge for the 
controllers, and introduce barriers for communication and 
smooth operation.
    Trainees assigned to the new split facilities will have no 
knowledge of the tower operations or TRACON operations, 
depending on where they're assigned. They will, therefore, lack 
a clear understanding of how their actions affect operations at 
the JC positions.
    The co-location of tower and TRACON functions allows for a 
more comprehensive understanding of operations, simpler 
communications and more face-to-face interactions, resulting in 
greater efficiency. Barriers to communications caused by 
physical separation reduce efficiency, potentially causes 
additional, unnecessary delays.
    Second, the hastily introduced dispersal headings of 
Philadelphia have increased risk of miscommunication between 
air traffic controllers and pilots. FAA has published no 
official guidelines governing the uses of dispersal headings, 
nor have they updated Standard Instrument Departure routing 
charts, we call SIDs, to include these new headings.
    Without new SID charts, controllers have had to verbally 
override SID instructions, requiring pilots to depart using 
unfamiliar procedures, without the benefit of written 
instructions, which opens up the potential for 
miscommunications. An audit of 23 hours of tape revealed nine 
communication errors, in that short span of time.
    These, and all areas, have high stakes, particularly when 
dealing with such constrained airspace. Additionally, these 
headings have not been tested for use during hot weather, where 
aircraft are known to climb and turn much more sluggishly.
    But, while the FAA has made these ill-advised changes, they 
have addressed neither the issue of airline over scheduling, 
nor that of air traffic controller staffing. The work rules 
imposed by the FAA on the controller workforce have resulted in 
unprecedented attrition of air traffic controllers. Controllers 
are leaving the workforce at a rate of 5.2 per day. Most of 
them are retirees who have not yet reached mandatory retirement 
age. Resignations have also tripled to 345 since the 
implementation of the imposed work rules. For Philadelphia, 
this has meant running operations at 61 percent of the 
authorized staffing levels.
    There are fewer eyes watching the skies and runways in 
Philadelphia, and throughout the country, and those that remain 
are suffering from fatigue. This fatigue has resulted in more 
frequent lapses in safety, and a less efficient, and therefore, 
more delayed operation. The FAA has taken no steps to stem that 
flow.
    As for the issue of airline over scheduling, while the FAA 
has determined that Philadelphia can handle 13 departures per 
quarter hour in optimal weather conditions, they do not require 
airlines to take these rates into account when planning their 
schedules. Therefore, the airlines are free to use marketing as 
their only driving force in their schedule development--a 
practice which may maximize profits for the airlines, but 
results in losses for airline customers in the form of delays. 
Airlines frequently schedule departures in excess of optimal 
airport capacity.
    These excess departures automatically result in delays, 
before weather or even air traffic control staffing are 
factored into the equation.
    Although we are gathered here to discuss the issues facing 
aviation in Philadelphia area, it must be understood that the 
situation is Philadelphia is not unique. Overall airline delays 
in 2007 were second-worst on record, with nearly one-fourth of 
arrivals, 21 percent of departures experiencing delays. This 
number has consistently risen over the past 5 years, and with 
arrival delays increasing by 12 percentage points since 2001.
    Meanwhile, total staffing----
    Senator Specter. Mr. Forrey, you're more than a minute 
over, how much more time will you need?
    Mr. Forrey. Just 30 seconds.
    Senator Specter. Okay.
    Mr. Forrey. Meanwhile, controller staffing nationwide is at 
a 16-year low, with the number of certified professional 
controllers at 70 percent of authorized levels.
    Our hope is that, for this hearing, that by using 
Philadelphia as an example, we can bring about meaningful and 
substantive changes that will benefit the flying public 
throughout the country.
    Therefore, we recommend the following: the FAA should abide 
by their clause in S. 1300, and realign facilities only after 
receiving input and approval by review board, consisting of the 
representatives from all stakeholder groups, including NACA, 
pilots, Members of Congress, and the community.
    The FAA must discontinue use of dispersal headings until 
such time as full testing is complete, and proper procedures 
have been established with collaboration from all stakeholder 
groups.
    The FAA should take steps to control airline scheduling, to 
prevent scheduling over the maximum arrival and departure 
rates, and Congress must pass the FAA reauthorization bill, 
that will require FAA to return to the bargaining table for 
fair negotiations with the controllers, in order to curtail a 
rapid attrition rates in the workforce.
    Mr. Chairman, thank you, and I'll be happy to answer any 
questions you have.
    [The statement follows:]

                  Prepared Statement of Patrick Forrey

  AIR TRAFFIC ISSUES OF CONCERN TO THE PHILADELPHIA METROPOLITAN AREA

    Air travel is an integral part the economy and of life in 
Philadelphia. Ranked the 9th busiest airport in the world and among the 
fastest growing in the United States,\1\ Philadelphia International 
Airport has had more than 83 million passengers arriving and departing 
over the last 3 years.\2\ But flying into Philadelphia has become less 
efficient; Philadelphia is ranked 30 out of 32 major airports in 
percent of on-time departures, a rate which as fallen from 79 percent 
in 2001 to only 70 percent in 2008. Arrivals are even worse, with only 
67 percent of flights arriving within 15 minutes of their scheduled 
landing time.
---------------------------------------------------------------------------
    \1\ Federal Aviation Administration Philadelphia International 
ATCT/TRACON De-combining Staff Study.
    \2\ Bureau of Transportation Statistics Airport snapshot for PHL.
---------------------------------------------------------------------------
    Rather than working with stakeholders to identify and address the 
roots of this problem, the FAA has endeavored to follow its own flight 
plan, unilaterally enacting changes to Philadelphia's airspace design 
and air traffic control facilities. Neither the dispersal headings nor 
the de-combination of PHL's air traffic operations will have any 
positive impact on air travel into and out of Philadelphia Airport. 
Rather, both changes will introduce additional safety risk into the 
system and increase the potential for confusion and inefficiency. The 
status quo is unacceptable, but changes must directly address the two 
key components of PHL's air traffic woes--airline over-scheduling and 
the understaffing of air traffic control facilities.
    NATCA therefore makes the following recommendations to this 
committee:
  --The FAA should initiate realignment activity only after receiving 
        input and approval from a review board as per the FAA 
        reauthorization bill passed by the House of Representatives and 
        under consideration by the Senate. This board would include 
        representatives from all stakeholder groups including air 
        traffic controllers, pilots, members of congress and the 
        community. In the case of the PHL, the FAA should work with 
        NATCA and consider our alternate plan to reduce the number of 
        positions required for full certification while maintaining the 
        integrity of the combined facility.
  --The FAA must discontinue the use of dispersal headings until such 
        time as full testing--including hot weather testing--is 
        complete and proper procedures--including revised Standard 
        Instrument Departure (SID) charts--have been established. This 
        too must be developed with active participation of all 
        stakeholder groups including air traffic controllers, pilots, 
        members of congress and the community.
  --The FAA should take steps to control airline scheduling and prevent 
        scheduling over the maximum arrival/departure rates.
  --Congress must quickly pass the FAA reauthorization bill, which 
        would require the FAA to return to the bargaining table for 
        fair negotiations with NATCA in order to curtail the rapid 
        attrition from the workforce.
            de-combination of philadelphia tower and tracon
    On March 31, 2008 the National Air Traffic Controllers Association 
was officially informed of the FAA's plan to de-combine the 
Philadelphia International Airport's air traffic control facility by 
separating tower and radar approach functions in separate facilities. 
This decision was made entirely without the participation of those with 
most intimate understanding of air traffic control operations at 
Philadelphia Airport--the air traffic controllers who work there each 
day. The FAA did not seek input from these controllers who are best 
able to identify benefits and pitfalls and make informed suggestions 
for plan improvement. This shows not only contempt for the air traffic 
control workforce, but also a lack of sincere desire to develop a plan 
with the greatest benefit to users. It is the opinion of NATCA that the 
plan to de-combine PHL ATCT/TRACON is deeply flawed and will bring no 
benefit to users but will instead introduce into the system additional 
safety risks and opportunities for delays.
    It must be understood that NATCA is not categorically opposed to 
all realignment initiatives. In the past, we have worked alongside the 
FAA to plan some of the most successful realignments of ATC facilities. 
This includes the formation of TRACON facilities in New York, Southern 
California, Chicago, Denver, Dallas-Fort Worth, Northern California, 
Atlanta, and the Baltimore/Washington/Virginia Tri-State (Potomac) 
area. However, it is our firm belief that all realignment decisions 
must be made with a specific operational need in mind. These changes 
must serve the public by improving safety, efficiency and service. To 
date, the FAA has been unable to satisfactorily justify their PHL plan 
on any of the above grounds. Instead, the administration has chosen to 
focus on reducing its own operating costs while ignoring the cost of 
delays for those who depend on our airspace for travel and commerce.
    As the facility is currently structured, controllers must learn all 
aspects of operations required for safe and efficient arrivals and 
departures from PHL. This well-rounded training enables controllers to 
understand how their actions at one position effect the operation of 
the adjacent positions. With this knowledge, controllers are able to 
optimize their performance for both safety and efficiency. By splitting 
this facility, the FAA will narrow the field of knowledge for 
controllers. New trainees will not only be denied the opportunity to 
train on all dimensions of the operation, they will not even have the 
opportunity to observe operations at other sectors.
    Creating two separate facilities will also introduce barriers to 
coordination between the Tower and TRACON. The collocation of tower and 
TRACON functions allows for simpler communications and more face-to-
face interactions, resulting in greater efficiency. Philadelphia has a 
unique and very intense crossing runway operation which requires 
continuous interaction between tower and TRACON. Barriers to 
communication caused by physical separation necessarily reduce 
efficiency, potentially causing additional unnecessary delays.
    Perhaps the deepest flaw in the de-combination plan is that by 
creating two facilities, the FAA increases the number of controllers 
necessary to conduct operations. The combined tower/TRACON facility 
allows for flexibility in staffing. If, for example, the tower finds 
itself short-staffed on any given day, they can call upon the TRACON to 
supply the additional staffing, and vice versa. If these facilities 
were separated, this flexibility would be lost, and each facility would 
be required to maintain a higher level of staffing in order to ensure 
uninterrupted service. The FAA acknowledges this fact in their staff 
study stating that de-combination ``will require an increase in the 
overall staffing of controllers, administrative, and support staff,'' 
but they did not discuss how that need would be filled.
    Already PHL is in the midst of a staffing shortage, one that is 
likely to grow only more severe. PHL currently employs only 67 
certified professional controllers (CPCs), only 61 percent of the 
staffing level jointly authorized by the FAA and NATCA in 1998. Of 
those 67, 3 are scheduled for transfers and 15 are already eligible to 
retire. De-combination would encourage retirement of those that are 
eligible, as the split would result in the downgrading of each of the 
daughter facilities causing an estimated 4 percent pay cut to 
employees. The 2006 imposed work rules have already removed incentives 
for experienced controllers to transfer to new facilities, as doing so 
would reduce their pay by placing them in the new pay bands.
    The FAA's key justification for the separation of these facilities 
is that it would ``reduce the lengthy training time required for 
developmental and prior experienced controllers in attaining full 
performance level certification. By reducing the total number of 
positions a controller is assigned to work maintaining currency would 
be easier and controllers would become more proficient in the areas 
they are assigned to work.'' \3\ NATCA agrees that there are advantages 
in reducing training time. However, we believe that this same objective 
can be met without losing the benefits of an integrated air traffic 
environment. Larger Centers and TRACONs throughout the country have 
their operations divided into sectors, a structure that has used 
successfully in Miami, a facility similar Philadelphia. There is no 
reason why similar structural changes should not be an equal success in 
Philadelphia.
---------------------------------------------------------------------------
    \3\ Federal Aviation Administration Philadelphia International 
ATCT/TRACON De-combining Staff Study.
---------------------------------------------------------------------------
    The FAA's refusal to consider this reasonable alternative calls 
into question the agency's true motive for change. The agency has shown 
itself to be motivated primarily by its own bottom line, without regard 
for safety or delays. We also have reason to believe that this 
realignment is but the first in a series of changes that the FAA is 
planning for the Pennsylvania area. If we use past FAA behavior as a 
predictor, PA can expect to see consolidation, closing or outsourcing 
of air traffic control towers at smaller local airports in the region. 
Allentown, Wilkes-Barre Scanton, Reading, Atlantic City, and perhaps 
Harrisburg airports are all at risk. We base this prediction on the 
FAA' behavior in southern Florida--where a similarly-justified de-
combination of Miami tower and TRACON ultimately resulted in the 
consolidation of Palm Beach International Airport (PBI) TRACON and 
potential outsourcing of the remaining tower functions at PBI--and 
Texas--where in recent weeks we have seen the consolidation of Beaumont 
Airport's (BPT) TRACON functions with operations out of Houston.

                           DISPERSAL HEADINGS

    On December 19, 2007, misguided FAA management unilaterally 
implemented dispersal headings to be used for aircraft departing out of 
Philadelphia airport. These new headings were supposed to reduce delays 
by cramming more aircraft into the already-constrained airspace 
surrounding PHL. The theory was that if we were to fan out aircraft 
along multiple vectors from PHL, we could speed the rate of departures 
as the new departures would not be following in trail and would 
therefore not need the same buffer of time between takeoffs. As with 
de-combination, the FAA failed to seek collaboration from Air Traffic 
Controllers, pilots and other stakeholders and therefore overlooked 
major pitfalls and consequences of their plan.
    Such constrained airspace poses a risk to the safety of aircraft by 
eliminating room for error. Small misjudgments, pilot error, or 
imperfect aircraft handling could have disastrous consequences in an 
operation run too tightly. For example, if a pilot landing on runway 
27R or 9R has to abort a landing while the dispersal headings are in 
use, they may be faced with departure traffic coming towards them on 
the 268 heading. Further complicating matters in this situation is the 
fact that the departing and arriving aircraft are communicating on 
different frequencies.
    The implementation of these dispersal headings has also created an 
environment ripe for miscommunication. The US Airways ALPA safety 
chairman, an active airline pilot wrote: ``It is now a practice where a 
different heading is being assigned as part of the takeoff clearance. 
This practice can easily result in confusion as it is a change to the 
briefed departure heading. It also occurs during a very busy time in 
the cockpit and possibly while only one pilot is on the radio.'' In 
response to public pressure on this issue, the FAA conducted a random 
review of 23 hours of tape and found 9 communication errors in that 
short span of time. Further contributing to the potential for 
miscommunication is the increased frequency congestion caused by a 
combination of overutilization of airspace and understaffing of Air 
Traffic Control. With more aircraft in the same space and no change to 
controller staffing, each single controller must communicate with and 
monitor read-backs from an increased number of pilots. This congestion 
of the communication frequencies increases the likelihood that a 
controller will overlook--and therefore fail to correct--a 
miscommunication between himself and a pilot. Needless to say, 
controller-pilot miscommunication poses an additional risk to safety.
    Another leading cause of miscommunication over dispersal headings 
is the complete lack of published procedures. As of the writing of this 
testimony, the FAA has published no official guidelines governing the 
usage of the dispersal headings, nor has the FAA updated Standard 
Instrument Departure (SID) charts to include these new headings. Under 
ordinary circumstances controllers refer to these charts when issuing 
departure clearances to aircraft, giving pilots and controllers a great 
level of clarity regarding the departure plan. Without new SID charts, 
controllers have had to verbally override SID instructions, requiring 
pilots to depart using unfamiliar procedures without the benefit of 
written instructions. Without SID charts, miscommunications have 
increased. One of the instances of miscommunication discovered in the 
above referenced investigation--of which NATCA maintained audio 
records--resulted in an aircraft traveling ten degrees off course.
    Relatedly, neither Air Traffic Controllers at PHL nor pilots have 
received meaningful training on this change in procedure. Controllers 
had been briefed that a particular procedure would be used, and then on 
the day of implementation the agency changed the procedures and 
required controllers to ``read an initial'' the changes on the day of 
implementation.
    There still exists the possibility of additional dangers caused by 
the headings, as the FAA failed to comprehensively test them prior to 
implementation. Notably missing from the FAA testing was testing in hot 
weather conditions. Aircraft are known to perform sluggishly in hot 
weather and climb and turn rates often suffer as a result. Controllers 
have already reported issues with constrained airspace design, an issue 
which will be exacerbated in hot weather and could pose serious safety 
problems. This must be tested prior to using these headings during such 
weather.
    The FAA hastily implemented these dispersal headings in order to 
appear to be addressing the issue of delays in the Philadelphia area. 
While delays are a serious and growing problem at PHL, the dispersal 
headings do not address the root of the problem and will have little if 
any impact on the situation. The key culprits in the problem of delays 
in the Philadelphia area are airline over-scheduling, and understaffed 
air traffic control facilities. Unfortunately, the FAA would prefer not 
to address either of these issues in a meaningful way, as they have 
proven resistant both to regulating airline behavior and to negotiating 
with air traffic controllers.

                        AIRLINE OVER-SCHEDULING

    Due to the laws of physics and FAA separation requirements, there 
is a finite number of aircraft that can safely arrive or depart an 
airport in a given span of time. The FAA has developed an estimate of 
the maximum number of operations each airport can handle in optimal 
weather conditions called the Airport Arrival Rate (AAR) and the 
Airport Departure Rate (ADR). The ADR at PHL is 52, meaning that 52 
aircraft per hour--13 per quarter hour--can safely depart Philadelphia 
airport. However, the FAA does not require airlines to take these rates 
into account when planning their schedules. Therefore the airlines are 
free to use marketing as the only driving force in their schedule 
development, a practice which may maximize profits for airlines but 
which results in losses for airline customers in the form of delays, as 
airlines frequently schedule departures in excess of optimal airport 
capacity. Although PHL can depart only 13 aircraft per quarter hour in 
the best of conditions, there are some 15-minute intervals in which 
more than 20 aircraft are scheduled to depart.
    The graph below is a snapshot taken from the Flight Schedule 
Monitor (FSM), built from data in the Enhanced Traffic Management 
System (ETMS), tools used by traffic management specialists to manage 
traffic flow. This was taken at 12:35 p.m. local time on March 25, 2008 
and depicts scheduled departures until 11 p.m. The horizontal white 
line indicates the departure rate for that day. In this case, PHL was 
operating at full capacity, with 13 aircraft able to depart per quarter 
hour.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The green bars indicate the number of aircraft scheduled to depart 
from PHL in each 15 minute interval. Each instance in which the green 
bar goes over the white line, the airlines have scheduled beyond 
optimal capacity for the airport. In each of those cases, aircraft must 
be delayed.
    This type of scheduling automatically builds delays into the system 
before weather, understaffing or other mitigating factors are taken 
into account. In the example above--a typical day not during the peak 
travel season--this is what happens:
  --At 2:00 p.m. (1800Z) there are 22 flights scheduled to depart, 9 
        more than the maximum. So nine flights must be delayed and 
        carried into the next interval. This begins the backlog.
  --At 2:15 there are 16 flights scheduled to depart, plus the 9 that 
        were carried over for a total of 25. This is 12 beyond the 
        maximum, so 12 must be carried over.
  --At 2:30 there are 10 flights scheduled to depart, plus the 12 that 
        have been carried over for a total of 22. Because the scheduled 
        number was below the maximum, we were able to absorb some of 
        the backlog; however the backlog was so great that, nine must 
        still be carried over.
  --At 2:45 there are 6 flights scheduled for departure, plus the 9 
        that have been carried over for a total of 15. Again, we are 
        able to absorb some of the backlog, but 2 flights must still be 
        carried over.
  --At 3:00 we are finally able to absorb the entire backlog. There are 
        six flights scheduled plus the two carried over, for a total of 
        eight, which is below the maximum.
  --However, the process begins again at 4:00 p.m., when 21 flights are 
        scheduled to depart.
    Therefore, between 2 p.m. and 3 p.m. airline scheduling alone 
caused an estimated 480 minutes (8 hours) of delays at PHL.\4\
---------------------------------------------------------------------------
    \4\ This figure was calculated by estimating 15 minutes of delay 
for each aircraft carried over from one interval to the next.
---------------------------------------------------------------------------
    It is the FAA's responsibility to ensure that NAS customers--the 
flying public--are protected. This means taking all possible steps to 
ensure not only a safe passage through the skies, but to help them 
avoid unnecessary delays. Rather than look out for the flying public, 
however, the FAA chose to protect a corporate bottom line, letting 
marketing, rather than logic or physics dictate airline scheduling 
practices.

  AIR TRAFFIC CONTROLLER STAFFING AND THE EFFECT OF THE IMPOSED WORK 
                                 RULES

    On September 3, 2006, the FAA unilaterally imposed a set of work 
rules on its air traffic controller workforce. These rules instituted 
unpopular changes to the annual leave policy, removed career 
advancement opportunities, established new pay bands that decreased 
controller wages significantly, and eliminated rest periods, among 
other provisions which left many controllers dissatisfied with their 
work environment. Recent NATCA research has shown that as a result of 
these imposed work rules the total number of CPCs has fallen to a 15 
year low, attrition from the ATC workforce has reached record levels 
and exceeded all expectations--the attrition rate in fiscal year 2008 
has been 6.8 per day--and facilities throughout the country are 
severely understaffed.
    The FAA has repeatedly claimed that the increase in controller 
attrition is due entirely to the increase in retirement eligibility as 
those hired following the PATCO strike reach eligibility age. NATCA 
research shatters those claims. Ninety-eight percent of Air Traffic 
Controllers who left the workforce in fiscal year 2007 did so with time 
still left on the table. Resignations--of which there were only 64 \5\ 
in the last year of the signed contract--more than more than tripled to 
202 in fiscal year 2007. Similarly the percent of those eligible to 
retire who chose to do so has increased from 21 to 30 percent since the 
imposition of the work rules.
---------------------------------------------------------------------------
    \5\ All staffing data is based on FAA payroll information provided 
to the union by the FAA.
---------------------------------------------------------------------------
    Practically, this means that there are fewer eyes watching the 
skies and runways throughout the country, and those that remain are 
suffering from fatigue. At Philadelphia Tower/TRACON, there are 
currently only 67 CPCs, 2 of whom are scheduled for transfer within the 
next several months. This is less than 65 percent of the 109 jointly 
authorized by the FAA and NATCA in 1998. Smaller facilities in 
Pennsylvania are similarly strained. Wilkes-Barre airport has 14 CPCs 
rather than the authorized 25, while Harrisburg is down to a staggering 
13 full performance level controllers 43 percent of what had been 
authorized.
    Left with understaffed facilities, management is faced with two 
choices for handling the ever-increasing volume of air traffic: call in 
overtime or work short-staffed. Both of these options--which are often 
used in tandem--create fatigue among air traffic controllers. Regular 
use of overtime limits a controller's ability to recover from work-
related stress and fatigue, while short-staffing increases workload and 
limits opportunities for rest and recovery during the shift. On short-
staffed shifts managers are forced to reduce the number of Radar 
Assistants (RAs), giving one controller the responsibility of not only 
for communication with aircraft but also coordination with other 
controller positions and facilities and updating flight progress 
information. Additionally, managers may be forced to combine positions, 
creating greater complexity by requiring each controller to monitor 
greater numbers of confliction points and an increased volume of 
aircraft. According to the FAA's own research, ``evidence was found 
that increased sector complexity may be associated with reduced 
situational awareness and may lead to a larger number of, and more 
severe, errors.'' \6\ Fatigued Air Traffic Controllers are more likely 
to make errors, less likely to identify pilot error, and are more 
likely to increase the safety buffer, which would result in delays.
---------------------------------------------------------------------------
    \6\ Rogers, Mark D, Richard H. Mogford, Leslye S. Mogford, U.S. 
Department of Transportation, Federal Aviation Administration Office of 
Aviation Medicine The Relationship of Sector Characteristics to 
Operational Errors, May 1998.
---------------------------------------------------------------------------
    PHL currently has 15 CPCs who are eligible to retire. If they left, 
this would further exacerbate the staffing shortage and the threat of 
fatigue-related errors and delays. Rather than encourage the continued 
outflow of experienced controllers by continuing to enforce the imposed 
work rules, the FAA must return to the bargaining table to bargain 
fairly with NATCA. Congress can do its part by quickly passing the FAA 
reauthorization bill, which contains provisions that would force the 
FAA to resume bargaining with NATCA and would send any unresolved 
disputes into binding arbitration. While this would not reverse the 
damage that has already been done, it would significantly slow the rate 
of attrition and give the system more time to recover.

                               CONCLUSION

    The FAA has repeatedly shown that it is either unable or unwilling 
to govern the usage of our Nation's airspace and runways in a way that 
maximizes the benefit and minimizes risks to the flying public. Time 
and time again they have ignored offers from subject-matter experts 
like air traffic controllers to assist them in their endeavors, just as 
they have ignored the pleas from elected officials. In this way, 
Philadelphia is not unique. The issues facing this city, and indeed the 
entire State of Pennsylvania are being experienced in various 
incarnations throughout the country. Mismanagement has become endemic 
in this agency, which is determined to focus only on its own bottom 
line. Today we are given the opportunity to identify the problems 
facing air travelers in the Philadelphia area--many of which have been 
either caused by the FAA or ignored by them--and begin taking steps to 
correct them. It is the sincere hope of this union that this hearing 
will lead to meaningful action and that positive changes will be made 
throughout the country.
    We therefore recommend the following:
  --The FAA should initiate realignment activity only after receiving 
        approval from a review board as per the clause in the FAA 
        reauthorization bill passed by the House of Representatives and 
        currently under consideration by the Senate. This board would 
        include representatives from all stakeholder groups including 
        air traffic controllers, pilots, members of congress and the 
        community. In the case of the PHL, the FAA should work with 
        NATCA and consider our alternate plan to reduce the number of 
        positions required for full certification while maintaining the 
        integrity of the combined facility.
  --The FAA must discontinue the use of dispersal headings until such 
        time as full testing (including hot weather testing) is 
        complete and proper procedures, including appropriate revisions 
        to the PHL7 SID chart have been established. This too must be 
        done with the active participation of all stakeholder groups 
        including air traffic controllers, pilots, members of congress 
        and the community.
  --The FAA should take steps to control airline scheduling and prevent 
        scheduling over the Maximum Arrival/Departure Rates.
  --Congress must quickly pass the FAA reauthorization bill that would 
        require the FAA to return to the bargaining table for fair 
        negotiations with NATCA, in order to curtail the rapid 
        attrition from the workforce.

    Senator Specter. Thank you, Mr. Forrey.
    Mr. Chapman, would you care to add anything to that?
    Mr. Chapman. No, Senator, I just want to thank you for 
inviting us to participate today, and I'm here to answer any 
questions you may have.
    Senator Specter. Well, on a number of occasions I've 
visited your towers. It's dark, a lot of funny-looking symbols 
on the screens, and we thank you for what you do, even though 
we wonder what it is, sometimes.
    Our next witness is going to be Mr. Steve Aichele. He is a 
key member of the Philadelphia CEO Council for Growth. Graduate 
of the Naval Academy, now he's the Chairman of Saul Ewing, a 
very distinguished Philadelphia old-line law firm.
    He appears here instead of former Governor Mark Schweiker, 
who's President of the Greater Philadelphia Chamber of 
Commerce, but this hearing had originally been scheduled for 11 
a.m., when the Governor was available, and couldn't miss--
couldn't make it because of the necessary change in scheduling.
    So, we welcome you here, Mr. Aichele, and look forward to 
your testimony.

STATEMENT OF STEPHEN S. AICHELE, CHAIRMAN, SAUL EWING, 
            ON BEHALF OF THE PHILADELPHIA CEO COUNCIL 
            FOR GROWTH
    Mr. Aichele. Yes, sir. Thank you very much, Senator, and 
thank you for having the business community here today.
    On a personal note, and off the record, please, thank you 
for being here. Keep up the fight, you're an inspiration to 
those of us who are fighting a similar battle, so thank you 
very much for being here.
    Senator Specter. Thank you.
    Mr. Aichele. I'm here today, as you said, on behalf of the 
regional business community, specifically the CEO Council for 
Growth, which is a group of over 60 CEOs of major businesses 
throughout the 11 county region of Greater Philadelphia. 
They've formed an alliance with the Greater Philadelphia 
Chamber of Commerce, which we've named Select Greater 
Philadelphia. Our President and CEO, Tom Moore, is in the 
audience today, as well.
    Our objective is to increase the competitiveness of 
Philadelphia as a world-class city, and to make sure that the 
rest of the world knows about that. One of the major points in 
achieving that objective would be for the PHL, which we're 
calling the Philadelphia International Airport, to become--and 
remain, remain and become--an even better world-class airport, 
that's absolutely essential.
    In today's global economy, having a world-class airport is, 
as I said, absolutely essential. Throughout history, commerce 
has occurred where trades routes cross, and in our century, the 
21st century, that's going to be airports.
    Philadelphia International Airport is already a gateway to 
the world, and a critical driver of the regional economy. Tens 
of thousands of jobs rely on the airport, currently, and the 
ability to easily travel in and out of the region is a 
significant factor for professionals who choose to do business 
here, and for residents seeking convenience.
    Our region currently enjoys one of the most rapidly growing 
air travel markets, there are a whole bunch of data cited in 
the testimony, that's on the record, I'm going to skip over 
that. But clearly, airport provides benefits to businesses, 
residents, and travelers, and to follow up on the question you 
asked Mayor Nutter--we have had businesses cite Philadelphia 
International Airport as a reason not to locate in this region. 
So, it is definitely having an impact, currently.
    In a very dynamic airline competitive environment, the city 
of Philadelphia, the management of PHL have done a very 
effective job of attracting both domestic and international 
flights to serve our region. Sizable projects currently under 
construction will solve most of the irritating problems that 
all of us encounter from time to time. Recent facility 
improvements such as Terminal East have set a standard of 
quality at PHL that's appropriate for major market communities, 
such as ours.
    However, the growth in quality of service at PHL can 
provide is dependent on its ability to expand its capacity, 
both in the air and on the ground. Currently, Philadelphia 
International Airport is among the five worst U.S. airports, 
we've heard about that over and over, so I'm not going to go 
into any more of the detail here.
    As a result, however, of all of that, we've garnered a 
somewhat negative reputation for travelers, in that the delay 
detracts from the region's quality of life, ability to attract 
and retain businesses, which are highly dependent on airline 
travel. With an eye to addressing such delay, the FAA is taking 
the actions that you've heard about today, and which is the 
subject of a lot of your discussion and questioning.
    We favor, obviously, the improving the efficiency of the 
operations at PHL, however, we believe that every effort should 
be made to ensure the important goal of reducing delays at PHL 
be balanced with efforts to mitigate noise impacts on our 
community.
    We commend the FAA for listening to the concerned citizens 
of Delaware County and other communities, resulting in 
significant mitigations of the proposed heading over the 
county, over which was originally proposed. We urge the new 
headings over Delaware County be used only when necessary to 
reduce the delays--much as your line of questioning intimated. 
We're committed to working with the airport, the FAA, and the 
region's congressional delegation to help make sure that these 
appropriate mitigation measures are undertaken.
    We also believe that preserving and enhancing the airport's 
ability to serve as an economic engine for the region will 
directly benefit Delaware County by providing job growth and 
increased tax revenues.
    In addition, we believe that the airport and its adjacent 
areas should be viewed strategically--as this is Delaware, 
Philadelphia, South Jersey--should be viewed strategically as a 
prime development opportunity, where adjacent land uses could 
enhance PHL's ability to create jobs for nearby residents, and 
tax revenues for everybody.
    We recently articulated our vision for the future of PHL in 
a letter to Mayor Michael Nutter, and his Deputy Mayor for 
Transportation and Utilities, Rina Cutler. I think it's 
realistic to say, after you heard the mayor today, that the new 
mayor and his administration share many of the same priorities 
for PHL as the city and the region's business community and 
we're ready to work together to leverage and improve this great 
infrastructure asset.
    To that end, we are certainly interested in Federal 
funding, and in assistance for developing the airport and its 
adjacent areas, so it can truly become a global hub.
    Therefore, in order to accelerate recent progress, we hope 
that all of the stakeholders--the city of Philadelphia, the 
Commonwealth, neighboring jurisdictions, regional Federal 
officials, the Federal Aviation Administration, Department of 
Homeland Security, air carriers, and our business community, 
can dedicate ourselves to completing a series of actions and 
facility projects over the next 10 years, that will improve the 
quality of customer service, increase the availability of more 
non-stop flights, enhance the efficiency of operations, and 
maximize the contributions of PHL to the quality of life and 
growth of regional prosperity here.
    With shared commitment and foresight, we believe PHL can be 
the first-class airport that this region needs. With that in 
mind, we're here today to offer the support of the Greater 
Philadelphia region's business community, to these efforts.
    In closing, Senator, let me thank you again for the 
opportunity to provide comments this afternoon, and I also 
would be happy to answer any questions and I should just for--
correct the record, sitting next to an admiral and a real 
graduate of the Naval Academy--I'm a retired Naval Reserve 
Captain, but I was ROTC, I went to Cornell University.
    Senator Specter. Thank you very much, Mr. Aichele.
    [The statement follows:]

   Prepared Statement of Mark Schweiker, President and CEO, Greater 
   Philadelphia Chamber of Commerce; Chairman of the CEO Council for 
                                 Growth

    Thank you, Senator, for inviting me to testify before you today on 
behalf of the business community. And best wishes for good health. For 
the record, I am Mark Schweiker, President and CEO of the Greater 
Philadelphia Chamber of Commerce, which is the premier advocate of the 
region's business community, representing 5,000 companies and 
organizations in 11 counties across 3 States--southeastern 
Pennsylvania, southern New Jersey, and northern Delaware.
    Today, I am here in my role as Chairman of the CEO Council for 
Growth, which is a group of prominent business executives committed to 
Greater Philadelphia's growth and prosperity and an affiliate of the 
Chamber. The mission of the CEO Council is to enhance the 
competitiveness of the Greater Philadelphia region in the global 
economy. One key to successfully carrying out this mission would be the 
ability of Philadelphia International Airport (PHL) to serve as an 
economic engine for Greater Philadelphia.
    In today's global economy, having a world class airport is 
essential. Throughout history, commerce has occurred where trade routes 
cross; in the 21st century, that means airports. Philadelphia 
International Airport is our gateway to the world and a critical driver 
of our regional economy that also provides very real benefits to local 
communities. Tens of thousands of jobs rely upon the airport. The 
ability to easily travel in and out of the region is a significant 
factor for professionals doing business, and for residents seeking 
convenience.
    Our region currently enjoys one of the most rapidly growing air 
travel markets and has both hub and low fare operators that are 
committed to air service expansion at PHL. Between 1997 and 2006, total 
passengers at PHL have increased 42 percent. There are currently 700 
daily departures to 120 cities, including 52 daily non-stops to 36 
international destinations. By 2009, US Airways will initiate non-stop 
direct service to Beijing, a route that provides direct and indirect 
economic impacts to every region that can secure the service. With 
34,000 employees and over 200 employers, PHL is estimated to provide 
$14 billion in regional economic impact. Clearly the airport provides 
important benefits to businesses, residents and travelers.
    In a very dynamic airline competitive environment, the city and 
management of PHL have done an effective job of attracting both 
domestic and international flights to serve our region. Also, sizeable 
projects currently under construction will solve some of PHL's most 
irritating problems. Recent facility improvements such as Terminal A 
East have set a standard of quality at PHL that is appropriate for a 
major market community such as ours.
    However, the growth and quality of service that PHL can provide is 
dependent on its ability to expand its capacity, both in the air and on 
the ground. Currently, Philadelphia International Airport is among the 
five worst U.S. airports for departure delays. Routinely, the New York 
and Philadelphia metropolitan areas are among the top 10 that 
experience regular airport delays. As a result, PHL has garnered a 
negative reputation among air travelers that detracts from the region's 
quality of life and ability to attract and retain businesses who are 
highly dependent on airplane travel.
    With an eye on addressing such delay, in 2007, the FAA made the 
decision to redesign airspace along the eastern half of the United 
States. This area has the most complex and densely traveled airspace in 
the world. Travelers in and out of Greater Philadelphia will benefit 
from better air traffic flows, as will people traveling to and from 
Boston, Washington, DC and New York City.
    We favor improving the efficiency of operations at PHL. However, we 
believe that every effort should be made to ensure that the important 
goal of reducing delays at PHL be balanced with efforts to mitigate 
noise impacts in our community. We commend the FAA for listening to the 
concerned citizens of Delaware County and other communities, resulting 
in significant mitigation of the proposed headings over the County. We 
urge the new headings over Delaware County be used only when necessary 
to reduce delays on the ground as originally proposed by FAA. We are 
committed to working with the airport, the FAA and the region's 
Congressional delegation to help make sure that these appropriate 
mitigation measures are undertaken to preserve the quality of life in 
Delaware County and other communities.
    We also believe that preserving and enhancing the airport's ability 
to serve as an economic engine for the region will directly benefit 
Delaware County by providing job growth and increased tax revenue. In 
addition, we believe that the airport and its adjacent areas should be 
viewed strategically as a prime development opportunity where adjacent 
land uses could enhance PHL's ability to create jobs for nearby 
residents and tax revenues for Philadelphia, Delaware County and the 
region.
    We recently articulated our vision for the future of PHL in a 
letter to Mayor Michael Nutter and his Deputy Mayor for Transportation 
and Utilities, Rina Cutler. For the first time, I think it is realistic 
to say that the Mayor shares many of the same priorities for PHL as the 
city and region's business community and we are ready to work together 
to leverage and improve on this great infrastructure asset. To that 
end, we are certainly interested in Federal funding and assistance for 
developing the airport and its adjacent areas so that it can truly 
become a global hub for travel and business growth.
    Therefore, in order to accelerate recent progress, we hope that all 
stakeholders--the city of Philadelphia, the Commonwealth of 
Pennsylvania, neighboring jurisdictions, regional Federal officials, 
the Federal Aviation Administration, the Department of Homeland 
Security, air carriers serving PHL and the business community--should 
dedicate ourselves to completing a series of actions and facility 
projects over the next 10 years that will improve the quality of 
customer service, increase the availability of more non-stop flights, 
enhance the efficiency of operations and maximize the contribution of 
PHL to the quality of life and growth of regional prosperity here.
    With shared commitment and foresight, PHL can be the first class 
airport that this region needs. With that in mind, I am here today to 
offer the support of the Greater Philadelphia region's business 
community.
    In closing, let me thank you for the opportunity to provide 
comments this morning and I would be happy to answer any questions.

    Senator Specter. We'll work out the seating arrangements 
more carefully next time.
    Our next and final witness is executive vice president and 
chief operating officer of the Air Transport Association, Mr. 
John Meenan. Had been Assistant General Counsel with the 
Association, 9 years in the U.S. Secret Service, a Bachelor's 
Degree in Political Science from Holy Cross, a law degree from 
Santa Clara.
    Thank you for being with us, Mr. Meenan, and we look 
forward to your testimony.

STATEMENT OF JOHN MEENAN, EXECUTIVE VICE PRESIDENT AND 
            CHIEF OPERATIONS OFFICER, AIR TRANSPORT 
            ASSOCIATION OF AMERICA
    Mr. Meenan. Senator, thank you very much. I hope my written 
testimony can be submitted for the record, but I do want to 
thank you, on behalf of the airlines for the opportunity to 
appear here today to discuss both redesign and our scheduling 
practices.
    We've heard the airspace, the east coast airspace and the 
issue here affects the entire country, and that's absolutely 
true. What amazing about that is, is that that airspace today 
is being managed essentially the same way it was in the 1960s. 
We--it doesn't reflect current technology, it doesn't reflect 
the integration of airspace between New York and Philadelphia 
and Washington, it doesn't reflect the air traffic control 
technologies that exist, and are coming into being today.
    As a result, it's managed in a very complex way, and what 
Airspace Redesign is all about, is trying to eliminate and 
reduce those complexities, to make the flow of traffic move 
more smoothly, to better the working conditions for the air 
traffic controllers, we know there are a lot of issues that 
need to be worked through, but we're confident that those can 
be addressed.
    We're, of course, also mindful of the concerns expressed 
about the airlines' scheduling practices. And on that note, I 
would simply point out that at $4 a gallon for jet fuel, it's 
unrealistic to really think that airlines aren't doing 
everything they can to go after every passenger and every 
shipment they can, but they're certainly not wasting fuel for 
the purpose of simply flying around in the air.
    Now, how does this reflect itself at Philadelphia 
International? The FAA's published capacity rate for the 
airport, under optimal conditions, shows between 104 and 116 
operations an hour. Under IFR conditions, that drops to 96. 
Looking at projected June schedules for this year, in only 1 
hour of the day do those scheduled exceed by 4 operations--the 
96 level that the FAA publishes as the acceptable IFR rate for 
that airport. What that tells me is we're not over scheduling 
at the airport. Philadelphia should be able to handle that 
level of operations, it shouldn't be handling less than it did 
before.
    Senator Specter. Well, Mr. Meenan, if they are not 
overscheduled, why are these enormous delays?
    Mr. Meenan. In part, sir, because of the inadequate design 
of the airspace. That's one of the reasons for redesigning the 
airspace, so that we can move those airplanes more efficiently.
    Senator Specter. Well, how do you know that? When the 
schedules were established, what did you say? In 1999?
    Mr. Meenan. What I'm saying is that the FAA publishes rates 
based on data that the FAA analyzes to determine what an 
airport----
    Senator Specter. Publishes rates?
    Mr. Meenan. Rates of acceptable levels of operation at an 
airport, optimal conditions, as I say, 106 to 114. Under 
Instrument Flight Rule conditions, at Philadelphia, it's 96.
    Senator Specter. But, the schedule that they establish is 
reasonable flight--planes coming in and out--is based upon the 
current system. You talk about a revised system not using the 
air properly, well, that may be so, or it may not be so, but 
what we do know what is so, is what it's on now--are those 
allotments realistic with what is happening today?
    Mr. Meenan. I think, sir, what we know is that the rates 
have been published for more than a decade. We would be 
surprised, based on the billions of dollars that's been spent 
on the air traffic management system over the last decade, that 
we're handling fewer operations today than we were able to 
operate a decade ago. That's disappointing to us.
    Senator Specter. Handling fewer?
    Mr. Meenan. That's essentially what we would be saying, if 
we can't handle the levels of operations that the FAA told us a 
decade ago that that airport can handle.
    Senator Specter. Well, when they posted them a decade ago, 
was that for the flight patterns they had at that time?
    Mr. Meenan. It was for the flight patterns they had at that 
time.
    Senator Specter. And were there enormous delays on takeoffs 
and landings?
    Mr. Meenan. Those flight patterns, unfortunately, are still 
based on 1960s aircraft design characteristics, aircraft 
operating capabilities, FAA's air traffic control management--
--
    Senator Specter. Aren't there more planes now, then----
    Mr. Meenan. There are more planes, but they can perform 
better. They can perform much more precisely, they can climb 
more rapidly, they can move much more precisely through the 
airspace.
    Senator Specter. But there are many more planes.
    Mr. Meenan. There are, for example, there are 18,000 
business jets in operation today that we don't hear much about. 
All we seem to want to talk about is commercial jets----
    Senator Specter. Well, do they figure into the----
    Mr. Meenan. Very much so. They're 20 to 30 percent of the 
operations, for example, in the New York airspace during peak 
hours. We're not talking about them, we seem to only want to 
focus on the commercial operators, that are really looking to 
benefit the broader community.
    And on that, I would like to just briefly, the rest of my 
testimony touches on the fact that if you look at what we think 
is an indication of what----
    Senator Specter. You will have all of the time I took from 
you. It's not the Supreme Court of the United States where 
Chief Justice Rehnquist bangs the gavel at the end of the----
    Mr. Meenan. Senator, I certainly don't want to prolong 
this----
    Senator Specter. I've been there, when I defended the 
Philadelphia Navy Yard. And the rumor was--you'll get this 
time, too--the rumor was Chief Justice Rehnquist is looking for 
an opportunity to interrupt a lawyer in the middle of the word 
``if.''
    Your turn, Mr. Meenan.
    Mr. Meenan. There's 6 million people in the Philadelphia 
metropolitan area, there are 24 million passengers a year at 
Philadelphia, origin and destination passengers. Those are 
people who are coming from the community and using the airport. 
There's another, 20 or 30 percent more of connecting passengers 
there.
    Right now, this last summer, looking at the busiest period 
of the year, our load factors at the airport were over 80 
percent--83, 84, 85 percent. That's an extraordinarily high 
level of people getting on each and every airplane leaving that 
airport. What that tells me is, we're just meeting the demands 
of the community. We're trying to respond to the economic needs 
of the Philadelphia area.
    That's what we want to do, that's what we're in the 
business of doing. We want to be able to do that as 
efficiently, and as an environmentally friendly way as 
possible. We think the Airspace Redesign, for example, can help 
reduce emissions by 20 percent in the region. We think it can 
help reduce exposed noise population rather substantially, for 
the most part. There are always going to be small communities, 
they're going to be affected differently. We can't avoid that, 
at this point.
    One final note I would really like to emphasize, and that 
is that the airline industry today is in a far more serious 
financial meltdown than it was following 9/11.
    There are fundamental questions about the future of 
aviation in the United States. We think this is a particularly 
inappropriate time for the Department of Transportation to be 
talking about extracting more money from the airline industry 
for some economic experiment, rather than getting at the heart 
of some of these problems, and helping us move more airplanes 
as efficiently as possible.
    Senator Specter. You--are you finished?
    Mr. Meenan. I will end on that note.
    Senator Specter. Okay. I just----

                           PREPARED STATEMENT

    Mr. Meenan. But I--one more--we look forward to working 
with everyone--with you, with Congress, with the FAA, with the 
controllers, with the communities, with the airports--that's 
the business we're in.
    Senator Specter. I just wanted to be sure you felt that you 
were getting all of your 5 minute allowance.
    Mr. Meenan. I appreciate it very much, sir.
    [The statement follows:]

                   Prepared Statement of John Meenan

    On behalf of the Air Transport Association,\1\ let me begin by 
thanking the subcommittee for the opportunity to appear at today's 
field hearing. The level and quality of air service to and from 
Philadelphia is of vital importance to us and we look forward to 
discussing both the ongoing airspace redesign and airline scheduling 
practices.
---------------------------------------------------------------------------
    \1\ ATA airline members are: ABX Air, Inc.; AirTran Airways; Alaska 
Airlines, Inc.; Aloha Airlines, Inc.; American Airlines, Inc.; ASTAR 
Air Cargo, Inc.; Atlas Air, Inc.; Continental Airlines, Inc.; Delta Air 
Lines, Inc.; Evergreen International Airlines, Inc.; Federal Express 
Corporation; Hawaiian Airlines; JetBlue Airways Corp.; Midwest 
Airlines; Northwest Airlines, Inc.; Southwest Airlines Co.; United 
Airlines, Inc.; UPS Airlines; and US Airways, Inc. ATA Airline 
Associate Members are: Air Canada, Air Jamaica Ltd. and Mexicana.
---------------------------------------------------------------------------
    As to the former, as the subcommittee is aware, the Federal 
Aviation Administration (FAA) has undertaken a multi-year, four-stage 
project to re-engineer the way the Nation's airspace is utilized in the 
New York/New Jersey/Philadelphia Metropolitan Area. This project has 
been in development for 10 years and has been the subject of an 
extensive environmental review. It is critically important.
    Why? The airspace under review is among the most heavily congested 
in the United States. This is not surprising given that the aviation 
marketplace in the metroplex both fuels and benefits from the vibrant 
economy of the region. What is surprising, however, is the fact that 
the way this airspace is currently being managed is based on aircraft 
performance characteristics and air traffic control technologies dating 
to the early 1960s.
    As a result, the way the airspace is managed is extremely 
complicated--and that complexity leads to avoidable delays. By re-
engineering the airspace to take greater advantage of modern aircraft 
climb capabilities, improved speed, higher altitude capability and more 
precise navigation technology--and by better integrating the way the 
airspace is managed in relation to adjoining airspace--we can move more 
aircraft even more safely and with greater efficiency. Aside from the 
obvious benefit of reduced delays, the FAA projects a drop in people 
exposed to noise levels above 45 DNL of 619,000 and a reduction of 
aircraft emissions by 20 percent. In an era of $4 per gallon jet fuel, 
of course, we would also welcome the associated reduction in fuel burn.
    In addition to these benefits, the redesign is also intended to 
reduce and improve the balance of air traffic controller workload by 
permitting the more efficient flowing of traffic through the airspace. 
It will enhance departure capabilities with additional headings--a key 
to reducing delays--and provide greater flexibility in routing aircraft 
during significant weather events.
    We are, of course, also mindful of concerns expressed about airline 
scheduling and the often expressed concern with ``over-scheduling.'' To 
return the focus to $4 per gallon jet fuel for just a moment, I would 
simply note that airlines are intensely motivated to schedule flights 
to meet public demand for air transportation--they are seeking every 
passenger (or shipper) possible. Excess capacity or over-scheduling 
makes no sense.
    How does this reflect itself at Philadelphia International Airport? 
The FAA's published capacity rate for the airport under optimal 
conditions is between 104 and 116 operations per hour. Under instrument 
flight rule (IFR) conditions that rate drops to 96 per hour. Looking at 
projected June 2008 airline schedules, reflecting the busiest travel 
season, there is only one hour in which scheduled operations exceed (by 
4) the published IFR capacity of the airport. At no point do scheduled 
operations exceed the optimal conditions rates. These levels of demand 
are consistent with what Philadelphia Airport is capable of handling.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The data is also strongly suggestive that these schedules are 
driven by consumer demand. The best indicator is to look at the load 
factors expected on flights at Philadelphia Airport. For the June 2008 
schedule cited, looking back to last summer offers the best picture of 
what to expect this summer. What we see is that the average load factor 
for the two largest carriers operating at Philadelphia Airport exceeded 
84 percent for this time frame. That is an extraordinarily high 
percentage of filled seats on each and every flight and we have every 
reason to believe that will be equaled if not exceeded this summer. 
Rather than over-scheduling it would appear that the carriers are 
hitting the mark in meeting the market demand.

                     WN/US AVERAGE PHL LOAD FACTORS
------------------------------------------------------------------------
                                                               Percent
------------------------------------------------------------------------
June 2007..................................................        84.16
July 2007..................................................        84.43
August 2007................................................        83.37
------------------------------------------------------------------------

    In conclusion, the stakes for airspace redesign are high. This is a 
program with tremendous potential to pay noise, emissions, reduced fuel 
consumption and delay reduction dividends. Properly implemented, the 
long-term benefits to the regional and national economies are 
tremendous and we look forward to working with the FAA, the 
controllers, the airport, the community and all interested stakeholders 
to assure that those benefits are realized.
    Thank you and I would, of course be pleased to respond to any 
questions.

    Senator Specter. With an exception I took.
    I will begin the questioning with you, Mr. Meenan.
    Will you set the clock at 5 minutes please? Not that I'll 
observe, but I'd like to know what the time is.
    The chairman doesn't have to observe the time limit. The 
witnesses do, and that's only to try to inject some mortar into 
focus as to what, at least the subcommittee thinks is relevant.
    You said, Mr. Meenan, something about the Government 
extracting funds from the airlines and you were in disagreement 
with what they were doing. Would you expand on that?
    Mr. Meenan. The--the subject is this--this economic 
experiment that's being tried up at LaGuardia to take more 
money, effectively, out of the airline industry and turn it 
over to the Government. And the putative purpose behind that is 
to--to move airplanes out of particular slots in the day.
    Senator Specter. You think that's a bad idea?
    Mr. Meenan. We think that's a very bad idea. We think that 
the industry is----
    Senator Specter. Especially since the FAA thinks they're 
adequately financed?
    Mr. Meenan. The FAA does think they're adequately financed, 
but I----
    Senator Specter. So why are they asking for more money at 
LaGuardia?
    Mr. Meenan. The----
    Senator Specter. That's a question for them, not you.
    Mr. Meenan. That's a question really that I can't answer. 
But the--our point in it is, the airline industry needs every 
penny it has today to try to improve the way we fly people 
around the country, the service we provide to the public, the 
way we replace our fleet. The U.S. airline fleet is aging 
rapidly and we are unable to replenish that fleet, because we 
don't have the money to do it.
    That's why we are opposed to things that simply take more 
money off the table. We think they're hurting the end-game--the 
end-goal here, which is improving service.
    Senator Specter. Mr. Meenan, you heard the testimony about 
the enormous delays in the Philadelphia Airport, takeoff and 
landing, and the way they're scheduling 35 flights in 45 
minutes, can't possibly handle it. Do you think that is 
satisfactory?
    Mr. Meenan. Senator, the carriers are always looking at the 
way they schedule to try to improve their performance, to try 
to improve their on-time performance overall. We think that--
and I will say that the carriers are precluded from talking to 
one another about how they schedule those flights, as you know.
    But on balance, we think an airport like Philadelphia, with 
a published capacity of 96 instrument flight rule operations 
per hour, ought to be able to handle, pretty comfortably, 96 
instrument flight rule operations per hour.
    Senator Specter. Now would you answer my question?
    Mr. Meenan. And that was----
    Senator Specter. Forgot it.
    Mr. Meenan. I'm not sure----
    Senator Specter. With the enormous delays, takeoff and 
landing, which you hear, and I repeated something just now, is 
that satisfactory?
    Mr. Meenan. Not at all.
    Senator Specter. Okay. That's all I wanted to know. And if 
you look for the years ahead, on a speculative basis, it is too 
long to wait and who knows what we'll get at the end of the 
wait.
    What--do you think--well let me go to Congressman Sestak, 
do you think, in light of the fact that the FAA has the 
authority now to impose caps and they haven't done it, that the 
House and Senate--I put the House first--that the House and 
Senate ought to impose mandates?
    Mr. Sestak. No sir, I don't think they should do that right 
now.
    Senator Specter. Should do that?
    Mr. Sestak. I do not think that they should do that right 
now. It is an option later. I think that there is a better way 
to approach this.
    Senator Specter. Congressman Sestak, would you follow the 
suggestion of your colleague, Congressman Dent, from the Lehigh 
Valley who--understandably on grounds of representing the 
Lehigh Valley--would like to have that airport used more. He 
makes an argument of accessibility from a good part of the 
metropolitan area, not too far--if you start, say at Willow 
Grove, probably closer to the Lehigh Valley Airport than the 
Philadelphia Airport. Do you think there ought to be a big 
effort made to use that airport more?
    Mr. Sestak. Yes, sir. Lehigh and New Castle. And as you 
know, when the BRAC Commission closed Willow Grove, it was 
inserted in the language that the future use of this was to be 
used as a civilian airport.
    Senator Specter. You had mentioned Washington and Baltimore 
and flights, do you think that there ought to be a prohibition 
on flights from those cities, to use alternative transportation 
like Amtrak?
    Mr. Sestak. No sir, I don't think that there should be, 
right now, a prohibition. I think a better way to do it is to 
invest in a bullet-like type of train, like Shanghai has or 
Maglev capability, which you well know, because I know your 
office is following this, that Pittsburgh is developing--and 
Delaware County Community College is investing in--so that 
someone can get on a train and be there in relative minutes.
    I think that type of positive incentive to move to a 
different type of inter-modal transportation is the way to do 
it, if you can avoid mandating it from the Government level.
    Senator Specter. Do you see a way to integrate Pittsburgh, 
Congressman Sestak, into the issues and problems we're facing 
here, for some of the answer?
    Mr. Sestak. Yes sir, I do. There has been a proposal, and I 
believe Brian Lentz the State Representative has, that there 
should be much more of a regional airport approach to this. We 
have, as Mr. Whelan's pointed out, two-thirds of this airport 
is actually in Delaware County, but the authority resides in 
Philadelphia. I believe that, both on the--as you, I believe, 
are addressing--I hope I'm answering the question--there are 
all these airports in the region----
    Senator Specter. And you think the Pittsburgh Airport could 
figure in that?
    Mr. Sestak. Yes sir, I do, in the sense that what--where 
does Pittsburgh fly to? For example, does it fly to Harrisburg? 
Or does it fly to--and I don't know the answer to that. But if 
you then look at where it is flying to, can we then, not just 
on the Airspace Regional Plan, but on the Surface Regional 
Plan, actually alleviate the demands.
    Senator Specter. But how could that take pressure off of 
the Philadelphia Airport?
    Mr. Sestak. I'm not sure, sir, right now. I just--as I 
said, I believe it can work itself in.
    Senator Specter. Mr. Meenan, is there any realistic way to 
utilize Pittsburgh to take pressure off of Philadelphia?
    Mr. Meenan. I think it obviously is something that 
individual carriers have to decide where they want to base 
their operation. But when you're running a network system, if 
that's what you're talking about, you pick a particular spot 
for a hub, and that's where you work out from.
    Senator Specter. Well, the airlines have made their 
choices.
    Mr. Meenan. But other--other carriers certainly have 
decided Pittsburgh is a great spot for business. There are 
carriers providing a lot of service there.
    Senator Specter. But the question is, would it take 
pressure off of Philadelphia?
    Mr. Meenan. I don't really think it, I mean, when you--if 
you want an airport like Philadelphia to grow and expand into a 
worldwide airport, the more service you have in and out of 
there, the more rapidly that worldwide service will develop. By 
dispersing yourself into, you know, backyard sort of steel 
mills isn't going to get you there.
    Mr. Sestak. Mr. Senator, may I ask----
    Senator Specter. Of course, it looks like you have 
something critical, because I do want to move on to some of the 
other panelists quick.
    Mr. Sestak. May I just--the critical issue I think in this 
is, a lot, a vast majority--when you take off from 
Philadelphia, air traffic goes into New York airspace. The 
delays are not caused by Philadelphia, the delays, as the 
controllers can tell you, are caused because they wait on the 
tarmac, waiting for New York airspace to open up. If Pittsburgh 
airspace--aircraft are also jamming itself into that New York 
airspace, that's part of the delay in Philadelphia. So there is 
an interconnection.
    Mr. Meenan. Senator?
    Senator Specter. Mr. Forrey, you talked about shortage and 
fatigue. Could you amplify your thought that that is 
contributing to the delays?
    Mr. Forrey. Well, the fewer controllers you have, the fewer 
positions you can open, so the controllers are now required to 
work more aircraft, they're busier, it's a greater workload, 
they get tired quicker. And when you get tired you make 
mistakes, so when you are prone to make mistakes, you try to be 
more careful. As you're being more careful, you may end up 
causing more delays. So, it's just a question of the ability to 
manage traffic in a safe and efficient manner, and the more 
tired you get, the harder that is.
    Senator Specter. I was distracted for a moment, would you 
repeat that answer?
    Mr. Forrey. Yes, sir. I'd certainly be happy to.
    Senator, when you have fewer controllers and they're 
working more positions combined, they're working more aircraft 
combined, the workload is greater and it creates quite a bit of 
mental fatigue. And when you know you're prone to making 
mistakes, you try to be more careful, so you try to be more 
precise and direct and slow down. So, that's part of the 
difficulty. Or, you get jammed up quicker and now you've got a 
mess on your hands and you have to shut things off before you 
can clean it up, because you have to be safe before you are 
anything else.
    Senator Specter. Vice Chairman Whelan, I'm very much 
impressed with the specific situation, you commented about 
people being kept awake 12 a.m. to 5 a.m., because the FAA says 
they don't use that flight--in that timeframe. That from 10 
p.m. to 7 a.m. they fly across the river.
    I would ask you, how do you account for that, but there's 
no way you can. What do you think of that?
    Mr. Whelan. Well, you're correct, I can't account for it, 
but I can tell you, I'm getting a myriad of complaints at that 
particular timeframe.
    Just last week, I received a complaint from a couple of 
senior citizens that live on Colonial Drive in Nether 
Providence Township. They say they are constantly being awoken 
in the night, but their problem area is anywhere from 8 p.m., 
right through the middle of the night. I was going to schedule 
a visit to that particular neighborhood to see what's going on, 
but it's contrary, clearly, to what the FAA testified here 
today.
    Senator Specter. Mr. Whelan, I'd like to get those 
specifics from you, and have my staff contact you to get those 
specific people, copies of your correspondence, so we can 
confront the FAA.
    You've heard what they've had to say here about the hours 
they don't fly over Delaware County, at a very minimum, they 
really ought to be observing that. We heard what might be 
characterized as double-talk about peak hours and not more than 
10 flights waiting, et cetera, et cetera. We're going to have 
to see to it that at least they abide by their own rules. They 
try to make a case of necessity for some of those flights, but 
they've established times where they say they won't fly, they 
at least ought to be held to that.
    Mr. Aichele, how serious do you think this problem is of 
retarding growth of business?
    Mr. Aichele. It's clearly----
    Senator Specter. In the region?
    Mr. Aichele. It's serious. It's clearly having an impact 
today, and to the extent that you try to resolve the issue by 
laying off flights or moving flights to more convenient times, 
you will end up further exacerbating the issue of the 
convenience for business travelers coming and going from 
Philadelphia.
    We have had situations where meeting planners have told our 
folks that when they're coming to Philadelphia, they schedule 
a, you know, an hour or 2 hour earlier flight, just to make 
sure they account for the delays. And if they're telling us 
that, imagine what they're telling their people, the folks that 
are scheduling, what do you call that--bringing businesses into 
town--they're the site selectors.
    Senator Specter. Mr. Aichele, what do you think about the 
proposition that the FAA on its own ought to impose limits, and 
see to it that schedules are established so that they're not 
overbooked to have the long delays?
    Mr. Aichele. It seems--as a business person--I'd always 
rather have less Government regulation, then more.
    On the other hand----
    Senator Specter. You're not just a business person, you're 
a lawyer, you're the head of a very big law firm.
    Mr. Aichele. Who very much appreciates the importance of 
convenience in getting in and out of our airport to the rest of 
the cities we need to be at.
    Where I was going is----
    Senator Specter. How many cities do you have offices in?
    Mr. Aichele. Eight different cities throughout the region.
    Senator Specter. You must use air traffic.
    Mr. Aichele. All the time. And we suffer the delays in 
spades.
    Senator Specter. Do you have to schedule 2 hours early, to 
be sure you get there?
    Mr. Aichele. Yes, sir.
    Senator Specter. What's your hourly rate?
    You don't have to answer that question.
    Mr. Aichele. Thank you, sir.
    Senator Specter. But those 2 hours are costing a lot of 
money.
    Mr. Aichele. Yes, sir. There's no doubt about it. And that 
inefficiency, that exact inefficiency is----
    Senator Specter. I used to--I used to do that.
    Now, you might be interested to know, not relevant to this 
subject, that I've asked Laurie Frankly to appear before the 
International Trade Commission. The U.S. Steel Industry wants 
me to appear there.
    I'm not sure they like the quality of my argument, but they 
certainly like my hourly rate. I don't do case law.
    So, what do you think about FAA establishing schedules so 
that you don't have to leave 2 hours early? See to it that we, 
if not eliminate, at least minimize these long waits?
    Mr. Aichele. If it maintains or increases the capacity of 
the airport to bring people into this town and get people out 
of the town, then it's something that should be looked at.
    Senator Specter. Anybody else have anything they'd like to 
have added to this fund of knowledge?
    I thought you might, Congressman Sestak.
    Mr. Sestak. Thanks, Senator. I just wanted to make it clear 
that all we want is to ask this to stop and have a true cost-
benefit study done, where the costs are transparent and the 
benefits are transparent.
    Then society, the citizens, the Government can make a 
decision objectively--what are the right options? I honestly 
believe that when all of the costs are out there, that it will 
force you to look at these other options that you've, at least, 
asked questions about--regional airports, or caps, or other 
ones, and then you can look at the fair spread of options.
    Because it is true, this is an important economic 
development. We just believe that this has come to a--since 
that 2003 legislation to a single-source solution that has 
not--as FAA Administrator says, where they have--don't even 
know the cost financially, never mind the impact on education 
and health--and then have an objective assessment done.
    Senator Specter. Well, thank you very much, gentlemen. 
We're now approaching the 2\1/2\ hour mark, and it had run 
longer than I had anticipated, but I did not want to cut 
anybody short, I wanted to explore one of the issues fully. It 
took months to schedule this hearing, to get the FAA to come to 
Philadelphia--very, very hard to get them to do that, had a lot 
of preparation time when they appeared before the subcommittee 
in Washington, and a lot of correspondences. And I sat down for 
an hour with them earlier this week, to get a background so 
that we--it wasn't too easy to illicit information today. But 
you should have been with me on Wednesday for an hour.
    But these are complex matters, and they require a lot of 
explanation.

                         CONCLUSION OF HEARING

    But we very much appreciate your coming, and that concludes 
our hearing.
    [Whereupon, at 5:38 p.m., Friday, April 25, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
